<html>
<title> - WORLDWIDE THREATS TO THE HOMELAND</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]




 
                   WORLDWIDE THREATS TO THE HOMELAND

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 17, 2014

                               __________

                           Serial No. 113-85

                               __________

       Printed for the use of the Committee on Homeland Security
       
                                     

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________
                               
                               
                            U.S. GOVERNMENT PUBLISHING OFFICE
93-367 PDF                       WASHINGTON : 2015                            
                               
_______________________________________________________________________________________    
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="8ee9fee1ceedfbfdfae6ebe2fea0ede1e3a0">[email&#160;protected]</a>  
2015

                          
                               
                               

                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Paul C. Broun, Georgia               Yvette D. Clarke, New York
Candice S. Miller, Michigan, Vice    Brian Higgins, New York
    Chair                            Cedric L. Richmond, Louisiana
Patrick Meehan, Pennsylvania         William R. Keating, Massachusetts
Jeff Duncan, South Carolina          Ron Barber, Arizona
Tom Marino, Pennsylvania             Dondald M. Payne, Jr., New Jersey
Jason Chaffetz, Utah                 Beto O'Rourke, Texas
Steven M. Palazzo, Mississippi       Filemon Vela, Texas
Lou Barletta, Pennsylvania           Eric Swalwell, California
Richard Hudson, North Carolina       Vacancy
Steve Daines, Montana                Vacancy
Susan W. Brooks, Indiana
Scott Perry, Pennsylvania
Mark Sanford, South Carolina
Curtis Clawson, Florida
                   Brendan P. Shields, Staff Director
                   Joan O'Hara, Acting Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas, and Chairman, Committee on Homeland 
  Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Oral Statement.................................................     4
  Prepared Statement.............................................     6

                               Witnesses

Hon. Jeh C. Johnson, Secretary, U.S. Department of Homeland 
  Security:
  Oral Statement.................................................     8
  Prepared Statement.............................................     9
Mr. James B. Comey, Director, Federal Bureau of Investigation, 
  U.S. Department of Justice:
  Oral Statement.................................................    11
  Prepared Statement.............................................    12
Mr. Matthew G. Olsen, Director, National Counterterrorism Center:
  Oral Statement.................................................    15
  Prepared Statement.............................................    17

                             For the Record

The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas:
  ``State of Confusion: ISIS' Strategy and How to Counter It'', 
    Brookings, Foreign Affairs, Opinion/September 11, 2014, By: 
    William McCants..............................................    33
  H.R. 548.......................................................    35

                                Appendix

Questions From Honorable Paul C. Broun for Jeh C. Johnson........    63
Questions From Honorable Ron Barber for Jeh C. Johnson...........    65
Question From Honorable Donald M. Payne for Jeh C. Johnson.......    66
Questions From Honorable Paul C. Broun for James B. Comey........    67
Questions From Honorable Paul C. Broun for Matthew G. Olsen......    67
Question From Honorable Susan W. Brooks for Matthew G. Olsen.....    68


                   WORLDWIDE THREATS TO THE HOMELAND

                              ----------                              


                     Wednesday, September 17, 2014

             U.S. House of Representatives,
                    Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10:08 a.m., in Room 
311, Cannon House Office Building, Hon. Michael T. McCaul 
[Chairman of the committee] presiding.
    Present: Representatives McCaul, King, Rogers, Broun, 
Meehan, Duncan, Chaffetz, Palazzo, Barletta, Daines, Perry, 
Sanford, Clawson, Thompson, Jackson Lee, Clarke, Higgins, 
Richmond, Keating, Barber, Payne, O'Rourke, Vela, and Swalwell.
    Chairman McCaul. The Committee on Homeland Security will 
come to order.
    The committee is meeting today to examine world-wide 
threats to the security of the homeland of the United States. 
Before we begin today, I would like to remind our guests that 
demonstrations from the audience, including the use of signs, 
placards, T-shirts, as well as verbal outbursts, are a 
violation of the rules of the House. I would like to thank our 
guests for their cooperation in maintaining order and decorum 
during today's hearing.
    I now recognize myself for an opening statement.
    Secretary Johnson, Director Comey, Director Olsen, we have 
asked you to come before the committee today to discuss the 
array of threats facing the U.S. homeland and the Government's 
response. The chief concern of ours is the proliferation of 
terrorist safe havens around the world. The 9/11 commission's 
No. 1 recommendation was to use all elements of National power 
to deny sanctuary to terrorist groups. Yet we have seen safe 
havens spread with alarming speed in recent years.
    Such territory makes it far easier for terrorist groups to 
train recruits and hatch plots against the West. During this 
administration, no less than three extremist sanctuaries have 
emerged or expanded in Syria, Iraq, and Libya. In Afghanistan, 
if the administration goes forward with the plan to withdraw 
our troops like they did in Iraq, we might see terrorists 
reclaiming the territory from which they planned 9/11.
    Our obvious and most immediate concern is the Islamic State 
of Iraq and Syria, or ISIS. I agree with the President that 
this group does not represent a legitimate state, but it is, 
rather, a cabal of butchers peddling a violent and perverted 
brand of Islam. However, it should never have been taken--taken 
the beheading of two Americans for our Government--it should 
never have taken that to wake up the American people to this 
menace.
    We have known for many months that ISIS was surging and 
represented the top threat to the United States. But the White 
House dithered without taking action and the President played 
down the danger. Despite recent U.S. strikes against the group, 
ISIS still holds onto thousands of square miles of territory 
where they are able to operate their terrorist army. Recent 
estimates indicate that they may have up to 30,000 fighters, of 
which 2,000 or so are Americans and Europeans.
    These radicalized Westerners represent an exceptionally 
grave threat to the U.S. homeland because of their militant 
training, extremist connections, ease of travel, and intimate 
knowledge of the West. Today, we expect to hear about the 
administration's strategy to detect, deter, and disrupt the 
return of these foreign fighters to the U.S. territory and that 
of our allies. Let us be clear, our Nation is at war with this 
group and the twisted ideology it is seeking to spread.
    We must consider all instruments of National power to roll 
back and defeat these fanatics now and destroy them wherever 
they emerge. For if we do not take the fight to the enemy 
overseas, we risk having to fight them here at home.
    Our military efforts must include airstrikes in Syria to 
cut off the head of the snake. Top military advisers to the 
President, including the chairman of the joint chiefs, General 
Martin Dempsey, have said that to defeat ISIS, its safe haven 
in Syria must be destroyed. I agree with him. I hope the 
President is taking the advice of his top commanders and 
generals in the Pentagon.
    But ISIS is not the only threat we face. I hope we hear 
today how your agencies are working together to address the 
wider danger from violent Islamist extremism here at home and 
abroad. The White House has presented a false narrative in 
recent years about this threat, claiming, for instance, that 
al-Qaeda was on its heels, on the path to defeat, has been 
decimated, while in reality, al-Qaeda network has grown and 
materialized into a deadly global franchise with a spider web 
of affiliates and ideologically-similar groups attempting to 
fill the power vacuums across the Middle East, Africa, and 
Southeast Asia.
    The ideological struggle against violent Islamist 
extremists is taking place not just overseas, but also here at 
home. There have been more than 70 home-grown violent Jihadist 
plots or attacks in the United States since 9/11, according to 
the Congressional Research Service. More than two-thirds of 
them have been uncovered or have taken place in only the past 5 
years.
    Many of the suspects were radicalized, at least in part, by 
on-line Islamist propaganda, including the Boston Marathon 
bombers and the Fort Hood attacker, a tool ISIS excels at and 
utilizes.
    Additionally, Federal authorities indicted--just yesterday, 
indicted a U.S. citizen from Rochester for raising money, 
recruiting, and facilitating training for ISIS.
    While the United States continues to battle physical 
threats posed by terrorist organizations, we must also be 
vigilant protecting the homeland against asymmetric threats 
like cyber attacks from state or non-state actors.
    President Obama recently noted that the cyber threat is one 
of the most serious economic and National security challenges 
we face as a Nation. Sadly, many experts believe the Nation is 
woefully underprepared to protect itself in this domain. In a 
recent report from the bipartisan Policy Center, former 9/11 
commissioners described the U.S. cyber preparedness as being at 
pre-September 11 levels.
    Last month, Defense Secretary Hagel said the world is 
exploding all over. I agree with Secretary Hagel's assessment. 
We look forward to your testimony here today, surveying the 
threat landscape and elaborating on how we are countering those 
set against us and our interests.
    Before I turn it over to the Ranking Member Thompson, I 
would like to note that this is the first time that the FBI 
director has appeared before this committee. Sir, we very much 
appreciate your presence here today.
    If I could ask that the Members be cordial to him so that 
we will hopefully have his return appearance before this 
committee.
    Additionally, this is likely one of the last Congressional 
appearances for NCTC Director, Matt Olsen, who has announced 
his retirement. We thank you for your service, sir, over the 
years--25 years of service to the Government, Director Olsen, 
and we appreciate you being here and everything that you have 
done to protect Americans here in the homeland. It has been a 
real honor to work with you.
    Secretary Johnson, you have been on the job at DHS for 9 
months, and I appreciate your good work and outstanding 
relationship that we have built over those years of--or months 
that you have taken office. I look forward to having you appear 
before this committee again.
    Thanks for your--if I could just also, I was in New York 
yesterday. Secretary Johnson was leading the Governors in New 
York and New Jersey, the FBI, CBP, Homeland Security officials, 
the Joint Terrorism Task Force in such a professional manner. 
It was really refreshing to see that kind of leadership coming 
from our Department on a very serious topic. So, thank you for 
your leadership, sir.
    [The statement of Chairman McCaul follows:]
                Statement of Chairman Michael T. McCaul
                           September 17, 2014
    Secretary Johnson, Director Comey, and Director Olsen--we've asked 
you to come before the committee today to discuss the array of threats 
facing the U.S. homeland and the Government's response.
    A chief concern of ours is the proliferation of terrorist safe 
havens around the world. The 9/11 Commission's No. 1 recommendation was 
to use ``all elements of National power'' to deny sanctuary to 
terrorist groups, yet we have seen safe havens spread with alarming 
speed in recent years. Such territory makes it far easier for terrorist 
groups to train recruits and hatch plots against the West.
    During this administration, no less than three extremist 
sanctuaries have emerged or expanded--in Syria, Iraq, and Libya. In 
Afghanistan, if the administration goes forward with its plan to 
withdraw our troops like they did in Iraq, we might see terrorists 
reclaiming the territory from which they planned 9/11.
    Our obvious and most immediate concern is the Islamic State of Iraq 
and Syria, or ISIS. I agree with the President that this group does not 
represent a legitimate ``state'' but is rather a cabal of butchers 
peddling a violent and perverted brand of Islam. However, it should 
never have taken the beheading of two Americans for our Government to 
wake up the American people to this menace. We have known for many 
months that ISIS was surging and represented the top threat to the 
United States. But the White House dithered without taking action, and 
the President played down the danger.
    Despite recent U.S. strikes against the group, ISIS still holds 
onto thousands of square miles of territory where they are able to 
operate their terrorist army. Recent estimates indicate that they may 
have up to 30,000 fighters, of which 2,000 or so are Americans and 
Europeans. These radicalized Westerners represent an exceptionally 
grave threat to the U.S. homeland because of their militant training, 
extremist connections, ease of travel, and intimate knowledge of the 
West.
    Today, we expect to hear about the administration's strategy to 
deter, detect, and disrupt the return of these foreign fighters to U.S. 
territory and that of our allies.
    Let us be clear: Our Nation is at war with this group and the 
twisted ideology it is seeking to spread. We must consider all 
instruments of National power to rollback and defeat these fanatics now 
and destroy them wherever they emerge. Or, if we don't take the fight 
to the enemy overseas, we risk having to fight them here at home.
    Our military efforts must include airstrikes in Syria to cut of the 
head of the snake. Top military advisors to the President, including 
the Chairman of the Joint Chiefs General Martin Dempsey, have said that 
to defeat ISIS its safe haven in Syria must be destroyed. I agree with 
him, and I hope the President is taking the advice of his top 
commanders and generals.
    But ISIS is not the only threat we face. I hope we hear today how 
your agencies are working to address the wider danger from Violent 
Islamist Extremism here at home and abroad.
    The White House has presented a false narrative in recent years 
about this threat, claiming for instance that al-Qaeda was ``on its 
heels,'' ``on the path to defeat,'' and had been ``decimated.'' While, 
in reality, the al-Qaeda network has grown and materialized into a 
deadly global franchise, with a spider web of affiliates and 
ideologically-similar groups attempting to fill the power vacuums 
across the Middle East, Africa, and South East Asia.
    The ideological struggle against Violent Islamist Extremism is 
taking place not just overseas, but also here at home. There have been 
more than 70 home-grown violent jihadist plots or attacks in the United 
States since 9/11, according to the Congressional Research Service. 
More than two-thirds of them have been uncovered or have taken place in 
only the past 5 years. Many of the suspects were radicalized at least 
in part by on-line Islamist propaganda, including the Boston Marathon 
bombers and the Fort Hood attackers, a tool ISIS excels at utilizing.
    Additionally, last night Federal authorities indicted a U.S. 
citizen from Rochester, NY for raising money, recruiting, and 
facilitating travel for ISIS.
    While the United States continues to battle ``physical threats'' 
posed by terrorist organizations, we must also be vigilant in 
protecting the homeland against asymmetric threats like cyber attacks 
from state and non-state actors. President Obama recently noted that 
the ``cyber threat is one of the most serious economic and National 
security challenges we face as a Nation.'' Sadly, many experts believe 
the Nation is woefully underprepared to protect itself in this domain. 
In a recent report from the Bipartisan Policy Center, former 9/11 
Commissioners described the U.S. cyber preparedness as being at pre-
September 11 levels.
    Last month, Defense Secretary Hagel said ``The world is exploding 
all over.'' I agree with his assessment and we look forward to your 
testimony today surveying the threat landscape, and elaborating on how 
we are countering those set against us and our interests.
    Before I turn it over to Ranking Member Thompson, I would note this 
is the first time the FBI director has appeared before this committee, 
and we very much appreciate your presence. Additionally, this is likely 
one of the last Congressional appearances for NCTC Director Matt Olsen 
who has announced his retirement. We thank you for your service, 
Director Olsen, and appreciate you being here. It has been a true honor 
to work with you. Secretary Johnson, you've been on the job at DHS for 
9 months. I appreciate our good working relationship and look forward 
to having you appear before the committee for some time to come.

    Chairman McCaul. With that, the Chairman now recognizes the 
Ranking Member, Mr. Thompson.
    Mr. Thompson. Thank you, Mr. Chairman. I also thank you for 
holding this very important hearing. However, we are also 
fortunate to have an exceptionally accomplished and 
knowledgeable panel of witnesses to discuss the current threat 
picture.
    Secretary Johnson, welcome back. You have offered 
informative and useful testimony before this committee, and I 
expect today will be no different.
    Direct Comey, it is a great pleasure to have the bureau 
participate in today's discussion. As the Chairman has said, 
this is the FBI's maiden voyage before this committee. We look 
forward to your testimony. I hope that it won't be your last. 
We will work on that, I am sure.
    Mr. Olsen, your years of Federal service, the Chairman has 
already spoken to, thank you for all the contributions you have 
made. I am certain the future is still very bright for you. So, 
thank you very much. I wish you the best in that transition.
    Mr. Chairman, 13 years ago this week, just days after the 
horrific September 11 terrorist attack, then-President George 
W. Bush addressed Congress and the Nation. In his address, 
President Bush stated, ``Our war on terror begins with al-
Qaeda. And it will not end until every terrorist group of 
global reach has been found, stopped, and defeated.''
    Thirteen years later, there have been some successes, 
particularly against core al-Qaeda. But, as we know, not all 
terrorist groups have been found, stopped, and defeated.
    Those of us who were in the audience when President Bush 
delivered his address could not have predicted how the 
terrorist threat would evolve. At this time, Congress was 
completely focused on preventing another large-scale attack on 
U.S. soil.
    In 2001, we understood al-Qaeda to be a centralized 
organization. No thought was given to the prospect that al-
Qaeda would franchise terrorism and inspire satellite groups in 
the Arabian Peninsula and Africa. The prospect that an attack 
would be carried out by a lone-wolf actor with no direct 
training or support from al-Qaeda barely entered the 
discussion.
    We were thinking that terrorist groups were focused on 
taking human lives. We did not predict that in a decade after 
September 11, state actors or terrorist groups would try to 
devastate our economy and steal valuable intellectual property 
by targeting our cyber infrastructure.
    Finally, we could not have imagined that on the eve of the 
13th anniversary of 9/11, another American President would come 
before the American people to make the case for defeating and 
destroying a terrorist organization. Indeed, the threat from 
the Islamic State of Iraq and Lebanon is legitimate and 
warrants attention.
    That said, the situation on the ground in Syria is fluid 
and complex. Defeating and destroying ISIL in this context, is 
no easy task. I cannot stress enough the need for vigilance and 
care, particularly should we decide to partner with individuals 
on the Syria and to try and defeat ISIL.
    In addition to our efforts abroad, we need to remain 
vigilant and improve the preparedness and resilience at home. 
Last month's arrest of Don Morgan illustrates my long-standing 
view that we must reject specific ethnic or religious profiles 
of would-be terrorists. Violent extremism has no race, 
ethnicity, religion, or culture, and there is no single profile 
or pathway for individuals who come to embrace violent 
extremism.
    Also since September 11, State and local law enforcement 
have received grant funding from the Federal Government to 
prepare and prevent terrorist activity. We saw the value of 
this grant funding after the bombing at last year's Boston 
Marathon as the police wore protective gear and stabilized the 
situation.
    More recently, there was an example of what I believe to be 
an improper use of Federal equipment and resources in Ferguson, 
Missouri. Better oversight and tighter control of how Federal 
homeland security and law enforcement resources are used by 
State and local partners is one area that needs to be improved.
    Another area that is a perennial challenge is information 
sharing with State and local law enforcement. Even with Fusion 
Centers and Joint Terrorist Task Forces, 13 years after 
September 11, we still hear that information sharing can be 
improved. Given threats from ISIL, al-Qaeda, lone-wolf actors 
and other terrorist organizations, is there a way to an optimal 
relationship between Federal, State, and local partners?
    The 13 years since September 11 have shown us that we 
cannot have a myopic or narrow view of the terrorist threats we 
face. It is my hope that today we engage in a productive 
dialogue about the variety of threats to our Nation.
    Thank you, and I yield back, Mr. Chairman.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                           September 17, 2014
    We are fortunate to have an exceptionally accomplished and 
knowledgeable panel of witnesses to discuss the current threat picture. 
Secretary Johnson, welcome back. You have offered informative and 
useful testimony before, and I expect today to be no different. 
Director Comey, it is great to have the Bureau participate in today's 
discussion. I believe this is the first time we had an FBI director 
before the committee to testify. Hopefully, Mr. Chairman, we will have 
other opportunities to invite him back. Director Olsen, I join the 
Chairman in commending you for 24 years of Federal service and, in 
particular, your contributions as the director of the National 
Counterterrorism Center. I wish you the best during your transition.
    Thirteen years ago this week, just days after the horrific 
September 11 terrorist attacks, then-President George W. Bush addressed 
Congress and the Nation. In his address, President Bush stated, ``our 
war on terror begins with al-Qaeda and it will not end until every 
terrorist group of global reach has been found, stopped, and 
defeated''. Thirteen years later, there have been some successes, 
particularly against core al-Qaeda, but as we know, not all terrorist 
groups have been ``found, stopped, and defeated''.
    Those of us who were in the audience when President Bush delivered 
his address could not have predicted how the terrorist threat would 
evolve. At that time, Congress was completely focused on preventing 
another large-scale attack on U.S. soil. In 2001, we understood al-
Qaeda to be a centralized organization. Little thought was given to the 
prospects that al-Qaeda would franchise terrorism and inspire satellite 
groups in the Arabian Peninsula and Africa.
    The prospect that an attack would be carried out by a ``lone-wolf 
actor'' with no direct training or support from al-Qaeda barely entered 
the discussion. We were thinking that terrorist groups were focused on 
taking human lives; we did not predict that in the decade after 
September 11 state actors or terrorist groups would try to devastate 
our economy and steal valuable intellectual property by targeting our 
cyber infrastructure.
    Finally, we could not have imagined that on the eve of the 13th 
anniversary of 9/11, another American President would come before the 
American people to make the case for defeating and destroying a 
terrorist organization. Indeed, the threat from the Islamic State of 
Iraq and the Levant (ISIL) is legitimate and warrants attention.
    That said, the situation on the ground in Syria is fluid and 
complex; defeating and destroying ISIL in this context is no easy task. 
I cannot stress enough the need for vigilance and care, particularly 
should we decide to partner with individuals on the Syria to try and 
defeat ISIL. In addition to our efforts abroad, we need to remain 
vigilant and improve preparedness and resilience at home.
    Last month's arrest of Don Morgan illustrates my long-standing view 
that we must reject specific ethnic or religious profiles of a ``would-
be terrorist''. Violent extremism has no race, ethnicity, religion, or 
culture and there is no single profile or pathway for individuals who 
come to embrace violent extremism.
    Also, since September 11, State and local law enforcement have 
received grant funding from the Federal Government to prepare for and 
prevent terrorist activity. We saw the value of this grant funding 
after the bombings at last year's Boston Marathon, as the police wore 
protective gear and stabilized the situation. More recently, there was 
an example of what I believe to be an improper use of Federal equipment 
and resources--in Ferguson, Missouri.
    Better oversight and tighter control of how Federal homeland 
security and law enforcement resources are used by State and local 
partners is one area that needs to be improved. Another area that is a 
perennial challenge is information sharing with State and local law 
enforcement.
    Even with fusion centers and joint terrorist task forces, 13 years 
after September 11, we still hear that information sharing can be 
improved. Given threats from ISIL, al-Qaeda, lone-wolf actors, and 
other terrorist organizations, is there a way to an optimal 
relationship between Federal, State, and local partners? The 13 years 
since September 11 have shown us that we cannot have a myopic or narrow 
view of the terrorist threats we face. It is my hope that today we 
engage in a productive dialogue about the variety of threats to our 
Nation.

    Chairman McCaul. I thank the Ranking Member.
    Other Members are reminded that opening statements may be 
submitted for the record.
    We are pleased to have here today a distinguished panel of 
witnesses before us. First, Secretary Jeh Johnson, sworn in 
December 23, 2013 as the fourth Secretary of the Department of 
Homeland Security. Prior to joining DHS, Secretary Johnson 
served as general counsel for the Department of Defense where 
he was part of the senior management team and led more than 
10,000 military and civilian lawyers across the Department.
    He also oversaw the development of the legal aspects of 
many of our Nation's counterterrorism policies and spearheaded 
reforms to military commissions system at Guantanamo Bay in 
2009.
    Next, we are very pleased and honored to have to this 
committee for the first time Director James Comey. He became 
the seventh director of the Federal Bureau of Investigation in 
September 2013. Director Comey has a long history of service to 
the Department of Justice, including holding positions as both 
assistant U.S. attorney and U.S. attorney to the Southern 
District of New York, and assistant U.S. attorney for the 
Eastern District of Virginia, where I first met him when he was 
conducting Project Exile, a gun violence reduction initiative. 
I want to thank you for your efforts on that. He also served as 
deputy attorney general at the Justice Department.
    Prior to his appointment, he held senior positions at 
Lockheed Martin and Bridgewater Associates.
    Again, thank you so much for being here today.
    Then, and last but not least, but it is his last appearance 
before this committee, but I am sure we will hear from him more 
times after this. But Director Matthew Olsen has served as 
director of the National Counterterrorism Center since August 
2011. Prior to joining NCTC, Mr. Olsen served as the general 
counsel for the National Security Agency, where he was the 
chief legal officer for NSA and the principal legal adviser to 
the NSA director.
    Director Olsen has a long record of service that includes 
time spent at the FBI, the Department of Justice, and the 
Guantanamo Review Task Force.
    Again, we thank you for your service, sir.
    The full written statements of each of the witnesses will 
appear in the record.
    The Chairman now recognizes the Secretary of Homeland 
Security for his opening statement.

         STATEMENT OF HON. JEH C. JOHNSON, SECRETARY, 
              U.S. DEPARTMENT OF HOMELAND SECURITY

    Secretary Johnson. Thank you, Chairman, Ranking Member 
Thompson. The committee has my prepared opening statement. I 
will not read it. I will just in a few moments here mention a 
couple of things.
    One, thank you for holding this hearing. This is a very 
important hearing on a very important topic. This is just the 
type of public opportunity for Congressional oversight of our 
counterterrorism efforts that I welcome. This will not be my 
last appearance here, I am sure, and it is certainly not my 
first.
    I want to say thank you to my friends and colleagues to my 
left and right for joining me. Director Comey and I have known 
each other for 25 years, when we were assistant U.S. attorneys 
together beginning in 1988, 1989. So I have known Jim for a 
very long time.
    Matt Olsen I have known for 6 years now, going back to late 
2008, early 2009. I hired Matt to be general counsel of NSA, 
along with General Alexander. He and I hired Matt to be general 
counsel of NSA. He did a terrific job there for a year, and he 
has been a terrific colleague in the National security-
counterterrorism world. I and others will miss him very much 
for his clarity of delivery in terms of his intelligence 
assessments.
    I mention my personal relationship with these two gentlemen 
to highlight the fact that homeland security, law enforcement, 
and the intelligence community have in my judgment a very, very 
good working relationship in dealing with counterterrorism 
matters. We are committed to working together on these issues. 
We are committed to information sharing. We are committed to 
collegiality. We are encouraging that among our staffs.
    Just yesterday, Director Comey and I met with other members 
of the National security team in a periodic meeting to discuss 
National security topics. We do this often.
    The other point I would like to make, Chairman, is ISIL is 
obviously the most prominent terrorist organization on the 
world stage right now. It is our focus. But from my homeland 
security perspective, and I am sure my colleagues share this, 
we have to stay focused on a range of terrorist threats. Al-
Qaeda in the Arabian Peninsula, for example, is still active.
    There are other threats emanating from that region, 
emanating from other parts of the world that we in homeland 
security-National security have to remain focused on. We have 
taken a number of steps in recent months to address aviation 
security, for example. You are aware of the enhancements that I 
directed in July and in August. We are addressing the issue of 
foreign fighters in and out of Syria, which I am sure we will 
discuss this morning, as well as, for example, enhanced 
countering violent extremism efforts here at home through 
various outreach programs that we have, including the pilot 
program the attorney general announced earlier this week.
    So we are doing a number of things that we will be pleased 
to discuss with you at this morning's hearing. I look forward 
to your questions. Thank you again for holding this hearing.
    [The prepared statement of Secretary Johnson follows:]
                  Prepared Statement of Jeh C. Johnson
                           September 17, 2014
    Chairman McCaul, Ranking Member Thompson, and Members of the 
committee: Thank you for the opportunity to appear today to discuss the 
Department of Homeland Security's (DHS) efforts to address world-wide 
threats to our homeland.
    Before I begin, I would like to recognize my colleagues at the 
table: Federal Bureau of Investigation (FBI) Director Jim Comey and 
National Counterterrorism Center (NCTC) Director Matt Olsen. I have 
known both of these dedicated public servants for years. Twenty-five 
years ago Director Comey and I were assistant U.S. attorneys together 
in the Southern District of New York, and Matt Olsen was the general 
counsel of the NSA while I was the general counsel of the Defense 
Department. These two public servants are steadfast partners to DHS and 
to me, and I consider it a privilege to work alongside them as we meet 
our shared mission of keeping our Nation and the American people safe. 
As Matt prepares to leave his post at NCTC, I want to congratulate him 
on his 24 years of distinguished service to this country. As President 
Obama has said, every American is safer because of his service.
    As this committee knows, the United States faces a constantly 
evolving threat environment. Thirteen years after the 9/11 attacks, 
threats to our Nation have not subsided.
    The job of DHS and its more than 240,000 men and women is to remain 
vigilant against these threats, regardless of where they originate or 
what form they take. First and foremost, that means detecting and 
preventing terrorist threats that may seek to penetrate the homeland 
from land, sea, or air. As I have noted before, DHS must always be 
agile and vigilant in continually adapting to evolving threats, be it a 
foreign fighter or a ``lone-wolf'' terrorist living within our midst.
    Counterterrorism is the cornerstone of the DHS mission. And 13 
years after 
9/11, it's still a dangerous world. There's still a terrorist threat to 
our homeland.
    Today the terrorist threat is different from what it was in 2001. 
It is more decentralized and more complex. Not only is there core al-
Qaeda in Afghanistan and Pakistan, there is al-Qaeda in the Arabian 
Peninsula--which is still active in its efforts to attack the 
homeland--al-Qaeda in the Islamic Maghreb, al-Shabaab in Somalia, the 
al-Nusrah Front in Syria, and the newest affiliate, al-Qaeda in the 
Indian subcontinent. There are groups like Boko Haram in Nigeria, which 
are not official affiliates of al-Qaeda, but share its extremist 
ideology.
    The Islamic State of Iraq and the Levant, or ISIL, previously known 
as al-Qaeda in Iraq, is now vying to be the pre-eminent terrorist 
organization on the world's stage. At present, we have no credible 
information that ISIL is planning to attack the homeland of the United 
States.
    But that is not, by any means, the end of the story.
    ISIL is an extremely dangerous organization. It has the elements of 
both a terrorist organization and an insurgent army. It kills innocent 
civilians, and has seized large amounts of territory in Iraq and Syria, 
which it can utilize for safe haven, training, command and control, and 
from which it can launch attacks. It engages in 30-40 attacks per 
month, has more than 20,000 fighters, and takes in as much as a million 
dollars a day from illicit oil sales, ransom payments, and other 
illicit activities. Its public messaging and social media are as slick 
and as effective as any I've ever seen from a terrorist organization.
    Though we know of no credible information that ISIL is planning to 
attack the homeland at present, we know that ISIL is prepared to kill 
innocent Americans they encounter because they are Americans--in a 
public and depraved manner. We know ISIL views the United States as an 
enemy, and we know that ISIL's leaders have themselves said they will 
soon be in ``direct confrontation'' with the United States.
    On September 10, President Obama delivered a speech to the Nation 
in which he outlined this Government's response to ISIL.
    The President has already begun a military campaign to take the 
fight to ISIL. To date, our military has launched well over 100 air 
strikes against ISIL in Iraq, to protect our personnel, critical 
infrastructure, and to support humanitarian activities there.
    The United States will expand our efforts against ISIL, as part of 
a broad coalition of NATO allies and other allies in the region, 
reflecting the international community's condemnation of ISIL and its 
tactics. As part of this, we are pleased to see the formation of the 
new inclusive government in Iraq, with whom we intend to work closely. 
We look forward to this new government's addressing the rights and 
concerns of all of Iraq's diverse communities, and its leaders from 
across the political spectrum coming together to take a united stand 
against ISIL.
    From the homeland security perspective, here is what we are doing:
    First, to address the threats generally emanating from terrorist 
groups overseas, we have in recent weeks enhanced aviation security. 
Much of the terrorist threat continues to center around aviation 
security. In early July, I directed enhanced screening at 18 overseas 
airports with direct flights to the United States. Several weeks later, 
we added six more airports to the list. Three weeks ago we added 
another airport, and additional screening of carry-on luggage. The 
United Kingdom and other countries have followed with similar 
enhancements to their aviation security. We continually evaluate 
whether more is necessary, without unnecessarily burdening the 
traveling public.
    Longer-term, as this committee has heard me say before, we are 
pursuing ``pre-clearance'' at overseas airports with flights to the 
United States. This means inspection by a U.S. Customs and Border 
Protection officer and enhanced aviation security before a passenger 
gets on the plane to the United States. We now have pre-clearance at 
airports in Ireland, the UAE, Canada, and the Caribbean. I regard it as 
a homeland security imperative to build more. To use a football 
metaphor, I'd much rather defend our end-zone from the 50-yard line 
than our 1-yard line. I want to take every opportunity we have to 
expand homeland security beyond our borders.
    Second, the Department of Homeland Security, the FBI, NCTC, and 
other intelligence agencies are making enhanced and concerted efforts 
to track Syrian foreign fighters who come from or seek to enter this 
country. The reality is that more than 15,000 foreign fighters have 
traveled to Syria over the last 3 years, including approximately 2,000 
Westerners. We estimate that more than 100 Americans have traveled or 
attempted to travel to Syria to join the fight there one way or 
another. We are concerned that not only may these foreign fighters join 
ISIL or other violent extremist groups in Syria, they may also be 
recruited by these violent extremist groups to leave Syria and conduct 
external attacks. The FBI has arrested a number of individuals who have 
tried to travel from the United States to Syria to support terrorist 
activities there.
    Third, we are working with European and other governments to build 
better information sharing to track Syrian foreign fighters. Whenever I 
get together with my European counterparts, this topic is almost always 
item No. 1 on the agenda. The importance of this issue is also 
reflected by the fact it will be a singular topic of discussion at a 
U.N. Security Council summit that the President will chair in two 
weeks. In the history of the United Nations, this is only the second 
time a U.S. President has personally chaired a Security Council summit.
    We are increasing efforts to track those who enter and leave Syria, 
and may later seek to travel to the United States from a country for 
which the United States does not require a visa from its citizens. 
There are in fact a number of Visa Waiver Program countries that also 
have large numbers of citizens who are Syrian foreign fighters. 
Generally, we have strong information-sharing relationships with these 
countries. But, with their help, we will enhance this capability. We 
need to ensure that we are doing all we can to identify those who, by 
their travel patterns, attempt to hide their association with terrorist 
groups.
    We are encouraging more countries to join the United States in 
using tools like Advance Passenger Information and Passenger Name 
Record collection, which will help to identify terrorist travel 
patterns.
    Fourth, within the U.S. Government, DHS and our interagency 
partners in law enforcement and the intelligence community, are 
enhancing our ability to share information with each other about 
suspicious individuals.
    Fifth, we are continually on guard against the potential domestic-
based, home-grown terrorist who may be lurking in our own society: The 
independent actor or ``lone wolf'' who did not train at a terrorist 
camp or join the ranks of a terrorist organization overseas, but who is 
inspired here at home by a group's social media, literature, or violent 
extremist ideology. In many respects, this is the hardest terrorist 
threat to detect, and the one I worry most about.
    To address the domestic ``lone-wolf'' threat, I have directed that 
DHS build on our partnerships with State and local law enforcement in a 
way that enhances community relationships. The local police and fire 
departments are the first responders to any crisis in our homeland. The 
local police, more than the Federal Government, have their finger on 
the pulse of the local community from which a domestic terrorist may 
come.
    To address the home-grown terrorist who may be lurking in our 
midst, we must also emphasize the need for help from the public. ``If 
You See Something, Say Something'' is more than a slogan. For example, 
last week we sent a private-sector advisory identifying for retail 
businesses a long list of materials that could be used as explosive 
precursors, and the types of suspicious behavior that a retailer should 
look for from someone who buys a lot of these materials.
    Within DHS, we have outreach programs with communities who 
themselves are engaging youth in violence prevention. I have directed 
that we step up these programs and I personally participate in them. In 
June I met with a Syrian-American community group in a Chicago suburb. 
Next week I will meet with a Somali community in Columbus, Ohio. In 
October, the White House will host a summit on domestic efforts to 
prevent violent extremism, and address the full life cycle of 
radicalization to violence posed by foreign fighter threats. The 
efforts highlighted at this summit are meant to increase the 
participation of faith-based organizations, mental health providers, 
social service providers, and youth-affiliated groups in local efforts 
to counter violent extremism.
    Over the last 13 years, we have vastly improved this Nation's 
ability to detect and disrupt terrorist plots overseas before they 
reach the homeland. Here at home, Federal law enforcement does an 
excellent job, time and again, of identifying, investigating, 
arresting, and prosecuting scores of individuals before they commit 
terrorist acts. But we continue to face real terrorist enemies and real 
terrorist threats and we must all remain vigilant.
    As Secretary of Homeland Security, I see the full array of threats 
to our homeland every day, from the ``lone wolf'' to al-Qaeda 
affiliates like al-Qaeda in the Arabian Peninsula (which has made 
repeated efforts to export terrorism to our homeland) to ISIL and its 
ranks of foreign fighters.
    As long as the world remains a dangerous place, as long as there 
are threats to the homeland in any form from any individual or group, 
the dedicated men and women of DHS will remain vigilant. We will take 
all the appropriate steps to continue to protect the homeland, in 
accordance with our fundamental rights and liberties, and in close 
partnership with our Federal, State, and local partners, the Congress, 
and the American people. Thank you.

    Chairman McCaul. I thank the Secretary.
    The Chairman now recognizes Director Comey for his 
testimony.

   STATEMENT OF JAMES B. COMEY, DIRECTOR, FEDERAL BUREAU OF 
           INVESTIGATION, U.S. DEPARTMENT OF JUSTICE

    Mr. Comey. Thank you, Mr. Chairman, Mr. Thompson. It is a 
pleasure to be before you for the first time and to be joined 
by my friends Jeh and Matt here at the table.
    To Matt Olsen, the American people will never fully know 
how much he has done to keep them safe, but a lot of people in 
this room know and will be forever grateful.
    Mr. Chairman, as you know, I was gone from Government for 
almost a decade, and so I have a perspective that may be 
different on the terrorist threat. When I came back to 
Government a year ago, I discovered the threat had changed in 
two ways that struck me. First, thanks largely to our men and 
women in uniform, we had taken the fight to the core al-Qaeda 
tumor in the Afghanistan-Pakistan region and shrunk that tumor 
in a significant way.
    But at the same time, we had experienced a metastasis of 
that cancer, the progeny of al-Qaeda. This metastasis has 
sprung up in ungoverned or lightly-governed space in North 
Africa, the Gulf, the Mediterranean, in ways that are familiar 
to this committee.
    The manifestation in Syria and Iraq is obviously a huge 
example of that metastasis. So that metastasis, coupled with 
the phenomenon of travelers seeking to go to those safe havens 
to get the experience of being a terrorist, to make those 
connections, is a way in which that change strikes me.
    I am very concerned about the going. I am even more 
concerned about the coming. There will be a terrorist diaspora 
out of those areas, especially Syria, that we all wake up every 
day thinking and worrying about.
    The second way in which the terrorism threat has changed 
has come with the way the internet has changed all of our 
lives. It is no longer necessary to actually meet somebody in 
al-Qaeda to get training and inspiration to conduct a terrorist 
attack here in the United States. Someone can do it in their 
pajamas in their basement.
    These are the home-grown violent extremists that we worry 
about, who can get all the poison they need and the training 
they need to kill Americans, and in a way that is very hard for 
us to spot between the time they emerge from their basements 
and maybe kill innocent Americans. Those are the two ways in 
which I have seen the terrorism threat change significantly 
since I was last in Government.
    Secretary Johnson mentioned cyber. All of us, as I have 
said, have connected our entire lives to the internet. It is 
where my children--I have five--it is where they play. It is 
where we bank. It is where my health care is. It is where 
critical infrastructure is. It is where my Nation's secrets 
are.
    So that is where bad people come to do harm across those 
dimensions--people who want to hurt my kids, steal my identity, 
damage our infrastructure, steal our secrets, that is where 
they come. So to be effective, all of us need to be able to 
address those threats in cyber space. I think making sure the 
FBI is positioned, equipped, and trained to do that is going to 
dominate the 9 years I have left in my term.
    It is an honor to be here to represent the people of the 
FBI. I believe I have the greatest job in the world, and it is 
a pleasure to be back in public service.
    Thank you, sir.
    [The prepared statement of Mr. Comey follows:]
                  Prepared Statement of James B. Comey
                           September 17, 2014
    Good morning, Chairman McCaul, Ranking Member Thompson, and Members 
of the committee. Thank you for the opportunity to appear before you 
today to discuss the FBI's efforts to combat threats against the 
homeland.
    Today's FBI is a threat-based, intelligence-driven organization. We 
live in a time of persistent terrorist and criminal threats to our 
National security, our economy, and to our communities. Just as our 
adversaries and threats continue to evolve, so, too, must the FBI. The 
key to this evolution lies with our greatest assets: Our people and our 
partnerships. Every FBI professional understands that thwarting the 
threats facing our Nation means constantly striving to be more 
effective and more efficient. The people of the FBI sacrifice much for 
their country, and I am proud to lead this organization of dedicated 
agents, analysts, and professional staff.
    To accomplish its mission, the FBI relies heavily upon its law 
enforcement and intelligence partners around the Nation and around the 
globe.
    By combining our resources and our collective expertise, we are 
able to investigate National security threats that cross both 
geographical and jurisdictional boundaries.
    It is important to emphasize that the FBI carries out this broad 
mission with rigorous obedience to the rule of law and resolute respect 
for privacy, confidentiality, civil rights, and civil liberties of the 
citizens we serve.
                            counterterrorism
    Combating terrorism continues to be one of the top priorities for 
the FBI. As geopolitical conflict zones continue to emerge throughout 
many parts of the world, terrorist groups may use this instability to 
recruit and incite acts of violence.
    While core al-Qaeda isn't the dominant force it once was, we have 
seen the growth of the al-Qaeda affiliates: al-Qaeda in the Islamic 
Maghreb, al-Qaeda in the Arabian Peninsula, al-Nusra Front in Syria, 
and now ISIL in Iraq and Syria.
    Syria remains at the forefront of our minds as the on-going 
conflict shows no signs of subsiding. The continuing violence in both 
Syria and Iraq and the influx of foreign fighters threatens to further 
destabilize an already volatile region while also heightening the 
threat to the West. Due to the prolonged nature and the high visibility 
of the Syrian conflict, we are concerned that U.S. persons with an 
interest in committing violent extremist acts will continue to be drawn 
to the region. Foreign fighters traveling to Syria or Iraq could, for 
example, gain battlefield experience and increased exposure to violent 
extremist elements that may lead to further radicalization to violence; 
they may use these skills and exposure to radical ideology to return to 
their countries of origin, including the United States, to conduct 
attacks on the homeland. The FBI is working closely with our domestic 
and international partners to track foreign fighters traveling to the 
Middle East and to disrupt them before they act.
    The Islamic State of Iraq and the Levant (ISIL) remains committed 
to instilling fear and attracting recruits. ISIL has issued public 
statements confirming the terrorist organization's determination and 
dedication to global terrorism. ISIL's widespread use of social media 
and growing on-line support intensified following the commencement of 
U.S. airstrikes in Iraq. ISIL has also shown the lengths to which it is 
willing to go to attract public attention. This was evident in the 
videos ISIL released depicting the beheadings of ISIL-held American 
hostages James Foley and Steven Sotloff. We are deeply concerned about 
the safety and security of American citizens world-wide, and ISIL and 
other foreign terrorist organizations may continue to try to capture 
American hostages in an attempt to force the U.S. Government and people 
into making concessions that would only strengthen ISIL and further its 
terrorist operations.
    Al-Qaeda in the Arabian Peninsula (AQAP) remains one of the 
greatest threats to the United States. AQAP's intent on carrying out 
violent acts against the West is still strong. Through AQAP's on-line 
English magazine Inspire, the group advocates simple and inexpensive 
lone-wolf attacks against the homeland and other Western targets. The 
first edition of Inspire, released in the summer of 2010, provided 
specific instructions on how to build a pipe bomb. Last month, AQAP 
released a new publication that further expanded upon these 
instructions to include building a pressure cooker bomb similar to the 
one used in the Boston Marathon bombing.
    Here at home, we face a continued threat from home-grown violent 
extremists (HVEs). HVEs are individuals located in the United States 
who are inspired by terrorist ideology. These individuals present 
unique challenges because they do not share the profile of an 
identifiable group. Their experience and motives are often distinct, 
but they are increasingly savvy and willing to act alone. They may gain 
inspiration from terrorist narratives, including material in English; 
events in the United States or abroad perceived as threatening to 
Muslims; the perceived success of other HVE plots, such as the November 
2009 attack at Fort Hood; or their own grievances.
    As you know, the FBI also relies heavily upon its 103 Joint 
Terrorism Task Forces (JTTFs) across the Nation. The FBI has added 
approximately 70 JTTFs since 9/11. Investigators, analysts, linguists, 
and experts from dozens of U.S. law enforcement and intelligence 
agencies comprise the JTTFs. The JTTFs serve as critical force 
multipliers that follow up on all terrorism leads, develop and 
investigate cases, and proactively identify threats and trends that may 
impact the region, the Nation, and the world.
    Finally, in an effort to better address the evolving threat, the 
Countering Violent Extremism (CVE) Office uses FBI resources and works 
with Federal counterparts to empower our local partners to prevent 
violent extremists and their supporters from inspiring, radicalizing, 
financing, or recruiting individuals or groups in the United States to 
commit acts of violence.
    Today's FBI remains agile in its efforts to combat National 
security threats both here and abroad. We are committed to utilizing 
all of our resources to protect the citizens of this country, and we 
will continue to further our integration of operations and intelligence 
to prevent acts of terrorism.
                              intelligence
    The FBI is a National security and law enforcement organization 
that uses, collects, and shares intelligence in everything we do.
    There was a time when the FBI was criticized for ``working the in-
box.'' Our work was driven by sources and the complaints that came to 
our door. We too often worked what was directly in front of us, which 
didn't always align with our biggest threats or allow us to look beyond 
the horizon.
    Today we are constantly involved in a process of trying to 
understand the threats we face in each of our offices here and abroad--
what's out there, what we see, what we might be missing. We gather 
intelligence, consistent with our authorities, to help us understand 
and rank those threats and to identify the intelligence gaps we face. 
We then try to fill those gaps and continue to learn as much as we can 
about the threats we are addressing and those we may need to address. 
We do this for National security and criminal threats, Nationally and 
within each field office. We then compare the National and local 
perspectives to develop a threat prioritization ranking for each of the 
FBI's 56 field offices. By creating this ranking, we strive to actively 
pursue our highest threats. This gives us a better assessment of what 
the dangers are, what's being done about them, and what we should spend 
time on.
    The FBI has come a long way in its intelligence transformation over 
the years, but there is always room to improve and grow. We have 
reinstituted the FBI's Intelligence Branch to elevate and expand the 
intelligence program. I am confident that this will result in a more 
robust FBI with continued integration of intelligence and operations. I 
also anticipate the expansion will facilitate a smoother, more 
efficient exchange of intelligence with the intelligence community and 
international partners.
                                 cyber
    We face cyber threats from state-sponsored hackers, hackers for 
hire, global cyber syndicates, and terrorists. They seek our state 
secrets, our trade secrets, our technology, and our ideas--things of 
incredible value to all of us. They seek to strike our critical 
infrastructure and to harm our economy.
    Given the scope of the cyber threat, agencies across the Federal 
Government are making cybersecurity a top priority. The Department of 
Justice, including the FBI; the Department of Homeland Security; the 
National Security Agency and other U.S. intelligence community and law 
enforcement agencies have truly undertaken a whole-of-Government effort 
to combat the cyber threat. Within the FBI, we are prioritizing the 
investigation and prevention of high-level intrusions against the 
United States, including the biggest and most dangerous botnets, state-
sponsored hackers, and global cyber syndicates. We are working with our 
counterparts to predict and prevent attacks, rather than simply react 
after the fact.
    FBI agents, analysts, and computer scientists use technical 
capabilities and traditional investigative techniques--such as sources 
and wiretaps, surveillance, and forensics--to fight cyber crime. We 
work side-by-side with our Federal, State, and local partners on Cyber 
Task Forces in each of our 56 field offices and at the National Cyber 
Investigative Joint Task Force (NCIJTF). Through our 24-hour cyber 
command center, CyWatch, we combine the resources of the FBI and 
NCIJTF, allowing us to provide connectivity to Federal cyber centers, 
Government agencies, FBI field offices and legal attachees, and the 
private sector in the event of a cyber intrusion.
    We also exchange information about cyber threats with the private 
sector through partnerships such as the Domestic Security Alliance 
Council, InfraGard, and the National Cyber Forensics and Training 
Alliance (NCFTA).
    We developed and recently deployed a malware repository and 
analysis system called Malware Investigator (MI) for intelligence and 
law enforcement partners. MI provides the FBI's domestic and foreign 
law enforcement partners as well as members of the intelligence 
community a way to submit malware directly to the FBI. This approach 
will enable the FBI to obtain a global view of the malware threat, 
while also providing the submitter technical information about the 
malware's functionality. Beyond technical reporting, MI identifies 
correlations that will allow users to ``connect the dots'' by 
highlighting instances in which malware was deployed in seemingly 
unrelated incidents. MI will be provided to FBI corporate and academic 
partners later this year, providing them a trusted venue in which to 
investigate, analyze, study, and collaborate about malware threats.
    In addition, our legal attachee offices overseas work to coordinate 
cyber investigations and address jurisdictional hurdles and differences 
in the law from country to country. We are supporting and collaborating 
with newly-established cyber crime centers at Interpol and Europol. We 
continue to assess other locations to ensure that our cyber personnel 
are in the most appropriate locations across the globe.
    Over the past several months, the Justice Department has announced 
a series of separate indictments of overseas cyber criminals. In an 
unprecedented indictment in May, we charged five Chinese hackers with 
illegally penetrating the networks of six U.S. companies. The five 
members of China's People's Liberation Army allegedly used their 
illegal access to exfiltrate proprietary information, including trade 
secrets. Moreover, in June, charges were filed against Su Bin, a 
Chinese national, stemming from a computer hacking scheme that involved 
the theft of trade secrets from American defense contractors, including 
The Boeing Company, which manufactures the C-17 military transport 
aircraft.
    Through the NCIJTF and in alliance with its U.S. Government 
partners, international partners, and private-sector stakeholders, the 
FBI has worked collaboratively in developing a multi-pronged effort 
aimed at defeating the world's most dangerous botnets. Over the past 
several years, the FBI's efforts to combat these significant cyber 
threats have caused the disruption and dismantlement of numerous 
botnets, including Butterfly Bot, Rove Digital, Coreflood, ZeroAccess, 
and GameOver Zeus, resulting in numerous arrests, extraditions, and 
convictions.
    In addition to these recent investigative successes against the 
threat, we are continuing to work with our partners to prevent attacks 
before they occur. One area in which we have had great success with our 
overseas partners is in targeting infrastructure we believe has been 
used in distributed denial of service (DDoS) attacks, and preventing 
that infrastructure from being used for future attacks.
    Since October 2012, the FBI and the Department of Homeland Security 
(DHS) have released more than 170,000 Internet Protocol addresses of 
computers that were believed to be infected with DDoS malware. We have 
released this information through Joint Indicator Bulletins (JIBs) to 
more than 130 countries via DHS's National Cybersecurity and 
Communications Integration Center (NCCIC), where our liaisons provide 
expert and technical advice for increased coordination and 
collaboration, as well as to our legal attachees overseas.
    Chairman McCaul, Ranking Member Thompson, and the committee, I 
thank you for this opportunity to testify concerning the diverse 
threats facing the Nation and the FBI's on-going efforts to combat 
them. I am now happy to answer any questions you might have.

    Chairman McCaul. Well, thank you. It is certainly a 
pleasure to have you here today as well. I forgot that we share 
the fact that we both have five children on social media, which 
can always be challenging at times.
    With that, the Chairman now recognizes Director Olsen.

       STATEMENT OF MATTHEW G. OLSEN, DIRECTOR, NATIONAL 
                    COUNTERTERRORISM CENTER

    Mr. Olsen. Thank you very much. Good morning, Chairman, Mr. 
Thompson, Members of the committee. Thank you for inviting me 
here this morning.
    We often meet in closed Classified sessions, so this is a 
really important opportunity for us to speak to the committee 
in an open session and to the American people about the threats 
we face. I also want to say to you, Chairman, and to the rest 
of the committee, how much on behalf of the men and women of 
the National Counterterrorism Center we appreciate the 
committee's support in our efforts.
    I will spend just a couple of minutes talking about the 
threat from Iraq and Syria and then take a moment to talk about 
how that threat fits into the broader terrorism landscape that 
we see.
    First, by every measure, ISIL has emerged as an extremely 
dangerous organization in a very chaotic part of the world. The 
group has exploited the civil war in Syria, it has taken 
advantage of sectarian tensions in Iraq to entrench itself in 
both countries.
    It has established sanctuaries in Iraq and in Syria. From 
where the group has the ability to plan and to train and also 
to amass both fighters and weapons with really little 
interference.
    The group has proven to be an effective fighting force. 
It's battlefield strategy is complex and it is adaptive. It 
uses a mix of techniques from terrorist operations to hit-and-
run tactics, to paramilitary assaults to enable their recent 
gains. Then importantly, the group also views itself as the now 
leader of a global jihadist movement. It operates the most 
sophisticated propaganda machine of any terrorist organization. 
It turns out timely, high-quality media, and it uses social 
media to secure a wide-spread following.
    Today, we believe that ISIL has as many as 30,000-plus 
fighters and controls much of the Tigris-Euphrates basin, which 
is a crossroads of the Middle East. From this position, ISIL 
poses a multi-faceted threat to the United States.
    This past January, the leader of ISIL warned that U.S.--the 
United States will soon be in direct conflict with the group. 
There is little doubt that ISIL views us--views the United 
States as a strategic enemy.
    This threat to us is most acute in Iraq. The group's safe 
haven and resources in Iraq pose an immediate and direct threat 
to our presence there, particularly our embassy in Baghdad and, 
of course, that threat includes the threat to Americans held 
hostage by ISIL.
    The death threat extends outside of Iraq to the West. ISIL 
has the potential to use its safe haven and to plan, in 
coordinated attacks, both in Europe and potentially in the 
United States. This threat became real earlier this year, with 
the shooting in a Brussels museum that killed four people by an 
ISIL fighter. Then with the arrest we saw in France of an ISIL 
operative who had access to several explosive devices.
    At this point, we have no information that ISIL is plotting 
an attack inside the United States. But we do know, as my 
colleague said, Director Comey and Secretary Johnson have 
referred to, that thousands of foreign fighters have flocked to 
Syria over the past 3 years. This includes more than 2,000 
Europeans and more than a hundred Americans.
    Many of these fighters that have flocked to Syria have 
joined ISIL's ranks. We are concerned, of course, that these 
fighters will gain experience, training, and eventually return 
to their home countries, battle-hardened and radicalized, some 
possessing Western passports and travel documents.
    We are also concerned about the possibility of a home-grown 
extremist becoming radicalized by the information that is on 
the internet and carrying out a limited self-directed attack 
here at home for which we would have--we would face potentially 
little or no warning.
    So second, this phenomenon, the rise of ISIL, exemplifies 
the threat and the transformation of the terrorism threat that 
we have seen over the past several years. We have seen this 
movement diversify and expand in the aftermath of the upheaval 
and chaos in the Arab world since 2010. So as my colleagues 
have mentioned, ISIL is just one of the groups that we are 
concerned about. Al-Qaeda core continues to support attacking 
the West and, for now, remains the recognized leader of a 
global jihadist movement.
    In Syria, we have seen veteran al-Qaeda fighters travel 
from Pakistan to take advantage of the permissive environment 
there. Al-Qaeda's official branches in Yemen and Somalia 
continue to remain extremely active. Of course, over the past 5 
years, al-Qaeda in the Arabian Peninsula sought on three times 
to take down an airplane bound for the United States. Then here 
in the United States, last year's bombing of the Boston 
Marathon is a reminder, a sober reminder of the threat we face 
from self-directed violent extremists.
    So terrorist networks have exploited the lack of governance 
and the lax security in parts of the Middle East and North 
Africa. Terrorist groups are now active in at least 11 
insurgencies in the Islamic world.
    The final point I will make on this is that identifying and 
disrupting these threats is increasingly challenging. The 
groups are adapting their tactics to overcome our defenses, to 
avoid our intelligence collection. They are looking for 
simpler, less sophisticated attacks that are on a smaller scale 
and that are easier to pull off, such as the al-Shabaab attack 
at the Westgate Mall last year in Nairobi.
    Then finally, following the disclosure of the stolen NSA 
documents, terrorists are changing how they communicate. They 
are moving to more secure communication platforms. They are 
adopting encryption and they are avoiding electronic 
communications altogether. We see this in our reporting. This 
is a problem for us in many areas where we have limited human 
collection and depend on intercepting communications to 
identify terrorists and disrupt plots.
    Members of the committee, to counter this threat, the men 
and women at NCTC remain vigilant around the clock. We are 
dedicated to working with our counterterrorism partners, 
particularly the FBI and DHS, to identify these threats, 
degrade networks and disrupt plots, both at home and abroad. We 
appreciate the committee's continued support. Thank you again 
for this opportunity. I look forward to your questions.
    [The prepared statement of Mr. Olsen follows:]
                 Prepared Statement of Matthew G. Olsen
                           September 17, 2014
    Thank you Chairman McCaul, Ranking Member Thompson, and Members of 
the committee. I appreciate this opportunity to be here today to 
discuss the terrorist threat against the United States and our efforts 
to counter it.
    As I conclude 3 years as director of the National Counterterrorism 
Center, I also want to express my deep appreciation to the committee 
for its unflagging support of the men and women at the National 
Counterterrorism Center and our counterterrorism community, as a whole. 
I am also particularly pleased to be here today with Secretary of 
Homeland Security Jeh Johnson and FBI Director James Comey. DHS and the 
FBI are two of our closest partner agencies. Together we are a part of 
the broader counterterrorism effort that is more integrated and more 
collaborative than ever.
    Earlier this summer the 9/11 Commissioners released their most 
recent report, and asked National security leaders to ``communicate to 
the public--in specific terms--what the threat is, and how it is 
evolving.'' Hearings like this provide an opportunity to continue this 
dialogue with the public and their elected representatives.
                      the overall terrorist threat
    In May, the President told the graduating class of West Point 
cadets, ``For the foreseeable future, the most direct threat to America 
at home and abroad remains terrorism.'' The 9/11 Commissioners agreed, 
noting in their July report, ``the terrorist threat is evolving, not 
defeated.'' From my vantage point at the National Counterterrorism 
Center, I would agree. Since we testified before this committee last 
year, the terrorist threat has continued to evolve, becoming more 
geographically diffuse and involving a greater diversity of actors.
    Overseas, the United States faces an enduring threat to our 
interests. We have adopted precautionary measures at some of our 
overseas installations. The threat emanates from a broad geographic 
area, spanning South Asia, across the Middle East, and much of North 
Africa, where terrorist networks have exploited a lack of governance 
and lax security.
    Here in the United States, last year's attack against the Boston 
Marathon highlighted the danger posed by lone actors and insular groups 
not directly tied to terrorist organizations, as well as the difficulty 
of identifying these types of plots before they take place. The flow of 
more than 15,000 foreign fighters to Syria with varying degrees of 
access to Europe and the United States heightens our concern, as these 
individuals may eventually return to their home countries battle-
hardened, radicalized, and determined to attack us.
    In the face of sustained counterterrorism pressure, core al-Qaeda 
has adapted by becoming more decentralized and is shifting away from 
large-scale, mass casualty plots like the attacks of September 11, 
2001. Al-Qaeda has modified its tactics, encouraging its adherents to 
adopt simpler attacks that do not require the same degree of resources, 
training, and planning.
    Instability in the Levant, Middle East, and across North Africa has 
accelerated this decentralization of the al-Qaeda movement, which is 
increasingly influenced by local and regional factors and conditions. 
This diffusion has also led to the emergence of new power centers and 
an increase in threats by networks of like-minded violent extremists 
with allegiances to multiple groups. Ultimately, this less-centralized 
network poses a more diverse and geographically-dispersed threat and is 
likely to result in increased low-level attacks against U.S. and 
European interests overseas.
    Today, I will begin by examining the terrorist threats to the 
homeland and then outline the threat to U.S. interests overseas, 
including from the Islamic State in Iraq and the Levant (ISIL). I will 
then focus the remainder of my remarks on some of NCTC's efforts to 
address this complicated threat picture.
                         threat to the homeland
    Starting with the homeland, terrorist groups continue to target 
Western aviation. In early July, the United States and United Kingdom 
implemented enhanced security measures at airports with direct flights 
to the United States, which included new rules aimed at screening 
personal electronic devices. This past winter, we implemented 
additional security measures for commercial aviation to address threats 
to the Sochi Olympics. Although unrelated, taken together these two 
instances reflect the fact that terrorist groups continue to see 
commercial aviation as a desirable symbolic target,
    Al-Qaeda in the Arabian Peninsula (AQAP) remains the al-Qaeda 
affiliate most likely to attempt transnational attacks against the 
United States. The group's repeated efforts to conceal explosive 
devices to destroy aircraft demonstrate its longstanding interest in 
targeting Western aviation. Its three attempted attacks demonstrate the 
group's continued pursuit of high-profile attacks against the West, its 
awareness of security procedures, and its efforts to adapt.
    Despite AQAP's ambitions, home-grown violent extremists (HVEs) 
remain the most likely immediate threat to the homeland. The overall 
level of HVE activity has been consistent over the past several years: 
A handful of uncoordinated and unsophisticated plots emanating from a 
pool of up to a few hundred individuals. Lone actors or insular groups 
who act autonomously pose the most serious HVE threat, and we assess 
HVEs will likely continue gravitating to simpler plots that do not 
require advanced skills, outside training, or communications with 
others.
    The Boston Marathon bombing underscores the threat from HVEs who 
are motivated to act violently by themselves or in small groups. In the 
months prior to the attack, the Boston Marathon bombers exhibited few 
behaviors that law enforcement and intelligence officers traditionally 
use to detect readiness to commit violence. The perceived success of 
previous lone offender attacks--combined with al-Qaeda's and AQAP's 
propaganda promoting individual acts of terrorism--is raising the 
profile of this tactic.
    HVEs make use of an on-line environment that is dynamic, evolving, 
and self-sustaining. This on-line environment is likely to play a 
critical role in the foreseeable future in radicalizing and mobilizing 
HVEs towards violence. Despite the removal of important terrorist 
leaders during the last several years, the on-line outlets continue to 
reinforce a violent extremist identity, highlight grievances, and 
provide HVEs the means to connect with terrorist groups overseas.
    This boundless virtual environment, combined with terrorists' 
increasingly sophisticated use of social media, makes it increasingly 
difficult to protect our youth from propaganda. ISIL's on-line media 
presence has become increasingly sophisticated, disseminating timely, 
high-quality media content across multiple platforms.
            the islamic state of iraq and the levant (isil)
    ISIL is a terrorist organization that has exploited the conflict in 
Syria and sectarian tensions in Iraq to entrench itself in both 
countries. The group's strength, which we estimate may include more 
than 30,000 members--as well as its expansionary agenda--pose an 
increasing threat to our regional allies and to U.S. facilities and 
personnel in both the Middle East and the West.
    ISIL's goal is to solidify and expand its control of territory and 
govern by implementing its violent interpretation of sharia law. The 
group aspires to overthrow governments in the region, govern all the 
territory that the early Muslim caliphs controlled, and expand. ISIL's 
claim to have re-established the caliphate reflects the group's desire 
to lead violent extremists around the world.
    ISIL exploited the conflict and chaos in Syria to expand its 
operations across the border. The group, with al-Qaeda's approval, 
established the al-Nusrah Front in late 2011 as a cover for its Syria-
based activities but in April 2013, unilaterally declared its presence 
in Syria under the ISIL name. ISIL accelerated its efforts to overthrow 
the Iraqi government, seizing control of Fallujah this past January. 
The group expanded from its safe haven in Syria and across the border 
into northern Iraq, killing thousands of Iraqi Muslims on its way to 
seizing Mosul this June.
    Along the way, ISIL aggressively recruited new adherents. In Syria, 
some joined ISIL to escape Assad's brutal treatment and oppression of 
the Syrian people. Others in Iraq joined out of frustration, 
marginalized by their own government. But many joined out of 
intimidation and fear, forced to choose either obedience to ISIL or a 
violent death.
    The withdrawal of Iraqi Security Forces during those initial 
military engagements has left ISIL with large swaths of ungoverned 
territory. The group has established sanctuaries in Syria and Iraq from 
where it plans, trains, and plots terrorist acts with little 
interference. We assess ISIL's strength has increased and reflects 
stronger recruitment this summer following battlefield successes, the 
declaration of a caliphate, and additional intelligence. ISIL's freedom 
of movement over the Iraq-Syria border enables the group to easily move 
members between Iraq and Syria, which can rapidly change the number of 
fighters in either country. ISIL is also drawing some recruits from the 
more than 15,000 foreign fighters who have traveled to Syria.
    ISIL's recent victories have provided the group with a wide array 
of weapons, equipment, and other resources. Battlefield successes also 
have given ISIL an extensive war chest, which as of early this month 
probably includes around $1 million per day in revenues from black-
market oil sales, smuggling, robberies, looting, extortion, and ransom 
payments for hostages. While ISIL receives some funding from outside 
donors, this pales in comparison to its self-funding through criminal 
and terrorist activities.
    ISIL has sought to question the legitimacy of Ayman al-Zawahiri's 
succession of Usama bin Ladin. While al-Qaeda core remains the 
ideological leader of the global terrorist movement, its primacy is 
being challenged by the rise of ISIL whose territorial gains, 
increasing access to a large pool of foreign fighters, and brutal 
tactics are garnering significantly greater media attention. We 
continue to monitor signs of fracturing within al-Qaeda's recognized 
affiliates.
    ISIL's safe haven in Syria and Iraq and the group's access to 
resources pose an immediate and direct threat to U.S. personnel and 
facilities in the region. This includes our embassy in Baghdad and our 
consulate in Erbil--and, of course, it includes the Americans held 
hostage by ISIL.
    But ISIL's threat extends beyond the region, to the West. This 
January, ISIL's leader publicly threatened ``direct confrontation'' 
with the United States, and has repeatedly taunted Americans, most 
recently through the execution of two American journalists who were 
reporting on the plight of the Syrian people, and one British aid 
worker. In Europe, the May 2014 shooting in Brussels by an ISIL-trained 
French national and the separate, earlier arrest of an ISIL-connected 
individual in France who possessed several explosive are two examples 
that demonstrate this threat, and the overall threat posed by returning 
foreign fighters.
    In the United States, the FBI has arrested more than half a dozen 
individuals seeking to travel from the United States to Syria to join 
the fighting there, possibly with ISIL. We remain mindful of the 
possibility that an ISIL-sympathizer could conduct a limited, self-
directed attack here at home with no warning.
          al-qaeda core and afghanistan/pakistan-based groups
    Turning to core al-Qaeda and Afghanistan/Pakistan-based groups, we 
anticipate that despite core al-Qaeda's diminished leadership cadre, 
remaining members will continue to pose a threat to Western interests 
in South Asia and would attempt to strike the homeland should an 
opportunity arise. Al-Qaeda leader Ayman al-Zawahiri's public efforts 
to promote individual acts of violence in the West have increased, as 
the Pakistan-based group's own capabilities have diminished.
    Despite ISIL's challenge, Zawahiri remains the recognized leader of 
the global jihadist movement among al-Qaeda affiliates and allies, and 
the groups continue to defer to his guidance on critical issues. Since 
the start of the Arab unrest in North Africa and the Middle East, 
Zawahiri and other members of the group's leadership have directed 
their focus there, encouraging cadre and associates to support and take 
advantage of the unrest.
    Al-Qaeda in the Indian Subcontinent.--This month, al-Qaeda 
announced the establishment of its newest affiliate, al-Qaeda in the 
Indian Subcontinent (AQIS). Al-Qaeda used social media and on-line web 
forums to make known the existence of AQIS, which al-Qaeda said it has 
worked for more than 2 years to create. We assess the creation of AQIS 
is not a reaction to al-Qaeda's split with ISIL, though the timing of 
the announcement may be used to bolster al-Qaeda's standing in the 
global jihad movement. AQIS, which is led by Sheikh Asim Umer, has 
stated objectives that include violence against the United States, 
establishing Islamic law in South Asia, ending occupation of Muslim 
lands, and defending Afghanistan under Mullah Omar's leadership. AQIS 
on 11 September publicly claimed responsibility for a thwarted 
September attack on a Pakistani Naval vessel at the Karachi Naval 
Dockyard. The group had planned to use the attack to target a U.S. Navy 
ship. AQIS also claimed responsibility for the killing of a senior 
Pakistani Inter-Services Intelligence officer earlier this month.
    South Asia-Based Militants.--Pakistani and Afghan militant groups--
including Tehrik-e Taliban Pakistan (TTP), the Haqqani Network, and 
Lashkar-e-Tayyiba (LT)--continue to pose a direct threat to U.S. 
interests and our allies in the region, where these groups probably 
will remain focused. We continue to watch for indicators that any of 
these groups, networks, or individuals are actively pursuing or have 
decided to incorporate operations outside of South Asia as a strategy 
to achieve their objectives.
    TTP remains a significant threat in Pakistan despite the on-going 
Pakistan military operations in North Waziristan and leadership changes 
during the past year. Its claim of responsibility for the June attack 
on the Jinnah International Airport in Karachi that killed about 30 
people underscores the threat the group poses inside the country.
    The Haqqani network is one of the most capable and lethal terrorist 
groups in Afghanistan and poses a serious threat to the stability of 
the Afghan state as we approach 2014 and beyond. Last month, the 
Department of State listed four high-ranking Haqqani members--Aziz 
Haqqani, Khalil Haqqani, Yahya Haqqani, and Qari Abdul Rauf--on the 
``Rewards for Justice'' most-wanted list for their involvement in 
terrorist attacks in Afghanistan and ties to al-Qaeda. The Haqqanis 
have conducted numerous high-profile attacks against United States, 
NATO, Afghan Government, and other allied nation targets. In October 
2013, Afghan security forces intercepted a truck bomb deployed by the 
Haqqanis against Forward Operating Base Goode in the Paktiya Province. 
The device, which did not detonate, contained some 61,500 pounds of 
explosives and constitutes the largest truck bomb ever recovered in 
Afghanistan.
    Lashkar-e-Tayyiba (LT) remains focused on its regional goals in 
South Asia. The group is against improving relations between India and 
Pakistan, and its leaders consistently speak out against India and the 
United States, accusing both countries of trying to destabilize 
Pakistan. LT has attacked Western interests in South Asia in pursuit of 
its regional objectives, as demonstrated by the targeting of hotels 
frequented by Westerners during the Mumbai attacks in 2008. LT leaders 
almost certainly recognize that an attack on the United States would 
result in intense international backlash against Pakistan and endanger 
the group's safe haven there. However, LT also provides training to 
Pakistani and Western militants, some of whom could plot terrorist 
attacks in the West without direction from LT leadership.
                          al-qaeda affiliates
    AQAP.--Al-Qaeda in the Arabian Peninsula (AQAP) remains the 
affiliate most likely to attempt transnational attacks against the 
United States. AQAP's three attempted attacks against the United States 
to date--the airliner plot of December 2009, an attempted attack 
against U.S.-bound cargo planes in October 2010, and an airliner plot 
in May 2012--demonstrate the group's continued pursuit of high-profile 
attacks against the United States. In a propaganda video released in 
March, the group's leader threatened the United States in a speech to 
recruits in Yemen, highlighting AQAP's persistent interest in targeting 
the United States.
    AQAP also presents a high threat to U.S. personnel and facilities 
in Yemen and Saudi Arabia. In response to credible al-Qaeda threat 
reporting in August 2013, the State Department issued a global travel 
alert and closed U.S. embassies in the Middle East and North Africa as 
part of an effort to take precautionary steps against such threats. We 
assess that we at least temporarily delayed this particular plot, but 
we continue to track closely the status of AQAP plotting against our 
facilities and personnel in Yemen. AQAP continues to kidnap Westerners 
in Yemen and carry out numerous small-scale attacks and large-scale 
operations against Yemeni government targets, demonstrating the range 
of the group's capabilities. In addition, this past July AQAP launched 
its first successful attack in Saudi Arabia since 2009, underscoring 
the group's continued focus on operations in the Kingdom.
    Finally, AQAP continues its efforts to radicalize and mobilize to 
violence individuals outside Yemen through the publication of its 
English-language magazine Inspire. Following the Boston Marathon 
bombings, AQAP released a special edition of the magazine claiming that 
accused bombers Tamarlan and Dzhokhar Tsarnaev were ``inspired by 
Inspire,'' highlighting the attack's simple, repeatable nature, and 
tying it to alleged U.S. oppression of Muslims world-wide. The most 
recent Inspire issue in March--AQAP's twelfth--continued to encourage 
``lone offender'' attacks in the West, naming specific targets in the 
United States, United Kingdom, and France and providing instructions on 
how to construct a vehicle-borne improvised explosive device.
    Al-Nusrah Front.--Al-Nusrah Front has mounted suicide, explosive, 
and firearms attacks against regime and security targets across the 
country; it has also sought to provide limited public services and 
governance to the local population in areas under its control. Several 
Westerners have joined al-Nusrah Front, including a few who have 
perished in suicide operations, raising concerns capable individuals 
with extremist contacts and battlefield experience could return to 
their home countries to commit violence. In April 2013, al-Nusrah 
Front's leader, Abu Muhammad al-Jawlani, pledged allegiance to al-Qaeda 
leader Ayman al-Zawahiri, publicly affirming the group's ties to core 
al-Qaeda. Al-Zawahiri named the group al-Qaeda's recognized affiliate 
in the region later last year, ordering ISIL to return to Iraq.
    Al-Shabaab.--Al-Shabaab and its foreign fighter cadre are a 
potential threat to the U.S. homeland, as some al-Shabaab leaders have 
publicly called for transnational attacks and the group has attracted 
dozens of U.S. persons--mostly ethnic Somalis--who have traveled to 
Somalia since 2006. A recent U.S. military airstrike killed al-
Shabaab's leader, Ahmed Abdi. This removes a capable leader of the 
group, but also raises the possibility of potential retaliatory attacks 
against our personnel and facilities in East Africa.
    Al-Shabaab is mainly focused on undermining the Somali Federal 
Government and combating African Mission in Somalia (AMISOM) and 
regional military forces operating in Somalia. While al-Shabaab's mid-
September 2013 attack on the Westgate mall in Kenya demonstrated that 
the group continues to plot against regional and Western targets across 
East Africa, as part of its campaign to remove foreign forces aiding 
the Somali Government.
    AQIM and Regional Allies.--Al-Qaeda in the Lands of the Islamic 
Maghreb (AQIM) and its allies remain focused on local and regional 
attack plotting, including targeting Western interests. The groups have 
shown minimal interest in targeting the U.S. homeland.
    In Mali, the French-led military intervention has pushed AQIM and 
its allies from the cities that they once controlled, but the groups 
maintain safe haven in the less-populated areas of northern Mali from 
which they are able to plan and launch attacks against French and 
allied forces in the region. Elsewhere, AQIM is taking advantage of 
permissive operating environments across much of North Africa to 
broaden its reach. We are concerned that AQIM may be collaborating with 
local violent extremists, including Ansar al-Sharia groups in Libya and 
Tunisia.
    In August of last year, two highly-capable AQIM offshoots, Mokhtar 
Belmokhtar's al-Mulathamun battalion and Tawhid Wal Jihad in West 
Africa, merged to form the new violent extremist group-al-Murabitun--
which will almost certainly seek to conduct additional high-profile 
attacks against Western interests across the region. Belmokhtar--the 
group's external operations commander----played a leading role in 
attacks against Western interests in Northwest Africa in 2013, with his 
January attack on an oil facility in In-Amenas, Algeria and double 
suicide bombings in Niger in May. Early this year, Belmokhtar relocated 
from Mali to Libya to escape counterterrorism pressure, and probably to 
collaborate with Ansar al-Sharia (AAS) and other violent extremist 
elements in the country to advance his operational goals.
    Boko Haram.--While Boko Haram is not an official al-Qaeda 
affiliate, the group is waging unprecedented violence in northeast 
Nigeria this year and is expanding its reach into other parts of 
Nigeria and neighboring states to implement its harsh version of sharia 
law and suppress the Nigerian government and regional CT pressure. 
Since late 2012, Boko Haram and its splinter faction Ansaru have 
claimed responsibility for five kidnappings of Westerners, raising 
their international profile and highlighting the threat they pose to 
Western and regional interests, although Ansaru has not claimed an 
operation since Feburary 2013. Boko Haram has kidnapped scores of 
additional Nigerians in northeast Nigeria since the kidnapping of 276 
school girls from Chibok, Nigeria in April 2014.
                        threat from shia groups
    Iran and Hizballah remain committed to defending the Assad regime, 
including sending billions of dollars in military and economic aid, 
training pro-regime and Shia militants, and deploying their own 
personnel into the country. Iran and Hizballah view the Assad regime as 
a key partner in an ``axis of resistance'' against Israel and the West 
and are prepared to take major risks to preserve the regime as well as 
their critical transshipment routes.
    Lebanese Hizballah.--In May of last year, Hizballah publicly 
admitted that it is fighting for the Syrian regime and its chief, Hasan 
Nasrallah, framed the war as an act of self-defense against Western-
backed Sunni violent extremists. Hizballah continues sending capable 
fighters for pro-regime operations and support for a pro-regime 
militia. Additionally, Iran and Hizballah are leveraging allied Iraqi 
Shi'a militant and terrorist groups to participate in counter-
opposition operations. This active support to the Assad regime is 
driving increased Sunni violent extremist attacks and sectarian unrest 
in Lebanon.
    Beyond its role in Syria, Lebanese Hizballah remains committed to 
conducting terrorist activities world-wide and we remain concerned the 
group's activities could either endanger or target U.S. and other 
Western interests. The group has engaged in an aggressive terrorist 
campaign in recent years and continues attack planning abroad. In April 
2014, two Hizballah operatives were arrested in Thailand and one 
admitted that they were there to carry out a bomb attack against 
Israeli tourists, underscoring the threat to civilian centers.
    Iranian Threat.--In addition to its role in Syria, Iran remains the 
foremost state sponsor of terrorism, and works through the Islamic 
Revolutionary Guard Corps-Quds Force and Ministry of Intelligence and 
Security to support groups that target U.S. and Israeli interests 
globally. In March, Israel interdicted a maritime vessel that departed 
Iran and was carrying munitions judged to be intended for Gaza-based 
Palestinian militants. Iran, largely through Quds Force Commander 
Soleimani, has also provided support to Shia militias and the Iraqi 
government to combat ISIL in Iraq.
    Iran continues to be willing to conduct terrorist operations 
against its adversaries. This is demonstrated by Iran's links to 
terrorist operations in Azerbaijan, Georgia, India, and Thailand in 
2012. Iran also continues to provide lethal aid and support the 
planning and execution of terrorist acts by other groups, in particular 
Lebanese Hizballah.
                    nctc's missions and initiatives
    NCTC serves as the primary U.S. Government organization for 
analyzing and integrating all terrorism information. Now in our 10th 
year of service, we are guided by our mission statement: ``Lead our 
Nation's effort to combat terrorism at home and abroad by analyzing the 
threat, sharing that information with our partners, and integrating all 
instruments of National power to ensure unity of effort.''
    Intelligence Integration and Analysis.--NCTC has a unique 
responsibility for the U.S. Government to examine all international 
terrorism issues, spanning geographic boundaries to identify and 
analyze threat information, regardless of whether it is collected 
inside or outside the United States.
    Leading the Intelligence Community's Terrorism Warning Program.--
NCTC chairs the Interagency Intelligence Committee on Terrorism (IICT), 
which is the IC's terrorism warning body. The IICT--which is comprised 
of the CIA, DHS, DIA, FBI, NCTC, NGA, NSA, and DOS--is responsible for 
the publication of products that warn of threats against U.S. 
personnel, facilities, or interests. The IICT serves several thousand 
customers, from senior policymakers, to deployed military forces and 
State and local law enforcement entities.
    Watchlisting and TIDE.--As you know, this committee and the 
Congress charged NCTC with maintaining the U.S. Government's central 
and shared knowledge bank of known and suspected international 
terrorists (or KSTs), their contacts, and their support networks. To 
manage this workload, NCTC developed a database called TIDE--the 
Terrorist Identities Datamart Environment. Through TIDE, NCTC advances 
the most complete and accurate information picture to our partners in 
support of terrorism identities analysis, travel screening, and 
watchlisting activities.
    The Kingfisher Expansion visa counterterrorism screening process 
for U.S. visa applicants successfully launched in June 2013 and 
provides a secure on-line vetting platform for FBI, DHS, and the 
Terrorism Screening Center to participate in the review of applicants. 
This process allows for a more comprehensive and coordinated response 
back to the State Department. To date, this program has conducted the 
review of more than 11 million visa applications.
    In addition, in the last year, NCTC--in coordination with DHS--
deployed the Kingfisher Expansion Electronic System for Travel 
Authorization (ESTA) program. NCTC has been providing screening support 
on ESTA applicants since 2010, however, the new interface provides NCTC 
analysts with a streamlined method of performing identity resolution on 
potential matches and provides a means for matches to be automatically 
populated into DHS' National Targeting Center-Passenger's ESTA Hotlist.
    Situational Awareness and Support to Counterterrorism Partners.--
NCTC--via the NCTC Operations Center and Joint Counterterrorism 
Assessment Team (JCAT)--is engaged 24/7/365 as the eyes and ears of the 
U.S. Government's global counterterrorism situational awareness effort. 
The Operations Center uses unique accesses and works with collocated 
assets, personnel, and resources from across the intelligence community 
to identify, track, and share key threat reporting streams and 
information with appropriate audiences in a timely fashion at a variety 
of classification levels.
    JCAT complements the Operations Center's situational awareness 
efforts by building collaborative ties and enhancing information flow 
with our Federal, State, Tribal, and local partners through a variety 
of specialized downgraded products that can be shared across a much 
wider audience. Most recently, NCTC developed a new unclassified 
magazine, Alliance, which features counterterrorism articles from FBI, 
DHS, and NCTC, and serves our State, local, and Tribal customers.
    Strategic Operational Planning.--NCTC is charged with conducting 
strategic operational planning for counterterrorism activities, 
integrating all instruments of National power, including diplomatic, 
financial, military, intelligence, homeland security, and law 
enforcement activities. In this role, NCTC looks beyond individual 
department and agency missions toward the development of a single 
unified counterterrorism effort across the Federal Government.
    NCTC develops interagency counterterrorism plans to help translate 
high-level strategies and policy direction into coordinated department 
and agency activities to advance the President's objectives, for 
example in confronting ISIL and al-Qaeda. These plans address a variety 
of counterterrorism goals, including regional issues, the use of 
weapons of mass destruction by terrorists, and countering violent 
extremism. Additionally, working with our colleagues from DHS, FBI, and 
other agencies, NCTC engages with domestic and international partners 
on initiatives to improve resiliency, engage communities on countering 
violent extremism, and enhance response plans and capabilities in the 
face of evolving terrorist threats.
           addressing the threat from syria foreign fighters
    NCTC draws on these capabilities and initiatives to address the 
threat posed by Syrian foreign fighters. The United States, the 
European Union--including the United Kingdom, France, and other member 
states--and the broader international community have increasingly 
expressed concerns about the greater than 15,000 foreign fighters who 
could potentially return to their home countries to participate in or 
support terrorist attacks. The United Kindom's Home Secretary announced 
the terrorist threat level in the United Kingdom had been raised to 
severe, explaining, ``The increase in threat level is related to 
developments in Syria and Iraq where terrorist groups are planning 
attacks against the West. Some of those plots are likely to involve 
foreign fighters who have traveled there from the UK and Europe to take 
part in those conflicts.'' This past week, Australia also raised its 
threat level from medium to high.
    Syria remains the preeminent location for independent or al-Qaeda-
aligned groups to recruit, train, and equip a growing number of violent 
extremists, some of whom we assess may seek to conduct external 
attacks. The rate of travelers into Syria exceeds the rate of travelers 
who went into Afghanistan/Pakistan, Iraq, Yemen, or Somalia at any 
point in the last 10 years.
    European governments estimate that more than 2,000 Westerners have 
traveled to join the fight against the Assad regime, which include more 
than 500 from Great Britain, 700 from France, and 400 from Germany. 
Additionally, more than 100 U.S. persons from a variety of backgrounds 
and locations in the United States have traveled or attempted to travel 
to Syria.
    NCTC, FBI, and DHS are part of a broader U.S. Government and 
international effort to resolve the identities of potential violent 
extremists and identify potential threats emanating from Syria. Central 
to this effort is TIDE, which is much more than a screening database--
it is an analytic database. It feeds the Unclassified screening 
database so that DHS, the State Department, and other agencies have 
access to timely and accurate information about known and suspected 
terrorists. Initiatives such as Kingfisher aid in this screening 
process. As disparate pieces of information about KSTs are received, 
trained analysts create new records in TIDE, most often as the result 
of a nomination by a partner agency. The records are updated--or 
``enhanced''--regularly as new, related information is included and 
dated or as unnecessary information is removed. In all cases, there are 
several layers of review before a nomination is accepted into the 
system. In the case of U.S. persons, there are at least three layers of 
review, including a legal review, to ensure the derogatory information 
is sufficient and meets appropriate standards.
    To better manage and update the identities of individuals who have 
travelled overseas to engage in violence in Syria and Iraq, we've 
created a special threat case in TIDE. This is a special feature in the 
TIDE system which allows us to focus efforts on smaller groups of 
individuals. A threat case links all known actors, and their personal 
information, involved in a particular threat stream or case and makes 
that information available to the intelligence, screening, and law 
enforcement communities.
    NCTC's management of this unique consolidation of terrorist 
identities has created a valuable forum for identifying and sharing 
information about Syrian foreign fighters--including ISIL--with 
community partners. It has better integrated the community's efforts to 
identify, enhance, and expedite the nomination of Syrian foreign 
fighter records to the Terrorist Screening Database for placement in 
U.S. Government screening systems.
    Counterterrorism efforts focused on law enforcement disruptions are 
critical to mitigating threats. We also recognize that Government alone 
cannot solve this problem and interdicting or arresting terrorists is 
not the full solution. Well-informed and well-equipped families, 
communities, and local institutions represent the best long-term 
defense against violent extremism.
    To this end, we continue to refine and expand the preventive side 
of counterterrorism. Working with DHS, in the last year NCTC revamped 
the Community Awareness Briefing (CAB), a key tool we use to convey 
information to local communities and authorities on the terrorist 
recruitment threat. The CAB now also includes information on the 
recruitment efforts of violent extremist groups based in Syria and 
Iraq. Additionally, this year NCTC and DHS developed and implemented a 
new program--the Community Resilience Exercise program, designed to 
improve communication between law enforcement and communities and to 
share ideas on how to counter violent extremism.
                               conclusion
    Confronting these threats and working with resolve to prevent 
another terrorist attack remains the counterterrorism community's 
overriding mission. This year, NCTC celebrates its 10th year in service 
to the Nation, and we remain focused on continuing to enhance our 
ability to counter the terrorist threat in the years ahead.
    Chairman McCaul, Ranking Member Thompson, and Members of the 
committee, thank you for the opportunity to testify before you this 
morning. I look forward to answering your questions.

    Chairman McCaul. Thank you, director. I now recognize 
myself for questions. We mentioned there is no specific and 
credible threat to the homeland. But having said that, I don't 
think I have seen a threat environment any higher. Particularly 
as it exists overseas, with the spread of the so-called Islamic 
State in the Levant. We have known about this threat for over a 
year.
    I don't think it was until the beheadings of the 
journalists, and now the British aid worker, that it really got 
the attention of the American people as to what kind of evil we 
are dealing with. It has changed popular opinion, in terms of 
driving policy to eliminate a threat that they don't want to 
see here in the United States, perpetrating those acts of 
brutal savagery.
    At the same time, you have core al-Qaeda and Zawahiri in 
what appears to be a competition now with ISIS or ISIL to see 
who is the true heir apparent to bin Laden. It is a dangerous 
competition. The way I see it is to up the ante. What better 
way to do that than to attack the West? Coupled with 30,000 of 
these ISIS fighters, 15,000 are foreign fighters, over 100 
American U.S. citizens. Many of these fighters have Western 
passports. So the ease of travel going back and forth obviously 
concerns homeland security officials and the intelligence 
community and the FBI.
    So, first, I want to congratulate the FBI on the half a 
dozen or so arrests that have been made, including two in my 
backyard in Austin, of individuals traveling--wanting to travel 
to Syria or those who have--they have come back, who could have 
pulled off a terrorist attack, and you stopped that.
    But at the same time, I am concerned about what you don't 
know what you don't know. I don't know what our level of 
confidence is in terms of who is on the ground, both in the 
United States and Syria that could imply a future attack in the 
United States.
    So my question to the panel, and we have seen, you know, 
the Florida gentleman left Florida, went to Syria, came back, 
went back to Syria. It was a suicide bomber. We did see 
Tamerlan who was on the radar actually leave the United States 
and come back virtually undetected to pull off a terrorist 
attack. That is the kind of profile that I am concerned about 
and want to stop.
    What assurances can you give this committee that we will be 
able to stop that type of foreign travel or foreign fighter 
from coming back in as a trained jihadist and killing 
Americans, Director Comey?
    Mr. Comey. Well, thank you Mr. Chairman.
    It is something that the people at this table and the 
thousands of people we represent work on every single day to 
try to use our human sources, both here and abroad, and our 
technical resources to try and identify those who want to 
travel. Our first mission is to identify those and lock them up 
before they go. If they go, to try and keep very close tabs on 
them so that we know when they are headed back here so we can 
interdict them overseas. That is our preference. Or we can lock 
them up when they arrive.
    Very difficult, as you alluded to. We have an enormous, 
wonderful, free country. There are thousands of ways to get 
from the United States to Syria, and there are tens of 
thousands of Americans who travel for legitimate purposes every 
single day.
    So, sorting among that group to find the bad guys is 
something we spend every single day focused on. We have had 
good success, but I am not overconfident, given the nature of 
the challenge.
    Chairman McCaul. Secretary Johnson.
    Secretary Johnson. Chairman, the question of----
    Chairman McCaul. Can you turn your mic up? Thank you.
    Secretary Johnson. The question of our degree of confidence 
is one that the three of us talk about. My impression is from 
the information we know and the systems that we have in place 
to track those who travel, attempt to travel to Syria, is--from 
that, I think we have a reasonable degree of confidence, not a 
high degree of confidence, but a reasonable degree of 
confidence that we know the numbers, and we know who is 
attempting to travel.
    The FBI has done a very good job of investigating, 
arresting, and prosecuting those who are attempting to leave 
the country, as you mentioned. There was another arrest just 
yesterday, and we are enhancing our ability to share 
information in the National security community of the U.S. 
Government and with our allies.
    We are evaluating ways to potentially limit the travel of 
those who want to leave this country to go to Syria and pick up 
the fight. That is something we are in the midst of doing right 
now.
    As I think you know, Chairman, we have been focused on the 
issue of foreign fighters for some period of months. In 
February, I said that Syria had become a matter of homeland 
security, principally because of this issue of foreign 
fighters. So, monitoring, interdicting the travel of those who 
might want to leave this country and go there is an area of top 
concern, right now.
    Chairman McCaul. Well, I think you were the first one to 
say Syria poses the greatest threat to the homeland, and one of 
the first ones to say that, so I appreciate that.
    Director Olsen.
    Mr. Olsen. Chairman, I would just add that you know, this 
is an effort that begins with good intelligence. So, the better 
intelligence we can get, particularly looking overseas, at who 
is traveling into Syria, who is seeking to leave Syria, the 
better position we will be to apply the various multiple layers 
of screening that are available to prevent those travelers from 
entering into the United States.
    As my colleagues have said, we have been focused on this 
for many, many months. The area that I am encouraged by most 
recently is the level of attention that this is getting with 
our allies in Europe in particular, and how closely we have 
been able to work with them to share information and buttress 
their ability to interdict individuals seeking to travel to 
Syria or return from Syria.
    Chairman McCaul. In my limited time, I do want to hit on 
the other threat, and that is within the homeland. This idea of 
home-grown, violent extremism. Radicalization from within. I 
know Pete King had many hearings on this topic last Congress.
    There are two very glossy publications, one is--we have 
known about this one for awhile, Inspire magazine, which has 
come out with a recent edition. Page after page of how to make 
IED explosives, how to make bombs. Then this one from ISIS, a 
very glossy, in English--it is what I called when I wrote my 
Wall Street Journal op-ed, what they call jihad cool. This 
recruiting effort that they have on-going to train, to recruit, 
and radicalize Americans in the United States; not only to 
bring them to Syria, but also, God forbid, to pull off an act 
of terrorism in the United States. After all, they are already 
here.
    I know the attorney general had a recent announcement on 
this. What can you tell me about that Mr. Secretary and 
Director, what the FBI and Homeland Security is doing to 
counter--and NTC, for that matter--counter this home-grown, 
violent extremist?
    Secretary Johnson. Chairman, the Department of Homeland 
Security, for some time now, has had programs for outreach into 
communities in the United States that themselves have the 
capacity to reach those who might turn to violence.
    We recently took that program and we put it into a separate 
office, which reports directly to the deputy secretary and me 
to enhance its visibility and enhance it as a priority. Our 
outreach people are all over the country in various different 
programs, and I have personally participated in these outreach 
programs.
    I did one in suburban Chicago earlier this year with a 
Syrian-American community, and I am planning to do another one 
next week in Ohio. I agree with you that with the literature 
and the social media, and I have been through it myself, that 
heightens the risk of domestic-based extremism. Because people 
can learn tools of mass violence through literature, like what 
you just referenced.
    So we have got our engagements. We are stepping it up. The 
attorney general announced earlier this week a pilot project 
focused on three cities, which we are all participating in, 
from DHS, the Department of Justice, FBI, and so this is a top 
priority, and we are very focused on it.
    Chairman McCaul. Thank you. Director Comey.
    Mr. Comey. The only thing I would add to that is on the 
enforcement side, we are, the FBI, in every community in this 
country through our Joint Terrorism Task Force is working with 
our State and local partners to try to find these people and 
lock them up before they can actually harm somebody. So we are 
trying to make sure that we are touching communities of 
interest, that we are, in an on-line way, seeing what is going 
on, so we can spot folks, assess them, and then take them out 
of action if they really are a threat.
    But as we have discussed, in a country this big and this 
free, with the material that is available, it is a big 
challenge for us.
    Chairman McCaul. Thank you. They are very sophisticated in 
their social media. It makes it very difficult.
    Just like Tamerlan, his postings were very radical, I know 
the FBI is getting very aggressive, trying to spot that kind of 
activity.
    Director Olsen.
    Mr. Olsen. Just to add. I mean, a fundamental tenet of the 
strategy that we all work on together with respect to 
countering violent extremism is that the neighborhoods and 
communities that are at risk, they are in the best position to 
identify someone who is on the path to radicalization. So, an 
important part of this effort is to give them the tools, the 
education, the knowledge, the information to understand how 
magazines like the ones you just showed can influence an 
individual, and then be able to work with their State and local 
law enforcement community and Federal law enforcement community 
to intervene when someone is on that path.
    Chairman McCaul. Thank you. Time has expired. I recognize 
the Ranking Member.
    Mr. Thompson. Thank you, Mr. Chairman.
    Secretary Johnson, there have been comments made relative 
to ISIL making attempts to enter from our Southern Border. Can 
you, for the sake of this committee, indicate whether or not 
there is any evidence that that has occurred or that anyone has 
been captured trying to enter our Southern Border?
    Secretary Johnson. Congressman, we see no specific 
intelligence or evidence to suggest at present that ISIL is 
attempting to infiltrate this country through our Southern 
Border. I am sure my intelligence colleague could add to that.
    Having said that, we do need to be vigilant. We do need to 
be aware of the risk of potential infiltration by ISIL or any 
other terrorist group. We have tools in place to monitor that 
and to do that.
    Mr. Thompson. Thank you.
    Mr. Olsen, you?
    Mr. Olsen. Yes, I agree with Secretary Johnson. There have 
been a very small number of sympathizers with ISIL who have 
posted messages on social media about this, but we have seen 
nothing to indicate that there is any sort of operational 
effort or plot to infiltrate or move operatives from ISIL 
through the--into the United States through the Southern 
Border.
    Mr. Thompson. Thank you.
    Director Comey, you talked about cybersecurity being upon 
your return, one of the new real threats. This committee has, 
on a very bipartisan basis, came together and has promoted what 
we think is one of the solutions to address many of the 
vulnerabilities that our cyber framework possesses.
    Can you just enlighten the committee a little more on where 
you see some of those cyber threats coming from?
    Mr. Comey. Thank you, Mr. Thompson.
    They come from everywhere. I call it a sort of an evil 
layer cake, with nation states at the top, terrorist groups, 
international criminal syndicates, hacktivists, and thugs and 
criminals and child abusers and pedophiles.
    As I said, because our entire world is now on the internet, 
I am told soon my sneakers will talk to my refrigerator to tell 
the refrigerator I just went for a run.
    But because our whole world is there, that is where those 
who would do us harm come. So, it runs every bad motive and 
every bad kind of person that you can imagine, that is where 
the threat is.
    Mr. Thompson. Thank you.
    Mr. Secretary, as you know, that legislation would have 
given DHS the resources and authorities that it needs to 
perfect and protect civilian networks and critical 
infrastructure. Do you see that type of legislation being 
important as we look at this vulnerability?
    Secretary Johnson. Very much so, Congressman, and I 
appreciate and congratulate you and the Chairman and other 
Members of this committee for your leadership in this regard. I 
am aware that the bill that came out of this committee passed a 
full House, and I have spoken to your colleagues in the Senate 
about doing the same on the Senate side.
    I believe it is critical. I have written an op-ed recently 
on the importance of cybersecurity legislation. There is real 
bipartisan support in the House and the Senate for 
cybersecurity legislation, and I think it is critical to our 
National security.
    Mr. Thompson. Thank you.
    Mr. Olsen, with respect to violent extremism, there--and to 
the extent that you can give information in this kind of 
setting--have you seen any difference in the recruitment and 
sophistication of ISIS or ISIL in comparison to other terrorist 
groups?
    Mr. Olsen. I would say that what we have seen from ISIL is 
a very sophisticated propaganda effort. The types of 
information that they are putting out on the internet, and in 
particular, using social media, really exceed the types of 
propaganda that we have seen from other groups. So, certainly, 
that effort has been quite sophisticated and extensive.
    I think we still are--it remains to be seen the impact of 
that information on potential recruits. The one issue--one fact 
I could point to is, is the number of foreign fighters, and the 
significant number of foreign fighters that have traveled to 
Syria. Again, many of those--not all, but many of them joining 
ISIL's ranks. So, from that perspective, it is obviously a 
concern that the propaganda is having an impact in recruiting 
individuals.
    Mr. Thompson. Last point is, with respect to violent 
extremism, and how we counter it, there is something you see 
our allies doing that maybe we should adopt as we look at how 
we as a country address that here?
    Mr. Olsen. We do work in coordination with our allies, 
particularly the United Kingdom, which has a strong program of 
countering violent extremism. We seek to learn from their 
lessons. They have had a little more experience with this than 
we have. So, our teams, both FBI and DHS and NCTC interact 
regularly with, in particular, our U.K. colleagues, to identify 
ways to improve our efforts in this regard.
    Mr. Thompson. Thank you.
    I yield back.
    Chairman McCaul. The Chairman recognizes the gentleman from 
New York, Mr. King.
    Mr. King. Thank you, Mr. Chairman. Let me thank you for 
holding this hearing. This is extremely timely and appropriate. 
Let me join you in welcoming the witnesses and thank Matt Olsen 
for his years of service. It has really been a--you know, a 
privilege to work with you, Matt. I want to thank you for what 
you have done.
    Secretary Johnson, you have certainly hit the ground 
running, and I want to thank you for that. Also, for your visit 
to New York the other day. I think it is always important to 
remind the people even in New York about the constant terror 
threat that we face.
    Director Comey, I think your being here today really does 
show the extensive cooperation that is needed among all of the 
counterterrorism forces in our country.
    All of you have mentioned that it is not just ISIS, but it 
is also the whole panoply of al-Qaeda threats we have to face. 
AQAP, core al-Qaeda itself. You know, there is one group--and I 
am only mentioning this because it was in the media the last 
several weeks--the Korazon group. Is there anything you can 
tell us in an Unclassified setting regarding that?
    If not, I understand. I am only mentioning it because it 
has been in the media.
    Mr. Comey. A discussion of specific organizations I think 
should be left to a Classified setting.
    Mr. King. I understand that.
    Ranking Member Thompson asked a question about working with 
our allies. Director Comey, I would ask you, what are the 
pluses and minuses of Prime Minister Cameron's proposal that 
passports be taken away from people of particular countries 
that travel to Syria? So, in our case, Americans traveling to 
Syria--what are the pluses and minuses from your perspective--
from the FBI's perspective--of taking away their passports?
    Mr. Comey. Thank you, Mr. King. That is a question I think 
probably better answered by Secretary Johnson. But just, 
quickly--it is of interest to us. I met with the home 
secretary, as I know Secretary Johnson did, from the United 
Kingdom this week, to try and understand better how that is 
working for them.
    Among the concerns I would have is: What is the due process 
that would come with that in the United States? How would I 
protect sources and methods? How would we be able to use, if at 
all, Classified information to make the showing that would be 
necessary? So, I am interested in any tool that might help us 
identify and incapacitate these people. But I would want to 
understand the details a little bit better.
    Mr. King. Also, if I could ask, what would be the 
advantages of allowing them back into the country and 
monitoring them to see who they have contacted? Or is that too 
risky?
    Mr. Comey. No, we do it on a case-by-case basis in all 
manner of circumstances. Sometimes, it makes sense under 
limited circumstances to let somebody back in, cover them very 
closely to see who they connect with. Sometimes, it makes sense 
to have them come back in the country and lock them up right 
away. So, it is hard to say in the abstract.
    Mr. King. Secretary.
    Secretary Johnson. I agree with the FBI director that the 
suspension of passports should be considered on a case-by-case 
basis. The State Department has the authority to suspend 
passports. I also know that suspension, revocation of passports 
can be done on an expedited basis when the situation warrants, 
in a matter of hours or days. It does not necessarily need to 
be a lengthy process. I agree, given the current environment, 
that we need to seriously consider limiting the ability of 
certain individuals to travel, either to go from one foreign 
country to another, or from our country to another country.
    Mr. King. Director Olsen. No?
    I think this was touched on by the Chairman--how concerned 
are you of, let's say, to put it in simple terms, the rivalry 
between core al-Qaeda and ISIS, or AQAP and ISIS, as far as to 
get themselves back in the headlines or reestablish themselves 
as the No. 1 terrorist force, that they would--to increase the 
chances of an attack upon the homeland?
    Secretary Johnson. I am very concerned about that. These 
groups are in competition with another for attention, for fund-
raising, for recruitment. One way to compete is to show that 
you are the biggest and baddest group out there. So, I think 
that the environment we are in right now presents additional 
challenges. So, I agree with the premise in your question.
    Mr. King. Mr. Olsen.
    Mr. Olsen. I agree with Secretary Johnson. I think there is 
this concern about competition among these groups. One 
particular example of this would be the recent announcement by 
al-Qaeda core of a new affiliate in the Indian subcontinent. 
That was announced on social media on September 3. It could be 
viewed as an effort by core al-Qaeda to reassert its supremacy 
in this global movement.
    So, those sorts of efforts can be viewed in the context of 
what might be an emerging competition among groups.
    Mr. King. Director Comey.
    Mr. Comey. You know, Mr. King, the logic of it is 
compelling because you are not going to be the leader in the 
global Jihad without striking America. So, it drives that sense 
of competition that my colleagues have talked about.
    Mr. King. Thank you all for your testimony.
    I yield back. Thank you, Mr. Chairman.
    Chairman McCaul. The Chairman recognizes Ms. Jackson Lee.
    Ms. Jackson Lee. I, too, would like to thank the Chairman 
and Ranking Member for this hearing. I would also like to thank 
each of the presenters--Members of the panel for your service 
to this Nation.
    Having served on this committee from the beginnings of the 
recovery period of 9/11, when the Select Committee on Homeland 
Security was first formed to create this Department, I know how 
important the issues that all of you gentlemen are speaking of 
are to the Nation and to the security of America.
    I think it is important even in this meeting to hold up the 
Constitution, to tell all of those who would have a malicious 
intent toward the United States is that we will not sacrifice 
our values, our liberty, our commitment to equality and justice 
for their terroristic ways. I thank all of you for recognizing, 
as my Ranking Member indicated, that we are not here to label a 
faith, Islam, or the Muslim people. We are here to ensure the 
security and safety of the United States of America.
    I want to first of all say that as I was looking over 
materials that I think are relevant, I think it is important to 
note from an article, and I ask unanimous consent to put into 
the record an article by William McCants, who indicated that 
the issue or the idea of ISIL began in 2006, long before 
President Obama, long before Secretary Johnson or anyone was in 
the positions that they are in today, and before the American 
withdrawal from--and had at that time popular backing.
    So let me be very clear. I believe our President has been 
very effective in trying to both downsize and bring down the 
war in Iraq and, as well, address the National security of the 
American people. I will not vote for an authorization for war, 
but we cannot talk about ISIL without doing something. So I 
will vote today for ensuring that other fighters, in this 
instance the Free Syrian Army, is well-trained to do the job. 
That means that we here in the United States must be very sure 
of what we are doing to protect the homeland.
    Secretary Johnson, I would ask as a follow-up question on 
my colleague, Mr. Thompson. Coming from Texas, do you feel that 
you have sufficient Federal resources on the border to, if 
there was such an intrusion, that your staffing between ICE, 
which is on the inner side between the Border Patrol, 
intelligence, working with your colleagues, do you believe you 
have the right and necessary resources?
    Secretary Johnson. We have more resources today than we 
have had at any time previously. Over the last several years, 
we have put at the border, particularly the Southwest Border, 
an unprecedented level of resources in terms of people, 
technology, vehicles, and other equipment.
    As you know, I am sure, Congresswoman, apprehensions over 
the last 14 years have gone down. They have gone up this year 
because of the spike in the Rio Grande Valley sector. But we 
could use more. The bill passed by the Senate last year, S. 
744, would have gone a long way to providing additional 
resources, additional personnel for the Southwest Border----
    Ms. Jackson Lee. Thank you.
    Secretary Johnson [continuing]. Toward border security.
    Ms. Jackson Lee. Thank you.
    Secretary Johnson. So----
    Ms. Jackson Lee. I wanted to be clear, if I could, because 
my time is running, that you do have--I do support that 
legislation and I would rather have the Federal resources than 
unpaid National Guard that has been put down by the Governor of 
the State of Texas.
    Let me quickly ask a question to all of you. We know that 
we have been hacked. All of us have been hacked. But the 
question is, do you--are you able to discern the distinction 
between the identity-thief hackers and that of the state 
hackers that are coming in as terrorists on the cybersecurity 
grid? Could you all answer that question?
    My last question, so I would get it in so you can answer, 
if you might. The women of this Nation are seemingly targets of 
recruitment for ISIL. Women coming from Western nations, poor, 
maybe uneducated--are we having a special target to recognize 
the concern for those women and how we would stop that? If all 
three of you could answer that, I would appreciate it.
    Secretary Johnson. Congresswoman, let me begin with the 
question on cyber. As Director Comey suggested, we face cyber 
threats from a range of different types of actors. I think we 
do a pretty good job of detecting the nature and the type of 
actor for each specific attack, but it is a range from private 
individuals to others.
    I will defer to my colleagues.
    Mr. Comey. I agree with Secretary Johnson, though 
attribution gets increasingly difficult as the private--the 
thieves get increasingly sophisticated and some of their 
techniques come to rival those of nation-states. But we do a 
reasonably good job of being able to sort them out.
    With respect to the recruitment of women, you are 
absolutely right. There is a targeted effort by ISIL to attract 
fighters and people who would be spouses of fighters. Given the 
nature of their male orientation, the spouses are always women. 
They are trying to attract them from all over the West to come 
to their so-called caliphate to be--to start families in their 
warped world.
    Ms. Jackson Lee. Mr. Olsen.
    Mr. Olsen. I would only add to what Director Comey said 
about the recruitment of women. You know, among the most 
barbaric aspects of what ISIL has done in Iraq is the 
enslavement of women and young girls. So it is obviously a huge 
concern to us.
    If I may add, Ms. Jackson Lee, you held up the 
Constitution, and today is Constitution Day.
    Ms. Jackson Lee. Yes, it is.
    Mr. Olsen. I would say that the director of National 
intelligence, Jim Clapper, yesterday held a swearing-in for 
those of us to reaffirm our commitment to the Constitution, 
with the workforce. I think that reflects the commitment within 
NCTC and the broader intelligence community to our fidelity to 
the Constitution.
    Ms. Jackson Lee. If I might, Mr. Chairman, thank Mr. Olsen 
for his service and ask unanimous consent--I believe I asked 
for unanimous consent for this--but I would also ask for 
unanimous consent, which I would like to refer to the 
Chairman's review, H.R. 5488, which I would like to ask 
unanimous consent just to put into the record, which is 
legislation that is called ``No Fly For Foreign Fighters.'' It 
doesn't tie your hands, but it refines the watch list to make 
sure that everyone that should be on it is on it, particularly 
since the foreign fighter concept is continuing to grow.
    I ask unanimous consent to introduce that into the record 
and look forward to discussing it with you gentlemen.
    Chairman McCaul. Without objection, so ordered.
    [The information follows:]
        State of Confusion: ISIS' Strategy and How to Counter It
            By: William McCants
Brookings, Foreign Affairs, Opinion/September 11, 2014
http://www.brookings.edu/research/opinions/2014/09/11-counter-isis-
strategy-mccants

    In 2005, Ayman al-Zawahiri, deputy head of al Qaeda, had a killer 
idea: the al Qaeda franchise in Iraq (AQI) should declare an Islamic 
state. In a letter to Abu Musab al-Zarqawi, the brutal leader of AQI, 
Zawahiri explained how it would work. The Islamic state, he wrote, 
would fill security vacuums around Iraq left by departing American 
forces. Once the Islamic state successfully fended off the attacks from 
neighboring countries that would undoubtedly follow, it could proclaim 
the reestablishment of the caliphate, the one-man institution that had 
ruled a vast empire in early Islamic history. For the scheme to 
succeed, Zawahiri warned Zarqawi, al Qaeda had to make sure that the 
Sunni masses supported the project.
    Once it was loosed into the world, Zawahiri's idea was too powerful 
for him or the al Qaeda leadership to control. By 2006, long before the 
American withdrawal and far too early to have built up much popular 
backing, AQI had established Zawahiri's Islamic state. The new head of 
AQI after Zarqawi's death, Abu Ayyub al-Masri, dissolved his 
organization and pledged his allegiance to a new ``commander of the 
faithful,'' Abu Omar al-Baghdadi, who purportedly controlled the Dawlat 
al Iraq al Islamiyya, or the Islamic State.
    Baghdadi's title confused the jihadist community. In medieval 
Islam, ``commander of the faithful'' was usually reserved for the 
caliphs. Was Baghdadi claiming to be the caliph? And what of Mullah 
Omar, to whom al Qaeda's leaders had aleady pledged allegiance? The 
name of the group was also puzzling. The word for ``state'' in Arabic 
is dawla. Was the new group claiming to be a dawla in the modern sense, 
an institution jihadists believe is un-Islamic? Or was the Dawlat al 
Iraq al Islamiyya simply an ode to the name of the man revered as the 
greatest caliphate, the Dawla Abbasiyya?
    The Islamic State was not eager to dispel the ambiguity. It either 
liked implying that it had more power than it actually possessed or 
believed that the jihadist community was not ready to tolerate the full 
freight of its claims. Ambiguous audacity captured the imagination and 
was thus the key to the group's power.
    Although Zawahiri had first suggested the idea of establishing a 
state, he and the other al Qaeda leaders were blindsided by its early 
realization. Writing four years after the ISI was declared, Adam 
Gadahn, an American al Qaeda operative, confided in a private letter 
that ``the decision to declare the State was taken without consultation 
from al'Qaida leadership,'' a move that ``caused a split in the 
Mujahidin ranks and their supporters inside and outside Iraq.''
    Al Qaeda's official position, nevertheless, was to endorse the fait 
accompli, probably in an effort to keep a hand in the Iraq game and 
avoid further dissension in the ranks. ``I want to clarify that there 
is nothing in Iraq by the name of al Qaeda,'' proclaimed Zawahiri in a 
December 2007 question-and-answer session. ``Rather, the organization 
of [AQI] merged, by the grace of God, with other jihadi groups in the 
Islamic State of Iraq, may God protect it. It is a legitimate emirate 
established on a legitimate and sound method. It was established 
through consultation and won the oath of allegiance from most of the 
mujahids and tribes in Iraq.'' But neither point was true, as al Qaeda 
leaders privately groused.
    Al Qaeda may have ratified its affiliate's decision to disband 
after the fact, but it was still an open question as to whether the 
Islamic State was subordinate to al Qaeda Central or an altogether 
independent entity. The state itself never addressed the question, 
again relying on ambiguity to imply greater power and independence than 
it actually possessed. And al Qaeda's leaders made the fateful decision 
never to dispel that uncertainty.
    From private documents, though, we know that al Qaeda Central 
believed that the Islamic State was under its authority. In his private 
letter, for one, Gadahn claims as much. The United States also 
uncovered a paper trail of documents from 2007 and 2008 attesting to 
that fact. Al Qaeda Central ordered the Islamic State of Iraq to carry 
out attacks, for example, against Halliburton in 2007 and the Danes in 
2008. Al Qaeda Central also asked for information on the state's 
personnel and expenditures. When the group refused to answer corruption 
charges leveled by one of its former officials, al Qaeda Central 
summoned Masri, the group's war minister and previously the head of 
AQI, to the woodshed in ``Khorasan'' (Afghanistan or Pakistan).
    Whatever control al Qaeda exercised over the Islamic State of Iraq 
had further eroded by 2011, either because the Islamic State rarely 
heard from al Qaeda Central owing to U.S. counterterrorism measures or 
because the state did not want to listen to its superior. As Gadahn put 
it in his letter, ``Operational relations between the leadership of al-
Qaeda and the State have been cut off for quite some time.''
    Still, there was no formal break between the two organizations. 
Even Abu Muhammad al-Adnani, the Islamic State's spokesman, who today 
denies that the Islamic State of Iraq ever pledged an oath to obey al 
Qaeda, acknowledges that it was ``loyal'' to al Qaeda's commanders and 
addressed them as such, and that it continued to abide by al Qaeda's 
guidance on attacks outside Iraq. For example, he says, the group 
refrained from ever attacking Iran (even though its soldiers demanded 
it) out of deference to al Qaeda's desire to ``protect its interests 
and its supply lines in Iran.'' The Islamic State also held back from 
carrying out attacks in Saudi Arabia, Egypt, Libya, and Tunisia because 
al Qaeda asked it to. But when it came to targeting decisions inside 
Iraq, the spokesman contends that it never followed al Qaeda's 
``repeated request'' to stop targeting Shiites. And, in his telling, al 
Qaeda Central never issued a direct command or asked about the 
disposition of its forces inside Iraq. When al Qaeda's leaders expelled 
the group in 2014 for its disobedience, Adnani retorted that al Qaeda 
could not disown what had never belonged to it in the first place.
    Adnani is lying, has a poor memory, or is unaware of high-level 
discussions between the Islamic State of Iraq and al Qaeda Central. Al 
Qaeda certainly inquired about the Islamic State's troops and issued 
requests and demands for it to change its targets, modify its tactics, 
and reform its bureaucracy, as the documents from 2007 and 2008 
demonstrate. That al Qaeda usually couched its instructions in polite 
language does not mean al Qaeda expected the Islamic State to ignore 
them.
    There are many reasons the Islamic State grew unruly, some of them 
bureaucratic--it is hard to govern a terrorist group remotely, 
especially when even the local leader loses control of a corrupt 
faction of the group--others security-related--many of al Qaeda 
Central's messages were delayed or simply did not get through because 
of U.S. counterterrorism measures. But other al Qaeda affiliates 
bedeviled by the same infighting and hardships had never revolted. What 
separates them from the Islamic State of Iraq is also what explains its 
aberrant behavior: the group came to believe its own propaganda that it 
was, in fact, a state. Its flag--and not al Qaeda's--had become the 
symbol of the global jihad. Even al Qaeda's own affiliates flew it. 
Jihadist fanboys on-line counted the days since the state's 
establishment. And after the Islamic State began to control territory 
in 2012, it could truly claim to be a state in fact and not just in 
theory.
    When, in 2013, the Islamic State (now calling itself the Islamic 
State of Iraq and al-Sham, or ISIS) proclaimed its authority over Syria 
and Iraq, Zawahiri demanded that it renounce that claim and return to 
Iraq. The response of the ISIS's emir was dismissive: ``I have chosen 
the command of my Lord over the command in the message that contradicts 
it.'' Months later, ISIS proclaimed itself the caliphate, rallying many 
in the global jihadist community to its side. It is far more exciting 
to be fighting for a caliphate that has returned than for a distant 
promise of its return under al Qaeda. Zawahiri's killer idea had taken 
on a life of its own, dismembering al Qaeda and replacing it as leader 
of the global jihad.
    Despite ISIS' success in capturing jihadists' imagination, the idea 
of an Islamic state has one fatal flaw: its physical incarnation makes 
it vulnerable to attack. Take away the state's territory and expose its 
brutality and rapaciousness, and you discredit the standard-bearer of 
the idea. You may even discredit the idea itself. As Adnani prayed in a 
recent message, if this state is false, then may God ``break its back . 
. . and guide its soldiers to the truth.'' The United States and its 
allies should do everything they can to ensure that the higher power 
does indeed destroy the state--and expose the truth.
                                 ______
                                 

113TH CONGRESS

2D SESSION

                                H.R. 5488

To require a review of the completeness of the Terrorist Screening 
Database (TSDB) maintained by the Federal Bureau of Investigation and 
the derivative terrorist watchlist utilized by the Transportation 
Security Administration, and for other purposes.


                    IN THE HOUSE OF REPRESENTATIVES

                           September 16, 2014

Ms. Jackson Lee introduced the following bill; which was referred to 
the Committee on the Judiciary

                                 A BILL

To require a review of the completeness of the Terrorist Screening 
Database (TSDB) maintained by the Federal Bureau of Investigation and 
the derivative terrorist watchlist utilized by the Transportation 
Security Administration, and for other purposes.
    Be it enacted by the Senate and House of Representatives of the 
United States of America in Congress assembled,

SECTION 1. SHORT TITLE.

    This Act may be cited as the ``No Fly for Foreign Fighters Act''.

SEC. 2. REVIEW OF THE COMPLETENESS OF THE TERRORIST SCREENING DATABASE 
                    (TSDB) MAINTAINED BY THE FEDERAL BUREAU OF 
                    INVESTIGATION AND THE DERIVATIVE TERRORIST 
                    WATCHLIST UTILIZED BY THE TRANSPORTATION SECURITY 
                    ADMINISTRATION.

    (a) In General.--Not later than 90 days after the date of the 
enactment of this Act, the Attorney General, acting through the 
Director of the Terrorist Screening Center, shall complete a review, in 
coordination with appropriate representatives from the Department of 
Homeland Security and all other relevant Federal agencies, of the 
completeness of the Terrorist Screening Database (TSDB) and the 
terrorist watchlist utilized by the Administrator of the Transportation 
Security Administration to determine if an individual who may seek to 
board a United States-bound flight or a domestic flight and who poses a 
threat to aviation or national security or a threat of terrorism and 
who is known or suspected of being a member of a foreign terrorist 
organization is included in such Database and on such watchlist.
    (b) Report.--Not later than ten days after the completion of the 
review under subsection (a), the Director of the Terrorist Screening 
Center shall submit to the Committee on Homeland Security of the House 
of Representatives and the Committee on Homeland Security and 
Governmental Affairs of the Senate a report on the findings of such 
review.

    Ms. Jackson Lee. Thank you very much. I yield back.
    Chairman McCaul. Dr. Broun, from Georgia.
    Mr. Broun. Thank you, Mr. Chairman.
    Director Olsen mentioned in his oral testimony that over, 
roughly--I am sorry--100 Americans have joined ISIL. Do we know 
how many Americans have actually joined ISIL, as well as other 
terrorist organizations around the world?
    Any of you can give me a number?
    Mr. Olsen. I want to be very clear about the numbers, if I 
may, Congressman. So, we estimate over 100 Americans have 
traveled to Syria to join with extremist groups in Syria, or at 
least attempted to travel.
    Mr. Broun. So you don't know a number of who have actually 
joined, is that correct?
    Mr. Olsen. Once in Syria, it is very difficult to discern 
what happens there.
    Mr. Broun. Do you know who they are, though, that have 
joined or have traveled to Syria, have traveled to Pakistan or 
other places around the world? Do we know who those people 
actually are?
    Mr. Olsen. To varying degrees, we have specific information 
about who they are, whether they travel to Syria or other 
locations.
    Mr. Broun. Well, going back to what former Chairman Peter 
King was asking about passports. The State Department recently 
has said that they are not going to revoke passports on 
Americans that fly to Syria or fly to these different places. 
If we know who those people are, I think it is an outright 
security threat not to revoke their passports. Certainly, I 
believe in due process, but I think we can do this. It is a 
huge security threat to this country if we don't revoke their 
passports.
    We already know that TSA has allowed known terrorists that 
are on the No-Fly List actually to get on aircraft in America. 
That presents a huge security threat to America.
    Next question of all three of you is that we have got 
cities, and now the State of California, that have declared 
themselves as being sanctuaries for illegal entrants into this 
country. Do you all see this kind of philosophy of cities or 
even a State being a security risk to our Nation?
    Mr. Secretary.
    Secretary Johnson. I guess I would answer it this way. We 
have a pretty good ability through law enforcement, 
intelligence, homeland security means, to identify individuals, 
including undocumented, who are people of suspicion, suspected 
terrorists. The FBI proves that time and again.
    I do think that in any situation where there are a large 
number of people who are undocumented, there is a risk that--it 
hinders our ability to track those individuals, which is why 
from my homeland security perspective, I would want to see 
those people come forward and get on the books so that I know 
who they are.
    So, you know, if what you are suggesting is that the risk 
to homeland security grows when there are larger numbers of 
undocumented people in any one place, in any crowded area, I 
can't disagree with that.
    Mr. Broun. Well, we know that we have got a porous border, 
particularly on the Southwest. We already know that as your 
Department, Secretary, describes this, we have OTMs, other than 
Mexicans, crossing the border, that we have apprehended. We 
don't know how many people have not been apprehended. Would you 
agree with that statement? Yes or no.
    Secretary Johnson. We generally believe that--we have an 
ability to calculate total attempts to cross the border 
illegally. Apprehensions are a large percentage of that. It 
runs somewhere between 70 and 90 percent. So we track total 
attempts. So we have a sense for who we didn't get who has 
crossed the border.
    Mr. Broun. Well, I have limited time. I apologize for 
interrupting you. Do we know how many Syrians or Pakis--
Pakistanians or Iranians or Somalians or others have crossed 
the border?
    Secretary Johnson. In a broad sense. There is obviously 
legal migration and there are obviously a large number of 
people who travel from those countries for legitimate means, 
through lawful means. So I think we have a pretty good sense of 
the nationalities of who comes to this country, both through 
legal migration and through apprehensions.
    Mr. Broun. Well, frankly, I believe that this Visa Waiver 
Program that we have increases our security threat, too, 
because of these terrorists being able to fly to this country 
with--on the Visa Waiver Program. I think we need to, Mr. 
Chairman, look at that.
    One final question: Some Americans say that ISIL and what 
is going on in Syria and Iraq today are just involved in a 
local civil war. What would you all say to them as far as the 
threat that this poses to our own interests here in this 
country? If I could get all three of you to respond to that.
    Secretary Johnson. I will start.
    Congressman, I think that ISIL represents a huge threat to 
our interests. It represents a potential threat to our homeland 
security. It represents a threat to the stability in the 
region, and it obviously represents a threat to Americans in 
the region. They demonstrate the willingness to kill Americans 
because they are Americans.
    As the Chairman and others have pointed out, they have 
acquired territory. We have to be very concerned any time any 
terrorist organization acquires territory for training, for 
launching attacks.We are determined to take the fight to this 
group.
    Mr. Broun. Director Comey, would you comment, please?
    Mr. Comey. I agree with what Secretary Johnson said. I wish 
it were the case that it was something that was in a box 
halfway around the world, but it is not.
    Mr. Broun. Okay.
    Director Olsen.
    Mr. Olsen. I completely agree with Secretary Johnson and 
wound only add that there is certainly no lack of understanding 
within our departments and agencies or within the intelligence 
community of the nature of the threat that the group poses.
    Mr. Broun. Thank you so much. Mr. Chairman, my time has 
expired. I yield back.
    Chairman McCaul. Gentleman's time has expired. Given the 
limited time we have with our witnesses, I am going to hold 
Members very strictly to the 5-minute rule.
    Next we have Mr. Barber, who is not here, so Mr. Payne, who 
is also--where is Mr. Payne? He is right next to me. You 
changed seats with the Ranking Member.
    [Laughter.]
    Mr. Payne. Thank you, Mr. Chairman. Mr. Secretary, you 
know, recently there have been news reports that have claimed 
thousands of foreign students have overstayed their visas and 
have disappeared.
    However, the Department of Homeland Security is doing a 
great job, and their own data appears to show that while these 
cases were initially flagged for review, the locations of these 
students was in fact known by DHS field officers.
    It is my understanding that, you know, there are many 
reasons why a record might be flagged as a potential overstay, 
none of which are reasons to expect dangerous activity. For 
example, DHS's own press office has stated that many cases 
appear to be closed due to a variety of legal reasons, 
including the student's receipt of a green card or a departure 
from the United States.
    You know, for generations American foreign policy leaders 
have agreed that educational exchanges are one of the most 
successful foreign policy tools. Eight of the Nobel Peace Prize 
winners since 1987 have been foreign students educated in the 
United States.
    America needs friends and understanding around the world 
more than ever, and educating young people here gives us a 
great opportunity to develop those ties for future world 
leaders. Therefore, we need to understand how the Department 
manages the student visa program.
    Can you discuss what the procedures and the systems DHS 
uses to monitor foreign students? Because I want to make sure 
that we do not distract the American people from the real 
threats that we are currently facing by mischaracterizing 
foreign students.
    Secretary Johnson. Congressman, given the nature of student 
visas, we have to depend to a very large degree on what the 
universities tell us about whether the individual is still a 
student, still seeking an education in this country.
    As you referenced, there have been a number of individuals 
who have overstayed their student visas. This is something I 
have looked into, taken a special interest in. I believe that 
there are a number of vulnerabilities in our ability to track 
these individuals that are being addressed.
    A number of gaps are being closed. We have looked into the 
number of those who are reportedly overstaying their visas. We 
have found that a very large fraction have either been arrested 
or have returned to their countries or are in compliance to the 
receipt of green cards.
    There is a fraction of that population where there are 
still open investigations. But, I don't have the exact numbers 
off-hand, but a very, very large number of those who were 
initially individuals of concern we have found either are now 
in compliance or have returned, but there are still open 
investigations on some.
    So I think we are doing a better job of tracking these 
individuals. I totally agree with what you said about the 
importance of student visas and the importance of receiving an 
education.
    Mr. Payne. Thank you. Because, you know, I just--I saw a 
report where they had used a number of 60,000, which absolutely 
was ridiculous and absurd. You know, it appears that the number 
is closer to maybe 6,000. But ICE has been on top of closing 
and narrowing that number consistently. Is that correct?
    Secretary Johnson. That is correct. Of the 6,000 you 
referred to, we have found that a large number are either in 
compliance or have returned or have been arrested. There are 
still a number--I don't have the number off-hand, but there are 
still a number that is a fraction of that 6,000 that are under 
investigation. But I believe most of them are either in 
compliance, have been arrested or returned.
    Mr. Payne. Okay. Thank you, and I will yield back.
    Chairman McCaul. Gentleman from Pennsylvania, Mr. Meehan, 
is recognized.
    Mr. Meehan. Thank you, Mr. Chairman. Director Comey, I 
appreciate your focus on the issue of technology. I enjoyed 
your anecdote about the fact that your sneakers may tell your 
refrigerator that you went for a run. I know you appreciate 
that those same sneakers could tell your wife that you went to 
the refrigerator.
    But I do appreciate your leadership on the technology 
front, and I am struck by your concept that--your observation 
after 10 years returning, you are seeing the dramatic change 
and the metastasis as you identified it in the cyber domain. 
You know, we see the fifth dimension of warfare being in this 
cyber capacity.
    One of our colleagues, former colleagues Lee Hamilton who 
observed this same phenomenon from our time together in 2001 
came back and testified earlier in the week that he sees the 
cyber threat as even greater than the collective threat 
currently coming from ISIL.
    So we know about the use of the radicalization and the 
recruitment that has been done. We have seen more sophisticated 
attacks from Iranians that have been tied to denial of services 
of our banks. We have seen criminal gangs use the internet for 
the creation of ways in which they can do things like extortion 
and to raise revenues.
    I am also genuinely concerned about the ability to purchase 
expertise out there in the world-wide domain from people that 
may not be directly associated but can be hired to conduct 
activities. Of course there are some concerns that even at a 
certain point the kind of Islamic jihad could be tied back to 
ISIL with cyber attacks that look at Government organizations, 
energy companies, transport systems, banks, things of that 
nature.
    In light of that, looking specifically at ISIL, what do you 
think the cyber dimension is of the cyber threat that ISIL 
creates?
    Mr. Comey. Thank you, Mr. Meehan. I remember fondly our 
time working together. Thank you for caring so much about these 
issues because I do think it transforms all of the things we 
are responsible for.
    I see ISIL focused most on using the internet, cyber space, 
to recruit, both through sort-of peer-to-peer communications to 
try and lure people to come and fight for them, but also as the 
Chairman said, though their very slick propaganda efforts to 
energize and to train would-be fighters. I know this is 
something NCTC has spent a lot of time thinking about as well.
    Mr. Meehan. Have you seen something, Mr. Olsen, with regard 
to the activities that lead you to believe that there is a 
growing competency that may create an actual threat from ISIL 
on the cyber domain?
    Mr. Olsen. It is something we are concerned about, but at 
this point I would characterize it as basically just 
aspirational in terms of any capability of ISIL or other 
similar groups to carry out cyber attacks. I think as Director 
Comey said, the primary concern about cyber right now is the 
use of the internet to recruit and attract followers.
    Mr. Meehan. Okay. Director Johnson, you--or Secretary 
Johnson, you may feel comfortable in commenting on that, but I 
want to take my remaining minute to thank you for your 
leadership of and close cooperation with this committee as we 
have worked to structure new legislation that would enhance the 
ability for the agencies across the board to better prepare to 
be responsive to this growing technological threat and 
particular the use.
    Can you tell me not just--I know you support it, but can 
you tell me why you believe this legislation is critical to the 
enhancement of your mission and why it is so critical that we 
act in a timely fashion on this?
    Secretary Johnson. Congressman Meehan, thank you for your 
leadership in this area. I think it is critical. The reason--
there are are several reasons why I believe legislation in this 
area is important.
    One, to codify the authority of DHS to act in the dot-gov 
world. There is legal uncertainty about our ability to protect 
the dot-gov world. There are statutes that some would interpret 
to inhibit our ability to protect the dot-gov world. So the 
existing statutory landscape needs clarity in order for us to 
do our job.
    We know also that in the private sector there are those who 
are concerned about their legal authority to share information 
with the Government. They are concerned about their civil 
liability--their potential civil liability if they share 
information with the Government, if they act in response to the 
Government.
    We are also looking to enhance our authority to hire cyber 
talent. But one of my immediate concerns which I know you are 
focused on is clarity in terms of helping us police the dot-gov 
world. This is something we have got to do on a daily basis. We 
face attacks on a daily basis. It is not just a cybersecurity 
threat anymore.
    Mr. Meehan. Well, I thank you again for your leadership, 
and particularly the promotion of the NCIC of the kind of 
junction through which a lot of this activity can take place 
and how vital it is.
    Mr. Chairman, thank you for your leadership on that issue, 
and I yield back.
    Chairman McCaul. Thanks for your leadership on cyber. 
Secretary, your strong support and the administration's support 
for passage in the Senate, and I--we all appreciate that as 
well.
    Chairman recognizes Mr. Higgins.
    Mr. Higgins. Thank you, Mr. Chairman.
    Just first, on the ISA or ISIL numbers. You know, about 5 
weeks ago in published reports, it was estimated to be between 
7,000 and 11,000 ISA fighters. The most recent CIA report puts 
that estimate at 31,000. I am just wondering if that 
distinction is a result of bad numbers analysis or rapid 
recruitment success on the part of ISA?
    Mr. Olsen. Yes, Congressman.
    So the current assessment is that their strength is 
anywhere between 20,000 and approximately 31,000--31,500. So it 
is--that obviously demonstrates that what we are talking about 
is an approximation with a large range. So we have limited 
intelligence on this question and that is by virtue of the fact 
that our ability to collect on this question is limited in 
Syria and in Iraq.
    But the increase in that number does also reflect some of 
the recent gains that the group has made through its 
battlefield successes and its recruitment efforts, particularly 
in Iraq. So it is both. The change reflects our limited 
intelligence collection, but also the gains the group made more 
recently.
    Mr. Higgins. Since the commencement of air strikes, have 
those numbers dropped? Have the increases been reduced? Because 
I think part of the military strategy there is to stop the ISIS 
momentum because that, more than anything else, is probably the 
most potent recruitment advantage that ISIS has.
    Mr. Olsen. What we have seen from an intelligence 
perspective certainly is that the air strikes have had an 
impact on the military momentum of ISIL. So it has had an 
impact on the battlefield. I think we are--it is too soon to 
tell how those strikes will affect the overall numbers of ISIL 
fighters or their ability to attract people to join the ranks.
    Mr. Higgins. So the estimate of future recruitment, in 
terms of ISA members is open-ended and unknown?
    Mr. Olsen. Well, I think that is right. How it will look in 
a year or more from now is, at this point a question that we--
--
    Mr. Higgins. Well, let me tell you why I ask that question. 
You know, it is hard to know that--where this is going, because 
nobody saw it coming. If we saw it coming, we potentially could 
have acted earlier to hold its progress. We know that, you 
know, 15,000 foreign fighters traveling to Syria, 2,000 of 
which are from Europe and the United States, you know, begins 
to bring this closer to home. You know, ISA is younger than al-
Qaeda. It is more aggressive. It is more brutal. It is better 
at raising money. It is more technologically sophisticated. 
This poses a major problem.
    You know my district alone, last year there was a terror 
plot to blow up a passenger train that was thwarted. It was 
going through Niagara Falls and two individuals were indicted 
and thought to have al-Qaeda affiliation. In 2003, six home-
grown terrorists from the city of Lackawanna were convicted of 
providing material support to al-Qaeda after having traveled to 
Afghanistan and participated in al-Qaeda training camps.
    Just yesterday in Rochester, New York about 50 miles from 
my district, a man was indicted for attempting to provide 
material support to ISA, attempting to kill U.S. soldiers and 
for possession of firearms and silencers.
    So you know, I think it is--people shouldn't be alarmed, 
but I think that the growth of ISA, our inability to come--and 
we have a strategy that is not fool-proof. It depends on people 
who we have not demonstrated any confidence in before--the Free 
Syrian Army and all of the thousands of militias that make that 
up. This is a major concern.
    I saw it in the Secretary's statement, you know, there were 
five things that the Department of Homeland Security is doing, 
including aviation safety and a number of other things and that 
is fine.
    But I just think that the threat of ISA to the American 
homeland is much--it is more existential than we are willing to 
acknowledge. The idea, again, is not to alarm anybody, but to 
prepare for what is a very, very serious situation that is 
metastasizing in that part of the world. They are not going to 
stop in Eastern Syria or Northwestern Iraq. They have a goal 
and it is very specifically defined. The borders in that part 
of the world, these people have no appreciation for, 
historically, because they had nothing to do with it. They are 
looking to upend the entire Middle Eastern region and wanting 
to claim it for themselves.
    I yield back.
    Chairman McCaul. The gentleman's time has expired.
    Mr. Duncan is recognized.
    Mr. Duncan. Thank you, Mr. Chairman, and thank you for the 
timeliness of this committee. I want to thank the gentleman, 
Mr. Higgins, for his comments as well. Thank you, gentlemen, 
for you service to our Nation. You have an immense challenge 
ahead of you. We all recognize that we support it where we can. 
Having a dialog about the threats, global threats to safety and 
security is very, very important, not only for lawmakers and 
policymakers, but also the American people. I want to comment 
about--Secretary Johnson, you mentioned the OTMS and whether 
we--that you use a broad spectrum. Whether it is broad or 
narrow, the fact is we have no idea who is in our country or 
what their intent is.
    One side of the political spectrum really wants to paint a 
rosy picture that we have a secure border. But the fact is 
Americans realize that we don't. We also--I think Americans are 
counting on us in this arena to transcend politics and work to 
keep the bad elements out of our country, to work to keep 
another 9/11 from happening. They expect you guys to transcend 
politics and focus on keeping us safe.
    I grew up in the Cold War. At that time, we were, as a 
Nation, tracking troop movements of the Soviets, tank 
placements, surface and sub-surface ships and where they may be 
across the country and across the globe. Now we are tracking 
individuals. Foreign fighters who may have left our country or 
Europe and traveled to Syria to fight Jihad who may have been 
radicalized, who may have the ability to travel back to their 
county and may have the ability to come here.
    In June, I was in Brussels. Before we got to Brussels, a 
foreign fighter had traveled to Syria, was radicalized, made 
his way back through Turkey and Germany. Germany actually knew 
about this individual, failed to let the Belgians know. He went 
into Brussels and shot up a Jewish museum. At least three, if 
not four, individuals lost their lives. He tried to flee 
through France and was caught at a bus stop with the very 
weapons he used to commit the crime.
    Germany knew, but failed to share that information. We are 
relying on information sharing as we try to track individuals--
foreign fighters as they travel around the globe. It is an 
immense challenge. To go back to what I mentioned earlier. We 
talked earlier or heard earlier about the hundred or so 
Americans that have gone to fight with ISIS. But we also have 
Somali Americans who have traveled to fight with al-Shabaab. We 
have got Boko Haram, al-Qaeda, wherever they may be, in the 
Arabian Peninsula or other places. Don't take your eyes off of 
al-Qaeda as we focus on ISIS, because it is still a threat.
    The thing that I want to question about this morning is a 
Classified--actually it is Unclassified now, internal memo from 
FBI. On June 13, the violent criminal threat section sent out a 
request for information regarding encroachment admission creep 
by other Federal law enforcement into traditional FBI lanes.
    It goes on to talk about mission creep by Homeland Security 
investigations. It is an issue in an alarming number of field 
offices.
    I appreciate the director of FBI saying that that is really 
not an issue, but what I want to point out is DHS was stood up 
in 2003 to recognize--or after recognizing the stove-piping of 
information, the walls, or barriers of sharing information 
between agencies that possibly could have thwarted the 9/11 
hijackings.
    I go back to the comments I made earlier about Germany 
failing to let Belgium know about a foreign fighter that 
traveled through their country, who ended up killing some folks 
at a Jewish museum. We cannot afford to have these type of turf 
wars between agencies charged with keeping us safe.
    Director, how do you combat that? How do you keep that 
mission creep issue from being an issue? I would love to hear 
from Secretary Johnson on how he feels about that.
    Mr. Comey. Thank you, Mr. Duncan.
    By talking about it constantly. That report made my head 
explode, and so I shared that head explosion with every leader 
in the FBI to let them know how I think about it, which is that 
the FBI does nothing alone. To be effective in protecting the 
American people across all our responsibilities, we need the 
kind of partnerships you see actually visually represented by 
the two of us sitting together. There is just no other way to 
do it.
    The American taxpayer should have no patience for turf 
battles. I have got none.
    Mr. Duncan. Director, I appreciate y'all's communication. I 
am concerned about communication where the rubber meets the 
road, and that is where the communication needs to happen. If 
you have got turf wars going on, I am afraid that information 
may not be shared appropriately.
    Mr. Comey. Yep, and that is what I meant by talking about 
it. I am pushing that. I have visited now 44 of my 56 field 
offices. I talk about it everywhere I go to make sure that I am 
shaping the culture in the right way, and I think that is an 
exception, that particular--what is reflected in that 
particular news account. I think we have made tremendous 
progress in 13 years, and we will keep working on it.
    Mr. Duncan. That is his time. Thank you. Mr. Secretary.
    Secretary Johnson. Congressman. Just yesterday, Director 
Comey and I got together to talk about cybersecurity to ensure 
that our organizations are working together effectively on 
cybersecurity. We both have a role in cybersecurity, along with 
other agencies. So, one of our challenges is to make sure that 
what you refer to doesn't happen, because that doesn't do any 
good for the American people, for our Government, for the 
taxpayers, to see us engaged in turf war.
    So, we have committed to setting the example at the top and 
instilling that example in the rank-and-file in our leadership. 
So, on cybersecurity for example, we get together routinely to 
talk about what is our framework? Are we getting it right? Are 
we having any turf battles?
    So, all three of us, I think, and I think I speak for our 
respective organizations and our respective communities, are 
committed to working together. I think it does depend a lot on 
the personalities at the top committing to work together.
    The last thing I will say is your comment about DHS. In the 
9 months I have been in office, I have seen the advantage of 
having the components within my Department together at one 
conference table. When we were dealing with the situation in 
the Southwest Border this summer in the Rio Grande Valley, I 
could put together at my conference table CBP, ICE, CIS, FEMA, 
and the Coast Guard to deal with the situation, to tell them 
what needs to be done.
    These are entities that were scattered across the Federal 
Government, previous to the creation of DHS. So, I have seen 
the synergies of putting a lot of these components together in 
one Department. So, if that was the thrust of your comment, I 
very much endorse it and agree with it.
    Mr. Duncan. Well, that was the whole idea. I am glad it is 
working. I am glad you are communicating with all your 
elements. That is why it was stood up. We need to learn from 
the 9/11 Commission Report. The reason we combated the 
stovepiping, the sharing of information, Americans are counting 
on you guys.
    So, thank you so much, and God bless you.
    I yield back.
    Chairman McCaul. Thank you sir.
    Chairman recognizes Mr. O'Rourke.
    Mr. O'Rourke. Thank you Mr. Chairman, for holding this 
hearing. I join my colleagues who said earlier that there is 
perhaps no way that the American public can know everything 
that each of you and the men and women who work with you have 
done to protect this country. Nonetheless, we owe you our 
thanks, and I want to join my colleagues in letting you know 
how much we appreciate it.
    Secretary Johnson, I appreciate you setting the record 
straight on terrorist threats to the homeland from our border 
with Mexico. I could not agree more with you that despite our 
success thus far, that there have not been any terrorist plots 
connected to the Southern Border, that there is no evidence 
that ISIS is preparing to infiltrate the United States through 
the Southern Border.
    I couldn't agree more with you that this is something that 
we need to remain vigilant against, and continue to guard 
against. Continue to use all of our resources as warranted by 
the threat that exists based on the evidence that we find.
    I also appreciate you answering my colleague's question 
about whether or not we have sufficient resources on the 
Southern Border. We are spending $18 billion a year. We have 
20,000 Border Patrol Agents, the vast majority of whom are on 
the Southern Border today. Those are double the numbers, more 
than double the numbers that we saw 5 or 6 or 7 years ago.
    As you mentioned, the number of apprehensions is at a 
record low level. We saw 1.6 million apprehensions 15 years ago 
on the eve of 9/11, this year with the spike in Rio Grande 
Valley, I think it is going to be right at about half a million 
at the highest.
    In the El Paso sector, the community I represent, the 
average agent apprehended 4.2 migrants or crossers this last 
year; 4.2 per agent. Now, that number does not reflect the 
deterrent value that those agents have. I think there is a lot 
to be said for that.
    But you also said earlier that while we have sufficient 
Federal resources there, we could use more. You mentioned the 
Senate proposal, which I think was to add another 20,000 agents 
on the border. I am really concerned that when we know that the 
greatest risk is at our airports, we have talked about home-
grown terrorists, that we are obsessively focusing on the 
Southern Border.
    Again, let's remain vigilant, but we have finite resources. 
We should apply them where we have the greatest threats based 
on established risks that we have been able to determine. I 
would love to get your thoughts on that comment.
    Secretary Johnson. Most people would endorse the notion of 
a risk-based strategy to homeland security, border security, 
aviation security. We focus resources where we believe the risk 
exists. It is an effective, efficient use of taxpayer dollars.
    In aviation security, for example, we made the judgment to 
develop the TSA Pre-Check program, where we focus resources on 
the population we know less about. The Border Patrol experts 
that I have talked to also endorse that approach.
    So, with additional personnel, additional boots on the 
ground on the border comes surveillance technology, the ability 
to monitor what is going on on the Southwest Border, to know 
where the threat areas are. Because they do migrate. They do 
move around.
    We had a challenge this summer in south Texas.
    So, I continually, with our Border Patrol personnel, look 
at where are the threat areas, how has it evolved, and so in my 
judgment, in response to your question, I think that a risk-
based strategy is appropriate, and I think that technology, 
more technology, more surveillance, is the key to our future 
for border security.
    Mr. O'Rourke. Just following on your comments, my colleague 
sought analogy in previous conflicts to apply to this threat 
from terrorists who might want to enter the homeland. I also 
think about the French on the eve of World War II and their 
obsession with the Maginot Line. Yet somehow, through 
fortifications and a line of defense and a specific place, we 
are going to somehow solve a threat posed to this country.
    I think we have to be far more creative and really be 
rigorous and disciplined about applying resources to where 
those threats are or where they could be based on established 
risk.
    Last question to you, Mr. Secretary. There is a Southern 
Border and approaches campaign plan through DHS. Some have 
compared this to a SOUTHCOM type effort of organizing resources 
and assets against a specific threat. Could you very briefly 
describe the intent of that campaign, and where you are in its 
implementation?
    Secretary Johnson. Well, first of all, going back to your 
previous question, I think I speak for my colleagues when I say 
none of us downplay or underestimate the risk of, or the 
concern of a terrorist or terrorist organization infiltrating 
our homeland. I mean, that is probably our primary concern, 
day-to-day, when we go to work every day, and it is something 
we have to continually be vigilant about.
    The southern campaign plan is in development. I expect to 
be in a position to announce some things in the month of 
October concerning the southern campaign plan. It is an effort 
to more strategically bring to bear all of the resources of my 
Department on border security in a way that is not stovepiped, 
in a way that is strategic in how we use all our different 
resources within the Department.
    Mr. O'Rourke. Thank you.
    Thank you, Mr. Chairman.
    Chairman McCaul. The Chairman now recognizes Mr. Chaffetz.
    Mr. Chaffetz. Thank you Chairman, and I thank all three of 
you for your dedication, for the men and women who serve in 
your departments and agencies.
    Secretary Johnson, I want to thank you particularly for the 
good work the men and women are doing in Homeland Security. I 
can tell you, since you have taken office, the production and 
the response to Congress in terms of responding to our letters 
and inquiries is--the difference, I cannot tell you how much 
better it is. I thank you and the people who work on this. I do 
appreciate it.
    Secretary Johnson. You may not like the responses, but you 
are getting them faster.
    Mr. Chaffetz. Thank you. Yes. True.
    Since you took office, Secretary Johnson, on December 23--
or Secretary Johnson, on December 23, are you aware of any 
apprehensions of suspected or known terrorists who were trying 
to come to our country illegally?
    Secretary Johnson. That is an important question. 
Attempting to come to this country?
    Mr. Chaffetz. Who came across our border illegally. Did you 
ever apprehend anybody who was a known terrorist, a suspected 
terrorist, somebody who had ties to a terrorist organization?
    Secretary Johnson. Sitting here right now, no specific case 
come to mind. That doesn't mean there is none. Perhaps Director 
Comey can think of one. Sitting here right now, I--none comes 
to mind, but that doesn't mean there isn't one, nor does that 
mean there is no investigation of one either.
    Mr. Chaffetz. My concern is that I have a reason to believe 
that on September 10, there were actually four individuals 
trying to cross the Texas border who were apprehended at two 
different stations, that do have ties to known terrorist 
organizations in the Middle East.
    Were you not aware of that?
    Secretary Johnson. I have heard reports to that effect. I 
don't know the accuracy of the reports or how much credence to 
give them. But I have heard reports to that effect.
    Mr. Chaffetz. I guess that is my concern, is you, as the 
Secretary, does that information rise to the level of the 
Secretary? Let me give you some metrics and some of the reason 
I am concerned about what is going on on the Southwest Border. 
This is an internal document of yours. While there were, as 
noted, nearly 466,000 apprehensions over the last 351 days, we 
also had 157,012 got-aways; we had 142,630 reported turn-backs.
    But one of the other metrics that is also fascinating to me 
is the sensors that are found there primarily throughout the 
Southwest. We had just under 5 million sensor hits in fiscal 
year 2013. But in fiscal year 2014, over the last 351 days, we 
have now had more than 6 million of those hits.
    Now, we have got wild burros and tortoises and animals 
that--there are a lot of false positives there. But the concern 
is if you look at the apprehensions, we have apprehended people 
from 143 different countries--143 countries, according to the 
internal statistics; 13 were from Syria; six were from Iraq; 
four were from Iran. The list goes on to 143 different 
countries.
    The men and women that work on our Southwest Border, they 
do an amazing job. But to suggest that we have operational 
control of the border, I--help me understand this. You said 
there was a 70 to 90 percent success rate. Explain to me what 
that is.
    Secretary Johnson. When you look at what we believe to be 
total attempts to cross the border illegally, the estimated 
rate of those who make the attempt, of those who are 
apprehended, is somewhere between 70 and 90 percent. It varies 
in time and it varies in sector.
    Mr. Chaffetz. Now, the GAO--previously, the GAO had 
indicated that there was only a 6 percent operational control 
of the border. What percentage--what is the operational control 
of the border at this time?
    Secretary Johnson. I don't have that number off-hand. I do 
agree with you that the challenge of those coming from 
countries other than Mexico, particularly into the Rio Grande 
Valley sector, is one I am very concerned about. It is 
something that I have been concerned about since I took office 
in January. I have seen it myself at our detention center in 
Brownsville when I visited there in January. There was 
something like 80 nationalities of illegal migrants present 
there.
    Mr. Chaffetz. I need to interrupt because I have just a 
little time. I have got to switch real quick to a yes or no 
question.
    In 1983, President Reagan put in place a prohibition on 
Libyan nationals from seeking visas to come to the United 
States to be trained in aviation security--or aviation and 
nuclear sciences. Myself, the Judiciary Chairman Bob Goodlatte, 
Congressman Trey Gowdy, and I introduced a piece of legislation 
that would keep that prohibition in place. There has been a 
process going through--through your offices and through the 
administration to actually reverse that prohibition that was 
put in place in 1983. That now sits on your desk. What is your 
view of lifting that prohibition?
    Secretary Johnson. I do not intend to lift that prohibition 
at this time. I don't believe legislation to prevent me from 
lifting it is necessary. I think given the current environment, 
I do not intend to lift it at this time.
    Mr. Chaffetz. I appreciate it. Thank you.
    I yield back. Thank you.
    Chairman McCaul. The Chairman recognizes Mr. Swalwell.
    Mr. Swalwell. I thank the Chairman. To our witnesses, 13 
years ago I was a Congressional intern here in this town when 
September 11 happened. I watched with great interest our 
country's response to September 11 and I watched the creation, 
Mr. Secretary, of your Department and this committee become a 
full standing committee.
    Now I think what we are experiencing with the rise and 
spread of ISIL in the Middle East and our efforts to respond to 
it is exactly why this Department was created.
    So first, I just want to thank you, Mr. Secretary, and the 
two directors for the work you do every day to answer to these 
challenges to keep us safe here at home. Because while we are 
going to consider today what offensive measures we may take 
abroad, the critical component that I am most concerned about 
is what are we doing here at home.
    So first, I just want to get out of the way something that 
my college from Texas alluded to. Mr. Secretary, do we have any 
evidence of any of the following groups coming across our 
Southern Border: ISIL?
    Secretary Johnson. We have no specific intelligence that 
members of ISIL are crossing into the United States on our 
Southern Border.
    Mr. Swalwell. How about Hezbollah?
    Secretary Johnson. Director Olsen could comment more 
specifically, or correct me on that, but----
    Mr. Swalwell. I will just go one by one, and if you think 
it takes further elaboration. How about Hezbollah? Yes or no.
    Secretary Johnson. Same answer.
    Mr. Swalwell. How about al-Nusra?
    Secretary Johnson. I believe the answer is the same. But 
again, I want to defer to my intelligence community colleague 
here in terms of any assessments of the current environment.
    Mr. Swalwell. May I also ask, in addition to not stopping 
anyone or interacting with anyone or interdicting anyone who is 
coming across who is not a member of these groups, would it 
also be safe to say that the intelligence community has not 
collected any information in the various means and methods it 
uses to collect intelligence, that there are efforts underway 
to use the Southern Border to go into the United States?
    Mr. Olsen. I think that is true certainly with respect to 
your first question, Congressman, on ISIL. We have seen, as I 
mentioned, chatter on, from sympathizers about that question, 
but we have seen nothing to indicate any efforts to enter the 
border--enter the United States through the Southwest Border by 
ISIL.
    Mr. Swalwell. I was in Jordan, Egypt, Morocco, and Israel 2 
weeks ago and met with our State Department teams and our 
allies over there. My greater fear is not the Southern Border, 
but we were told about the number of Americans who are over in 
Syria and Iraq fighting shoulder-to-shoulder with ISIL, as well 
as the number of Westerners who are over there.
    I was hoping that you could elaborate on what we are going 
to do or what we are doing to disrupt any plans of theirs to 
return to the United States and carry out with the tools and 
hate that they have built and developed abroad?
    Secretary Johnson. Congressman, we have made enhanced 
efforts to track these individuals within the various 
communities of the U.S. Government. As you heard me mention, we 
have enhanced our aviation security measures. We are making 
enhanced efforts. We have stepped up our dialogue with our 
allies, with our partners there.
    The President will chair a U.N. Security Council session 
next week on the topic of foreign fighters. We are considering 
a number of things to do that will give us more information 
from passengers from the countries, from visa waiver countries 
so that we know more about individuals who attempt to travel.
    There is always law enforcement. I believe the FBI does a 
terrific job from the law enforcement perspective of 
investigating and arresting people who attempt to join 
terrorist organizations, who attempt to leave the country. I 
believe our allies also understand the nature of this threat 
and are making enhanced efforts as well.
    Mr. Swalwell. With the number of foreign fighters coming 
into Syria and Iraq, I have asked that you, Mr. Secretary, and 
others from the Department, that we really expedite the number 
of visa waiver countries who are participating in Interpol's 
Stolen and Lost Travel Documents Database.
    Because I still remain concerned after what happened back 
in the spring with the Malaysian Airline's disappearance of two 
passengers who had boarded that flight with lost or stolen 
passports. I think now more than ever we need to make sure that 
we know and have these other countries really step up their 
efforts to report to Interpol. I--if you could just update us 
briefly on what we are doing to get these countries----
    Secretary Johnson. We have been having that dialogue with 
our allies. I think they understand the nature of that issue.
    Mr. Swalwell. Great. Thank you again to each of you for 
what you are doing to keep us safe.
    I yield back.
    Chairman McCaul. Let me say, this committee is considering 
legislation to require visa waiver countries to provide more 
data and information in exchange for that privilege.
    So with that, the Chairman now recognizes Mr. Barletta.
    Mr. Barletta. Thank you, Mr. Chairman.
    I don't know if we are making the argument here of whether 
or not we should secure our Southern Border or not. That is the 
feeling I am getting. There has been a lot of talk that if any 
terrorists--whether or not any terrorists have crossed the 
border illegally. But we do know that those wishing to do us 
harm have manipulated in the past our immigration system to 
enter and remain in the United States.
    Mahmoud Abouhalima, he was a convicted perpetrator of the 
1993 World Trade Center bombing; received amnesty in 1986 after 
he claimed to be an agricultural worker, despite being a cab 
driver in New York. The only thing he planted in America was a 
bomb.
    President Obama has told the American people and potential 
terrorists that he plans to grant some form of administrative 
amnesty to potentially millions of those currently in the 
country unlawfully.
    Secretary Johnson, as you make recommendations to the 
President as to how he should implement such a program, how 
will you assure the American people that another Abouhalima 
will not slip through the cracks?
    Secretary Johnson. Congressman, I am very focused on 
knowing as much as we can about individuals who are 
undocumented in this country. I believe that--if an earned path 
to citizenship would have become law, that would encourage 
people to come forward and submit to a background check, so 
that they can get on the books. I know there is a lot of debate 
about--just give me a second, please--there is a lot of debate 
about the earned path to citizenship. From my homeland security 
perspective, I want people who are living in this country 
undocumented to come forward and get on the books and subject 
themselves to a background check, so that I can know who they 
are. Whether it is the current DACA program or an earned path 
to citizenship, whether it is deferred action or an earned path 
to citizenship, from my homeland security perspective, I want 
people to come forward and submit----
    Mr. Barletta. But Secretary Johnson, I have dealt with this 
as a mayor in my hometown. Do we honestly believe that any 
would-be terrorists or a criminal or a drug dealer, is going to 
come forward to have a criminal background check done on them 
or are they going to continue to remain underground? Nobody 
with a criminal record is going to come forward.
    Secretary Johnson. The more I can learn about the 
undocumented population in this country, the better; the more 
effectively we can use our removal resources against the type 
of person you just described, the better. So, I am interested 
in going after public safety National security threats in terms 
of our removal resources. I want to have a system that more 
effectively gets to that population----
    Mr. Barletta. Do you believe Mahmoud Abouhalima would have 
come forward for a criminal background check in 1993?
    Secretary Johnson. Most criminals do not subject themselves 
to criminal background checks; I agree with that.
    Mr. Barletta. So he still would have planted that bomb in 
the World Trade Center. So the 9/11 Commission Report that I 
have here, I question why--this was a report and 
recommendations that was passed by Congress and signed by the 
President--why we haven't taken those recommendations and 
enforced them. The summary in the very first line, it says 
enforcement of our immigration law is a core component that, 
according to the Commission, up to 15 of the 19 hijackers on 
September 11, could have been intercepted or deported through 
more diligent enforcement of immigration laws.
    Why are we not taking up the recommendations of the 9/11 
Commission Report, so that we don't have another attack again?
    Secretary Johnson. There are a number of 9/11 Commission 
recommendations that I wish we could all adopt.
    Mr. Barletta. But enforcing our immigration laws is No. 1.
    Secretary Johnson. Very plainly, enforcement of our 
immigration laws is a top priority of mine. With the resources 
that Congress gives us, we can and we should do an effective 
job of going after those who represent threats to public 
safety.
    Mr. Barletta. Secure the borders.
    Secretary Johnson. Secure the borders.
    Mr. Barletta. The discussion here and we have had in the 
past in another hearing----
    Secretary Johnson. I agree with you.
    Mr. Barletta [continuing]. Whether or not----
    Secretary Johnson. Securing the borders is----
    Mr. Barletta [continuing]. Somebody has crossed the border 
already that is a terrorist. Nobody used a plane to crash into 
one of our buildings before, until the first time as well. That 
is not a good reason that we shouldn't secure the border, 
because we believe that nobody has crossed the border who is a 
terrorist already.
    Chairman McCaul. Thank you.
    The Chairman recognizes Mr. Keating.
    Mr. Keating. Thank you, Mr. Chairman. I want to thank all 
three of our witnesses for their service, particularly Director 
Olsen, as you leave, for your service. It is pretty clear--also 
I want to thank, particularly Director Comey for being here for 
the first time. I appreciate it and I think it is very 
important.
    It is clear from all your testimony that the No. 1 threat 
remains home-grown, radicalized, terrorists in our country. 
That is something that I think is heightened with the ISIL 
threat as well. There is a person that is on the Most Wanted 
list by the FBI as a terrorist. Ahmad Abousamra, who went to 
school, the same schools that one of my children did and then 
later went to school just a few miles away from them. It is 
close to home.
    When you look at these threats and you look at the 
different challenges, I am reminded of our work that we did 
with the Boston Marathon bombing and that investigation that 
concluded that information sharing with local police is so 
important. Given Director Olsen's testimony about how ISIL has 
now become more sophisticated, it is harder to intercept 
messaging, that remains even more of a priority.
    So, I would like to ask Director Comey to share with the 
committee the progress that you made in terms of doing a better 
job, sharing information with local police and also what 
progress is made in terms of formalizing that, too, in terms of 
a memorandum of understanding that can be there and transcend 
different administrations and the need, if any, for regulation 
of statutory change in that regard.
    Mr. Comey. Thank you, Mr. Keating. Yes, for anyone who was 
asleep before 9/11 and woke up today would not recognize the 
depth and extent of information sharing among Federal agencies 
and with our State and local partners; the world is transformed 
in that respect. But I also believe we can always find room to 
improve it. So a number of things we have done since Boston 
that I think have improved it is we have made clear that we 
want the default to be information sharing, and we don't want 
anything to be an impediment to that or misunderstood as an 
impediment to that.
    We have also done something else that I think makes great 
sense, which is each of our Joint Terrorism Task Forces now has 
a regular meeting with all the leadership of the agencies 
involved to review our inventory--what came in over the last--
it has to be with at least 30 days--30 days or a week or 2 
weeks--what came in, what got closed, questions, concerns, to 
make sure everybody is in synch on what is going on in the 
JTTF.
    There are a number of other smaller ways in which we--I 
think we have improved our information sharing. I travel around 
the country and meet with State and local law enforcement now 
in 44 field offices, and I am hearing good things. I think we 
are in a good place. But I don't want to rest on that, because 
there is always something I haven't thought of us, so I want to 
continue that dialog to improve it.
    Mr. Keating. I appreciate that. One of the areas that I 
have found that local officials aren't taking enough advantage 
of--local police now have access to Classified information more 
than they did. But it is my understanding they are not taking 
advantage of that the way they can. Is there something that we 
can do to help those numbers, to make it easier for them or to 
encourage them to get more of that information?
    Mr. Comey. I don't know, other than just encouraging it. I 
am urging all leadership of agencies to participate in our task 
forces, to at least get the Secret-level clearance. So that if 
you need to, you can see things very, very quickly. We are 
getting there. People are coming around to it. People are very, 
very busy. They also know that there are officers and 
detectives that are on our task forces, are cleared and are 
seeing everything. So I think that removes some of the sense of 
urgency, which I get, but we would like to encourage it more 
and more.
    Mr. Keating. I just want to follow up, too, that--I want to 
thank you for your meeting with me and your--our shared 
interest in information sharing with local and State officials.
    I just wanted to reinforce the fact that, even though you 
are--I think you are the only seventh director, there will be a 
time that all of go from our different positions. It is the 
importance of having things in writing, whether is a memorandum 
of understanding or something that transcends that 
administration. What progress are we making in terms of having 
something in writing in that regard, in terms of information 
sharing?
    Mr. Comey. I think that makes good sense. Yes, I will--in 8 
years and 51 weeks, I will be leaving this job. I would like to 
make sure that it doesn't depend upon people, but that the 
processes are documented.
    Mr. Keating. All right, thank you. I think Director Olsen 
wanted to talk.
    Mr. Olsen. If I could just add very briefly, Congressman, 
to Director Comey's answer to your question about 
Unclassified--or Classified information in State and local. 
Together, with the FBI and DHS, we have a program called the 
Joint Counterterrorism Assessment Team, in which we bring State 
and local police officers and firefighters to the National 
Counterterrorism Center, where they have access to all the most 
Classified information on a basis of detail more than 2 years.
    They then help us design products that are Classified and 
turn those into Unclassified products. Again, working through 
DHS and FBI and their channels of communication with those 
communities, so that we can get what we are seeing at the 
Classified National level and turn it into information that is 
usable by police officers on the street and firefighters around 
the country. It has been a very successful program over the 
last several years.
    Mr. Keating. Great. I believe that is our first line of 
defense. I want to appreciate your efforts at making that 
easier to get.
    I yield back, Mr. Chairman.
    Chairman McCaul. I thank the gentleman.
    The Chairman recognizes Mr. Perry.
    Mr. Perry. Thanks, Mr. Chairman.
    Gentlemen, thank you very much for your service to the 
Nation. You have a very difficult job. It is a privilege to be 
here with you today.
    Within--any of my questions, all of my questions, I would 
hope you would answer. Certainly, I know you would, but I want 
to acknowledge that I recognize the confines of operational 
security. But still, within whatever ability you can to answer 
the questions--Mr. Secretary, what are the Department's 
mechanisms in place that would prevent known American and 
European citizens fighting for terrorist organizations in Syria 
and Iraq from re-entering or entering the homeland?
    Secretary Johnson. First of all, Congressman, we have our 
No-Fly List. That is the first thing that comes to mind.
    Second, general aviation security. Though, unless you are 
carrying something suspicious, aviation security in and of 
itself wouldn't necessarily pick you up.
    Passenger travel data, API data, PNR data. The more I can 
learn about travelers, the better. We have a fair amount. I 
think we can do a little better.
    From visa waiver countries, passengers are required to 
answer questions on Electronic System for Travel Authorization 
called ESTA. We have as a condition for participation in the 
Visa Waiver Program security assurances that each Nation is 
required under what we call HSPD-6, which requires security 
assurances from visa waiver countries.
    We have general information sharing with the National 
security intelligence community, communities within each of 
these other governments. So, with the current threat stream, 
the current environment, I think we all agree that we need to 
be particularly focused, particularly engaged in making sure 
that these mechanisms work appropriately.
    Mr. Perry. So, let me ask you this--I am not a--you know, 
was never in law enforcement, so I defer to you folks. But what 
I hear, it seems like--somewhat passive. I don't mean to 
degrade its ability and capability, but it seems somewhat 
passive. You know, asking a passenger to disclose information 
that is vital to us in securing the Nation, when their motives 
might be otherwise, seems less than optimal. So, I am looking 
to see if there is anything that we have done that is new, so 
to speak, that you would be, and should be willing to--or could 
be willing to divulge. Maybe anything that you might think that 
we should be looking at to get to the issue.
    Secretary Johnson. Well, I want to defer to Director Olsen 
on this, but we can just outright prevent them from traveling--
--
    Mr. Perry. Right.
    Secretary Johnson [continuing]. Or prevent them from 
entering----
    Mr. Perry. True.
    Secretary Johnson [continuing]. The country. Or if they 
don't quite rise to the level of being on a No-Fly List, they 
should be subjected to some form of secondary screening, 
though--which is more than just answering questions. It gives 
us an opportunity to provide enhanced scrutiny on an individual 
before they get on an airplane. But Director Olsen, go ahead.
    Mr. Olsen. I think, exactly as Secretary Johnson said, 
there are a number of opportunities and layers of screening 
that occur for anyone trying to travel to the United States 
that--arriving at the border is just one point in time, but 
before they ever arrive here, one of the--there are 
opportunities to do that. One of the changes from the 9/11 
Commission 13 years ago was to create a single consolidated 
database of known suspected terrorists. Together with the FBI 
and DHS and a number of other agencies, we have a single 
database that is consolidated across the Government of every 
known suspected terrorist that we have information about. That 
information, Classified, is then turned into an Unclassified 
watch list that is shared with the Terrorist Screening Center 
and a number of other agencies that have a screening 
responsibility. So, the No-Fly List is just one example.
    But everyone who applies for a visa and everyone who seeks 
to travel here from a visa waiver country through the ESTA 
program--their information is screened against in that 
database. So, when they put their name and passport number into 
the system, whether they are applying for a visa or coming from 
a non-visa-requiring country, that information is then checked 
to see if they are on the watch list. They are either then 
subject to additional screening, or stopped altogether from 
traveling to the country.
    Mr. Perry. All right. I understand. I appreciate the 
answer. I am not here to be critical, so I am not going to be. 
I am just curious.
    While my--before my time expires--suspected ISIS social 
media accounts have called for unspecified border operations, 
where they have sought to raise awareness for illegal entry 
through Mexico as a viable option. Based on even some of your 
testimony that says that we have weak immigration laws, and the 
fact that we would use DACA, do you think that we should be 
concerned that they would use this propaganda to breach the 
Southern Border and use that as an operational tool? Should we, 
as Americans, be concerned about that possibility, based on 
everything that you know in our posture today?
    Mr. Olsen. Yes, absolutely, we need to be concerned about 
all the ways in which someone can enter this country for the 
purpose of carrying out a terrorist attack. As Secretary 
Johnson said, it is our overriding No. 1 priority, is to 
prevent that from happening.
    Again, we need to be--we need to allocate our resources 
based on the information we have and where we see the threat. 
At this point, while we have seen some social media, I think in 
small numbers, not individuals who are sympathetic to ISIL, 
talking about the Southwest Border. We have seen nothing to 
indicate that there is actually any real effort to use the 
Southwest Border to enter the country.
    Mr. Perry. Thank you.
    Thank you, Mr. Chairman.
    Chairman McCaul. The Chairman now recognizes Ms. Clarke.
    Ms. Clarke. Thank you very much, Mr. Chairman.
    I want to first of all, just applaud all of your efforts to 
keep the American people safe and secure. You know, I think all 
of my colleagues have stated it, but I wanted to emphasize that 
since 9/11, we have really progressed and stood up in 
infrastructure that has, for the most part, kept our Nation 
safe from foreign terrorist attacks.
    I want to also wish you much continued success in all of 
your endeavors.
    I want to drill down a little bit more on the subject of 
cybersecurity, particularly the workforce. We have heard a 
number of colleagues raise it today. But I know that the 
Federal, State, and law enforcement organizations face 
challenges in having the appropriate number of skilled 
investigators, forensic examiners, and prosecutors.
    We all know that the pool of qualified candidates are 
limited, because individuals involved in investigating or 
examining cyber crime are highly trained specialists, requiring 
both law enforcement and technical skills.
    According to some, once an investigator or an examiner 
specializes in cyber crime, it takes up to 12 months for that 
individual to really become proficient in the use of those 
skills. Add to that the competitive nature of the arena, the 
difficulty of competing with the private sector.
    So, my question to you is: When we know that it is a 
challenge to recruit such individuals from a limited pool of 
available talent, retain them in the face of private sector 
competing offers, and train them up, to date, with changing 
technology and increasingly sophisticated criminal techniques, 
how are you dealing with this specialized manpower issue in 
your agencies?
    I want to also submit to you that while today we are not 
necessarily seeing the nexus between advanced terrorist 
activity through the use of the internet, I can envision theft 
that then feeds money into these enterprises, and I am sure you 
can as well--as creative as we can be in our minds, they too 
can be creative.
    So, would you just share with us some of your thoughts?
    Secretary Johnson. I will start with that. I agree that 
talent, cyber talent is critical to our efforts.
    I have personally engaged in recruitment efforts, and have 
encouraged young people in graduate schools in the cyber 
corridor in northern Louisiana, Georgia Tech, and other places, 
to consider a career or at least a short period of time before 
they go into the private sector working for DHS or the FBI or 
some other place, to serve their country.
    There is a tremendous level of learning they can get by 
serving their country in the cybersecurity world, even for a 
short period of time.
    But Congress can help us with this. There is a bill pending 
right now, I think on the Senate side, to enhance my cyber 
hiring capability, and I am hoping along with some other 
pending legislation in cyber that the Congress will act on 
that. Because I do need help in attracting cyber talent.
    Ms. Clarke. What about the issue of retention? Are you 
finding that people come--and I mean is it an ebb and a flow? 
How do we maintain----
    Secretary Johnson. I just lost a very, very valued member 
of my cybersecurity team to Citigroup. So, yes, there is an 
issue with retention. Financial sector has much more capability 
to offer, very attractive packages, than either Jim or I do.
    So, even though everybody knows it is cool working for the 
FBI----
    Ms. Clarke. Do either of you want to add to that?
    Mr. Comey. I don't want Secretary Johnson to know my 
secrets, because I am competing for the same talent. But he 
just figured one out. It is much cooler to work for the FBI.
    [Laughter.]
    Mr. Comey. That is part of my pitch. But it is a big 
challenge.
    Secretary Johnson. Everyone watching on C-SPAN, I was 
joking.
    Mr. Comey. I oversaw security in two major private-sector 
enterprises before returning to Government, so I used to 
compete from that side for talent. The amount of money that is 
paid to these young folks, doesn't have to be young, but folks 
with talent, we can't compete with.
    So--but I believe we can compete on the nature of our 
mission.
    All right, you are not going to make much of a living doing 
what we do, but what I say to young people is, ``you are going 
to make a life that is unlike any other, because you are going 
to be saving lives.'' That is what we do for a living. So that 
is a different way to think about work, but I think it is a 
place we can and should compete for these folks.
    Chairman McCaul. Chairman recognizes Mr. Sanford.
    Mr. Sanford. Thank you, Mr. Chairman.
    Again, thanks to each one of you for coming, testifying 
before the committee.
    You know, in as much as today's hearings about world-wide 
threats to the homeland and in as much as we are going to take 
a fairly significant vote today with regard to homeland 
threats, I would be curious to hear each one of your 
perspectives on what you view to be the biggest deficiency with 
regard to that plan that we will vote on today.
    Secretary Johnson. I would say that the plan the President 
has put forward to deal with ISIL, assuming that is what you 
are referring to----
    Mr. Sanford. Yes, sir.
    Secretary Johnson [continuing]. Is a strong plan in many 
respects. We have got to work with an international coalition, 
we have got to work to support the efforts made by the new 
Iraqi government, and we have got to take the fight directly to 
ISIL.
    So, I think it is incumbent upon Congress to act on the 
authorities we have requested. I think the President himself 
has said that we cannot expect this--we cannot expect to deal 
with this threat overnight. It is going to take an enduring, 
sustained effort.
    So, I hope Congress will support our efforts in that 
regard.
    Mr. Sanford. Well, might I interject there? I continue to 
always be impressed with your skills, as a former lawyer.
    What I asked was for the biggest deficiency is.
    Secretary Johnson. I would refer you to the State 
Department and the Defense Department, Congressman.
    But I believe that our proposal and our plan is a strong 
one for degrading and ultimately defeating ISIL.
    Mr. Sanford. It is a pass, I understand. Anybody else want 
to take a crack at the apple?
    Mr. Comey. I just don't think that is something that, at 
the FBI I can or should comment on.
    Mr. Sanford. Okay.
    Mr. Olsen. I agree.
    Mr. Sanford. All right. I got three passes on that one. How 
many--let me rephrase the question then.
    You know, von Clausewitz, in his study of war, talked about 
how is it that you impact your enemy's center of gravity? Many 
people have argued that what we are doing, though it is action, 
it is engagement, that it is doing something, we are not at the 
end of the day impacting the enemy's center of gravity and 
their ability to bring harm to the United States.
    Are there any thoughts, if you were to pick one thing that 
you think would impact the terrorism threat to the United 
States these days or around the world, what do you think to be 
their primary weakness, that center of gravity that, if 
affected, would really begin to impact the outcomes?
    Secretary Johnson. Congressman, let me answer that question 
this way.
    From my DHS experience and from my Department of Defense 
experience, I think that it is important that in our efforts, 
we not enable the enemy to recruit faster than we can capture 
or kill the enemy. So, and particularly when it comes to the 
homeland.
    So, along with the efforts of our military, and along with 
the efforts of our partners overseas to take the fight directly 
to ISIL, there has to be an effort at countering their 
propaganda, their social media. There has to be an effort at 
engaging potential violent extremist threats here at home, 
because, as has been pointed out by many Members of this 
committee, these groups in the current age are very good at 
propaganda, at recruitment without having to recruit somebody 
and indoctrinate them in a terrorist training camp.
    So, I am focused on countering violent extremism at home. 
Together, we are focused on counteracting the literature and 
the propaganda, the notion that ISIL is an Islamic state, which 
is false. It is not a state, and it is not Islamic. It is a 
group of murderers and kidnappers who commit genocide. So, they 
are a group of depraved individuals who have captured the 
world's attention right now.
    So, I think I am addressing the premise of your question, 
which is that it has got to be a comprehensive effort that 
involves multiple agencies of our Government.
    Mr. Sanford. I see I am down to 30 seconds, so let me just 
skip to my last question, very, very quickly.
    That is, given what some of the testimony has uncovered 
with regard to this constantly recurring theme of roughly 6 
percent operational control, based on GAO report with regard to 
the border, our Southern Border, why not, again, simply build a 
fence?
    I would be curious to hear each one of your quick thoughts 
as to, yes or no, why not simply build a fence?
    Secretary Johnson. Would you like me to start?
    Mr. Sanford. Well, you filibuster the best. So, I think I 
would rather go to the others first.
    Mr. Comey. I am just going to give you a pass so I can 
pitch it back to him.
    Mr. Olsen. Yes, really, pass as well, since it is not 
really within our remit.
    Secretary Johnson. First of all, Congressman, what we do on 
the Southern Border depends in very large part on the resources 
that Congress is willing to give us, so----
    Mr. Sanford. So, absent the resource question, what would 
be your recommendation? Why not simply build a fence?
    Secretary Johnson. My recommendation is the most effective, 
efficient use of our resources is a risk-based strategy. I do 
not believe that building a wall across the entire Southwest 
Border is an appropriate use of taxpayer dollars.
    If I build a 15-foot wall, somebody is going to build a 16-
foot ladder. So, we have the technology in place, and we need 
more to be able to look to where the risk----
    Mr. Sanford. I might interject, they might build a 16-foot 
wall, but it would certainly not allow school-age children to 
walk up to officers and hand themselves over.
    Secretary Johnson. Very definitely, the situation we faced 
this summer was one where many of these kids wanted to get 
caught. So, when you are dealing with that kind of situation, 
it is important to demonstrate that our--that if you come here, 
you will be apprehended, and we will send you back.
    So we stepped up our ability to send people back quicker. 
We engaged in a pretty aggressive public messaging campaign 
about the hazards of doing that. But again, when we go down 
that road, we need a partner in Congress. I didn't get one this 
summer.
    I asked for money to help pay for our efforts to step up 
our border security, and we didn't get help. I now have to pay 
for it----
    Mr. Sanford. I have many, many different thoughts on that, 
but I see I have entirely burned through my time, Mr. Chairman. 
To be continued, sir.
    Chairman McCaul. Thank you, sir.
    The Chairman recognizes Mr. Richmond.
    Mr. Richmond. Thank you, Mr. Chairman, and thank you to the 
witnesses here, who play a great part in protecting the area I 
represent in Louisiana. With that, let me just ask, because I 
heard it said before that cybersecurity and our home-grown 
terrorists are really what keeps us up at night. It was 
mentioned that especially with the home-grown terrorists, it is 
someone--well, cybersecurity could be someone sitting in their 
basement on a computer trying to wreak havoc.
    So, we know what we do, Secretary Johnson, in terms of our 
chemical facilities and making sure that they are equipped to 
deal with those types of things. But in Louisiana we also have 
a number of ports and shipping companies. We have the loop that 
handles at its peak over 1.2 million barrels of oil a day and 
is responsible for probably 50 percent of oil getting to the 
refineries in Louisiana.
    How confident are we that we are communicating enough with 
State police, local police, wildlife and fisheries, and all the 
other departments to make sure that our facilities offshore and 
our facilities that connect are covered?
    Also embedded in that question is making sure that the 
intelligence sharing is there and that our State police and 
local police have done what they need to do to have the 
clearance.
    Secretary Johnson. Going back to what Director Comey said, 
I would welcome the opportunity to be in a position to share 
more with our State and local partners in terms of Classified 
information once they have a security clearance and a 
background check. I think it is in all of our interest that we 
do that.
    I have been impressed in the 9 months I have been in office 
with the level of cooperation and participation we get from 
State and local law enforcement. I think in some areas of the 
country the relationships are better than in others.
    I have also visited a number of ports. I haven't been to--I 
have been to the Coast Guard station in New Orleans. I have 
not--I don't know that I have been to the commercial port 
there, but I have been to a number of ports. I have been 
impressed with our level of cooperation with local authorities.
    But we have got to keep at it and we can always do a better 
job. Port security is one of my priorities while I am in 
office.
    Mr. Richmond. The other thing--and you talked about 
resources especially in response to the question from my 
colleague Mr. Sanford. What other resources that--do you think 
that we could provide local governments to help them with 
homeland security? I know that with different port police 
departments you all have offered license plate scanners and 
they can apply for grants to do things of that nature.
    But in a city like New Orleans, for example, that brings in 
about over 9 million visitors a year, hosts Super Bowls, 
National championships, Mardi Gras, all of those things, 
outside of just the area of the ports, assets like those could 
be very, very valuable.
    The question becomes what do you think the role is of the 
Federal Government to assist local police departments and State 
police in getting that equipment that would make the country 
more safe, especially when you have events that have millions 
of people in town at a time?
    Secretary Johnson. I think the principal means is our 
grant-making activity. Through our grants, we fund a number of 
different programs, training, the ability to provide equipment 
for homeland security. So I think grants is the principal means 
by which we should do that.
    I want to make sure that we have our grant formulas 
correct. That is something I am looking into. I want to make 
sure that we--our grant making around the country is at 
appropriate levels.
    Mr. Richmond. Mr. Comey, Mr. Olsen, I will just ask you 
slight request, and if you want to reply it would be great. To 
the extent that your intelligence sharing and your 
effectiveness also goes hand-in-hand with the ability and 
competence of local police departments, and you all do a great 
job what you do, but you can't be successful if the local 
police departments are not focused and competent in doing what 
they do.
    To that extent, do you all have a mechanism to let Members 
of Congress know, hey, your police department is slacking in 
some areas that could make your communities unsafe? I think it 
is something that all the Members of Congress would take great 
interest in to make sure that they know all of the police 
departments and sheriffs in their area are focused on it.
    If they are not, we may have to give them that extra push 
to get them there. So can you provide us that information and 
do you see cases of that?
    Mr. Comey. It is a good question, Congressman. I don't know 
is the answer. I don't think there is a vehicle for us to do 
that. In a way, we don't focus a lot on that because if we see 
a problem we try and work with that partner to help them fix 
that problem. If they need resources, we go to Jeh's people, 
see if a grant can be made. So the answer is I don't think so.
    Mr. Olsen. I agree with Director Comey on that point. I am 
not sure that I have seen an actual mechanism. Obviously we--as 
Director Comey said, we just try to fix those problems when we 
see them in the field.
    It is something that from my vantage point, NCTC, we work 
through DHS and FBI in any outreach we have with State and 
local law enforcement. But I do agree with your fundamental 
point that it is fundamentally our best line of defense, our 
first line of defense against any sort of particularly home-
grown attack.
    Mr. Richmond. Well thank you for your questions. I would 
just say that if you see that any of my law enforcement chiefs, 
if they don't get it, please let me know that they don't get it 
so that I can get involved.
    Thank you, Mr. Chairman. Again, thank you for calling this 
meeting.
    Chairman McCaul. Thank you.
    Let me thank the witnesses for being here today. I think it 
has been an excellent discussion. Great oversight hearing.
    Mr. Secretary, as always, thank you for being here and 
thanks for your outreach to this committee.
    Matt, we wish you well in your future endeavors, and I know 
we will be talking about that personally.
    Director Comey, I think it speaks volumes, your presence 
here today, of a new era being ushered in with the FBI and DHS 
and State and locals coordinating and working together, which I 
always think is the best formula which actually does sort-of 
epitomize what the JTTFs were founded to do in the first place. 
But I think your leadership and being here today, I just can't 
tell you how much I appreciate it.
    So with that, Members may have additional questions in 
writing. With that, this hearing stands adjourned.
    [Whereupon, at 12:31 p.m., the committee was adjourned.]


                            A P P E N D I X

                              ----------                              

       Questions From Honorable Paul C. Broun for Jeh C. Johnson
    Question 1a. Do we know how many Americans have attempted to join 
the Islamic State of Iraq and the Levant (ISIL) and other similar 
terrorist organizations?
    How many have succeeded?
    Answer. Recent estimates indicate there are as many as 16,000 
foreign fighters, of which 2,700 or so are Westerners. DHS is aware of 
over 100 U.S. persons who have traveled to Syria or sought to travel to 
Syria to join terrorist groups operating there, including the Islamic 
State of Iraq and the Levant (ISIL), al-Nusrah Front, and other violent 
terrorist groups. We can provide a more comprehensive answer, including 
details on how many have succeeded, in a Classified setting \1\ (see 
Classified appendix).
---------------------------------------------------------------------------
    \1\ From Testimony of NCTC Director Matthew Olsen at hearing on 
Worldwide Threats to the Homeland (September 17, 2014).
---------------------------------------------------------------------------
    Question 1b. Our current policy is not to suspend the passports of 
American citizens who we believe are traveling overseas with the 
intention of joining organizations dedicated to doing harm to America 
and American interests. Why should these individuals be allowed to 
continue traveling on an American passport? Is it time to reconsider 
and reevaluate this policy?
    Answer. DHS works with its interagency partners, including the 
Department of Justice, the Federal Bureau of Investigation, and the 
State Department to identify and act on cases where individual's 
activities abroad could cause serious damage to the National security 
or foreign policy of the United States. In certain circumstances, the 
Department of State has the authority to revoke or limit passports on a 
case-by-case basis, which can be expedited when the situation warrants. 
Working with interagency partners, DHS retains a range of tools to 
identify and disrupt threats from terrorist travel.
    Question 1c. Does the Department of Homeland Security communicate 
with the Department of State to request that these individuals' 
passports be suspended or revoked? If not, why?
    Answer. DHS works with our interagency law enforcement, 
intelligence, and military partners, including the Department of State, 
to identify actual and potential U.S. citizen foreign terrorist 
fighters, and will, if and when appropriate, recommend that the 
Department of State use its authorities to revoke the U.S. passports of 
these individuals.
    Question 2. Of these individuals who have traveled overseas with 
the aim of joining terrorist organizations, have any of them attempted 
to return to the United States? How many?
    How are the Department of Homeland Security and the Federal Bureau 
of Investigation monitoring these individuals upon their return to the 
United States?
    Answer. We have seen a few instances where U.S. persons who 
traveled to Syria to join terrorist groups have returned to the United 
States. We can provide more details in a Classified setting (see 
Classified appendix).
    As with any terrorism investigation, DHS provides appropriate 
support to the Federal Bureau of Investigation (FBI) through Joint 
Terrorism Task Forces that manage the investigations. We respectfully 
defer to the FBI on the details of how their investigative subjects are 
monitored.
    Question 3. Several American cities and even the State of 
California have declared themselves to be ``sanctuaries'' that will 
protect individuals who have illegally immigrated into the United 
States. Although there are certainly many illegal immigrants who are 
not terrorists or potential terrorists, I am concerned about the 
prospect of dangerous individuals also seeking shelter in these 
communities where they know that they will not be questioned about 
their identity or immigrant status. Do you believe that the potential 
of dangerous individuals who may have ties to terrorist organizations 
hiding amongst these ``sanctuaries'' is a threat to our National 
security?
    Answer. DHS is concerned about any methods used by terrorists to 
gain access to the United States. We can provide more details about our 
assessment in a Classified setting (see Classified appendix).
    Question 4a. I believe that our failure to completely secure the 
border is a threat to our National security. Individuals can enter our 
Nation illegally without being intercepted by border law enforcement. 
How can the Department of Homeland Security know the number of people 
and from where they originate if they are not first intercepted at the 
border?
    If there are unknown individuals crossing the border into the 
United States, how can we be sure that none of these individuals are 
members or have ties to terrorist organizations?
    Question 4b. If we cannot be sure of the identities of individuals 
entering our country illegally, then how can we be sure that these 
individuals are not bringing dangerous materials and weapons into the 
country to be used against our citizens?
    Answer. DHS is committed to prioritizing and focusing our efforts 
to best protect the American public from threats such as terrorism, 
illegal drug and precursor trafficking, human trafficking and illegal 
migration, and arms traffic, while simultaneously facilitating and 
securing lawful flows of people, goods, and intellectual property 
through all potential transit pathways.
    We are continually refining our risk-based strategy and layered 
approach to border security, extending our borders outward, and 
focusing our resources on the greatest risks to interdict threats 
before they reach the United States. The success of our targeted 
security measures depends in great part on our ability to gather, 
analyze, share, and respond to information in a timely manner--using 
predictive intelligence and analysis to identify existing and emerging 
threat streams to target responses. Our success also depends in part on 
our U.S. Border Patrol's mobile and dynamic workforce, in order to 
assign agents to address evolving threats.
    Question 5a. What specific threats does the Islamic State of Iraq 
and the Levant (ISIL) pose to our homeland?
    What centers of American interests overseas are threatened by ISIL?
    Answer. To date we have no information suggesting that the ISIL is 
currently plotting attacks against the United States. However, an ISIL 
spokesman on September 21, 2014, issued a statement calling for attacks 
on all countries involved in the coalition targeting the group in Iraq 
and Syria, including the United States and France. This is the first 
time we have seen the group's leadership explicitly calling for attacks 
on the United States; their previous messaging had called on 
individuals, including Westerners, to travel to Iraq and Syria to join 
the group's efforts there.
    We remain concerned that individuals inspired by the group, 
including some in the United States, could seek to follow the group's 
advice and carry out attacks here, although to date we have no 
information suggesting U.S.-based ISIL adherents are plotting attacks 
inside the United States. As the arrest of an individual seeking to 
travel to Iraq or Syria at Chicago-O'Hare International Airport in 
early October indicates, group sympathizers will likely primarily 
remain focused on traveling to Syria or Iraq for the time being.
    We do assess that ISIL poses a more significant direct threat to 
U.S. interests in Iraq, Syria, and the immediate region. We 
respectfully defer to the FBI and the Department of State on this 
issue, however.
    Question 5b. What specific threats does the Islamic State of Iraq 
and the Levant (ISIL) pose to our homeland?
    Do you believe that this threat justifies a declaration of war 
against ISIL?
    Answer. DHS takes no position on whether the threat posed by ISIL 
justifies a declaration of war.
    Question 6. I am a firm believer in the importance of human 
intelligence in our National security strategy. Do we currently have 
enough human intelligence capacity--both here in the homeland and 
overseas--to counter the threats posed by state and non-state actors 
alike?
    Answer. DHS is working on increasing its human intelligence-
gathering capabilities at home and anticipates increasing its field 
collector/reporter personnel by 50 percent, from 19 to approximately 
30, during the coming year. We are also training Intelligence Officers 
in State and major urban area fusion centers to do intelligence 
reporting. This will increase the human intelligence capability by 
additional 50-60 personnel.
    The DHS Intelligence Enterprise has increased intelligence 
reporting, producing over 3,000 reports in fiscal year 2014.
    An assessment of homeland intelligence capability would require 
consideration of the FBI role and input from the Office of the Director 
of National Intelligence (ODNI).
    Assessment of the overseas capability is outside of the DHS mission 
and should be directed to the ODNI.
         Questions From Honorable Ron Barber for Jeh C. Johnson
    Question 1. What is the Department of Homeland Security doing to 
prevent so-called ``lone-wolf'' acts of terror and how are you engaging 
local communities in these efforts?
    Answer. The Department remains concerned about the consistent level 
of home-grown violent extremism (HVE) activity, as well as the 
potential for conflict areas such as Syria to inspire and mobilize 
U.S.- and Europe-based home-grown violent extremists to participate in 
or support acts of violence.
    We understand that the threat posed by violent extremism is neither 
constrained by international borders nor limited to any single 
ideology. Groups and individuals inspired by a range of religious, 
political, or other ideological beliefs have promoted and used violence 
against the United States.
    Moreover, increasingly sophisticated use of the internet, 
mainstream and social media, and information technology by violent 
extremists add an additional layer of complexity.
    To counter violent extremism (CVE), the Department is working with 
a broad range of partners to gain a better understanding of the 
behaviors, tactics, and other indicators that could point to potential 
terrorist activity within the United States or against U.S. interests 
abroad, and the best ways to mitigate or prevent that activity.
                          community engagement
    To counter violent extremism, the Department regularly engages with 
diverse community groups across the United States in order to 
strengthen resiliency to violent extremist recruitment efforts. Using 
existing community engagement efforts, as well as participatory trust-
building processes, these efforts aim to empower community opposition 
to violent extremism. Active engagement with diverse communities can 
undermine key recruiting narratives used by violent extremist groups, 
such as al-Qaeda, al-Nusrah Front, and Islamic State of Iraq and the 
Levant (ISIL).
    Accordingly, the Department has implemented a number of community 
engagement efforts as part of its broader CVE mandate. These include:
  <bullet> Community Awareness Briefing (CAB).--DHS's Office for Civil 
        Rights and Civil Liberties (CRCL) and the National 
        Counterterrorism Center's (NCTC) Directorate of Strategic 
        Operational Planning (DSOP) developed and implemented the 
        Community Awareness Briefing, designed to share Unclassified 
        information with communities regarding the threat of violent 
        extremism.
  <bullet> Community Resiliency Exercise (CREX).--The CREX was 
        developed by DHS CRCL and NCTC's DSOP to increase trust between 
        communities and law enforcement officials. The CREX is a half-
        day table-top exercise designed to improve communication 
        between law enforcement and communities and to share ideas on 
        how best to build community resilience against violent 
        extremism.
  <bullet> CRCL has held more than 100 community engagement events over 
        the past few years, and more than 5,000 State and Local Law 
        Enforcement and fusion center personnel have been trained by 
        CRCL on cultural awareness and how to best engage with 
        communities at over 75 training events and National law 
        enforcement conferences.
  <bullet> CRCL has led an enhanced engagement initiative around the 
        country with key leaders and officials of Syrian-American 
        organizations who have become strong partners.
    Question 2. As we work to defeat ISIL, what steps can we also take 
in our National counterterrorism strategy to ensure another group does 
not take ISIL's place?
    Answer. Current U.S. strategy is working to degrade, dismantle, and 
ultimately defeat ISIL. This strategy includes lines of effort to 
support effective governance in Iraq, to deny terrorist groups a safe 
haven in Iraq and Syria, and to promote an eventual peaceful settlement 
of the conflict in Syria. U.S. counterterrorism strategy includes 
measures to protect the American people, the U.S. homeland, and 
American interests, both at home and abroad. It involves military, 
intelligence, security, diplomatic, and law enforcement efforts to 
disrupt, degrade, dismantle, and defeat al-Qaeda and its affiliates and 
adherents. It includes efforts to prevent terrorists from developing, 
acquiring, and using weapons of mass destruction. It also includes 
efforts to eliminate terrorist safe havens, build enduring 
counterterrorism partnerships and capabilities, and counter al-Qaeda's 
ideology and violent extremism generally. Efforts are underway to deny 
ISIL, al-Qaeda, and other terrorist groups the access to resources and 
financial networks.
    As noted in the National Counterterrorism Strategy, there are steps 
that the United States can take, and is taking, to address the causes 
that motivate terrorism and violent extremism, and to take additional 
measures to protect our security when a group poses a threat to U.S. 
National security interests. It is important that those contemplating 
whether to engage in terrorist acts see a united opposition against 
them, not just from the United States, but from other nations and 
societies as well.
    In addition to addressing terrorist threats directly when they 
arise, the United States holds core values of respect for human rights; 
encouraging responsive governance; respect for privacy rights, civil 
liberties, and civil rights; balancing security and transparency; and 
upholding the rule of law. As our National Counterterrorism Strategy 
says, the power and appeal of our values enables the United States to 
build a broad coalition to act collectively against the common threat 
posed by terrorists, further delegitimizing, isolating, and weakening 
our adversaries.
    Question 3. How are you currently collaborating with local law 
enforcement to protect ``soft targets'' in our communities and what 
potential gaps in education or training remain?
    Answer. DHS, alongside Federal and State, local, Tribal, and 
territorial, and private-sector partners, identifies and assesses a 
myriad of potential and actual threats to the United States. It is 
critical that all partners work together to effectively prevent and 
protect against these varying and complex threats.
    Collectively, DHS and intelligence community partners, to include 
the FBI, draft and disseminate joint intelligence products to State, 
local, Tribal, and territorial customers. For threat indicators 
originating at the local level, DHS works in concert with State, local, 
Tribal, and territorial partners to provide DHS information and 
intelligence holdings necessary to accurately identify and characterize 
threats.
    A key aspect in developing, maintaining, and exercising these 
threat-related mission contributions with State, local, Tribal, and 
territorial partners are Nationally-deployed DHS Intelligence Officers. 
Intelligence Officers aid and support State, local, Tribal, and 
territorial partners by supporting the access, analysis, and 
dissemination of DHS and Federal intelligence products, specifically 
how these National-level products impact States and localities.
    Assisting State, local, Tribal, and territorial partners in threat 
mitigation and application of protective measures, Intelligence 
Officers work closely with DHS's Protective Security Advisors. 
Protective Security Advisors are critical partners and assist in 
conducting vulnerability assessments, serving as critical 
infrastructure liaisons, and security planning. Protective Security 
Advisors' capabilities and contributions can be applied to ``hard'' and 
``soft'' targets. This spans from chemical manufacturing sites and 
transportation nodes, to mass gathering special events, large retail 
locations, and other ``soft target'' sites.
    With respect to training and education, the State, local, Tribal, 
and territorial community is complex and diverse in terms of protection 
capabilities. DHS's close partnership with State, local, Tribal, and 
territorial partners provides a means to not only share and understand 
threats but also work to offer technical capabilities, training, and 
educational assistance based on needs.
       Question From Honorable Donald M. Payne for Jeh C. Johnson
    Question. Thank you for your testimony, and for what you do to 
ensure that appropriate steps are taken to continue protecting our 
homeland. During the hearing, you made it clear that DHS has the 
Student and Exchange Visitor Information System (SEVIS) in place to 
track and monitor foreign students. The SEVIS database called into 
question whether some students were in compliance with their 
immigration status. It is my understanding that the immigration status 
of these foreign students may have been unclear because they changed 
their school enrollment status, received a green card, or obtained an 
H1B visa. While testifying, you agreed with this assessment, but also 
stated that some of these students have been arrested for 
noncompliance. Can you please clarify your testimony by distinguishing 
between arrests for terrorist-related offenses, if any, and non-
terrorism issues?
    Answer. Of the potential visa overstay candidates you reference in 
your question who may possibly be the subject of criminal investigation 
by U.S. Immigration and Customs Enforcement's Office of Homeland 
Security Investigations, we can clarify that none of these individuals 
are currently being investigated for any terrorism-related offenses.
       Questions From Honorable Paul C. Broun for James B. Comey
    Question 1a. Do we know how many Americans have attempted to join 
the Islamic State of Iraq and the Levant (ISIL) and other similar 
terrorist organizations?
    How many have succeeded?
    Question 1b. Our current policy is not to suspend the passports of 
American citizens who we believe are traveling overseas with the 
intention of joining organizations dedicated to doing harm to America 
and American interests. Why should these individuals be allowed to 
continue traveling on an American passport? Is it time to reconsider 
and reevaluate this policy?
    Question 1c. Does the Department of Homeland Security communicate 
with the Department of State to request that these individuals' 
passports be suspended or revoked? If not, why?
    Answer. Response was not received at the time of publication.
    Question 2. Of these individuals who have traveled overseas with 
the aim of joining terrorist organizations, have any of them attempted 
to return to the United States? How many?
    How are the Department of Homeland Security and the Federal Bureau 
of Investigation monitoring these individuals upon their return to the 
United States?
    Answer. Response was not received at the time of publication.
    Question 3. Several American cities and even the State of 
California have declared themselves to be ``sanctuaries'' that will 
protect individuals who have illegally immigrated into the United 
States. Although there are certainly many illegal immigrants who are 
not terrorists or potential terrorists, I am concerned about the 
prospect of dangerous individuals also seeking shelter in these 
communities where they know that they will not be questioned about 
their identity or immigrant status. Do you believe that the potential 
of dangerous individuals who may have ties to terrorist organizations 
hiding amongst these ``sanctuaries'' is a threat to our National 
security?
    Answer. Response was not received at the time of publication.
    Question 4a. I believe that our failure to completely secure the 
border is a threat to our National security. Individuals can enter our 
Nation illegally without being intercepted by border law enforcement. 
How can the Department of Homeland Security know the number of people 
and from where they originate if they are not first intercepted at the 
border?
    If there are unknown individuals crossing the border into the 
United States, how can we be sure that none of these individuals are 
members or have ties to terrorist organizations?
    Question 4b. If we cannot be sure of the identities of individuals 
entering our country illegally, then how can we be sure that these 
individuals are not bringing dangerous materials and weapons into the 
country to be used against our citizens?
    Answer. Response was not received at the time of publication.
    Question 5a. What specific threats does the Islamic State of Iraq 
and the Levant (ISIL) pose to our homeland?
    What centers of American interests overseas are threatened by ISIL?
    Question 5b. Do you believe that this threat justifies a 
declaration of war against ISIL?
    Answer. Response was not received at the time of publication.
    Question 6. I am a firm believer in the importance of human 
intelligence in our National security strategy. Do we currently have 
enough human intelligence capacity--both here in the homeland and 
overseas--to counter the threats posed by state and non-state actors 
alike?
    Answer. Response was not received at the time of publication.
      Questions From Honorable Paul C. Broun for Matthew G. Olsen
    Question 1a. Do we know how many Americans have attempted to join 
the Islamic State of Iraq and the Levant (ISIL) and other similar 
terrorist organizations?
    How many have succeeded?
    Question 1b. Our current policy is not to suspend the passports of 
American citizens who we believe are traveling overseas with the 
intention of joining organizations dedicated to doing harm to America 
and American interests. Why should these individuals be allowed to 
continue traveling on an American passport? Is it time to reconsider 
and reevaluate this policy?
    Question 1c. Does the Department of Homeland Security communicate 
with the Department of State to request that these individuals' 
passports be suspended or revoked? If not, why?
    Answer. Response was not received at the time of publication.
    Question 2. Of these individuals who have traveled overseas with 
the aim of joining terrorist organizations, have any of them attempted 
to return to the United States? How many?
    How are the Department of Homeland Security and the Federal Bureau 
of Investigation monitoring these individuals upon their return to the 
United States?
    Answer. Response was not received at the time of publication.
    Question 3. Several American cities and even the State of 
California have declared themselves to be ``sanctuaries'' that will 
protect individuals who have illegally immigrated into the United 
States. Although there are certainly many illegal immigrants who are 
not terrorists or potential terrorists, I am concerned about the 
prospect of dangerous individuals also seeking shelter in these 
communities where they know that they will not be questioned about 
their identity or immigrant status. Do you believe that the potential 
of dangerous individuals who may have ties to terrorist organizations 
hiding amongst these ``sanctuaries'' is a threat to our National 
security?
    Answer. Response was not received at the time of publication.
    Question 4a. I believe that our failure to completely secure the 
border is a threat to our National security. Individuals can enter our 
Nation illegally without being intercepted by border law enforcement. 
How can the Department of Homeland Security know the number of people 
and from where they originate if they are not first intercepted at the 
border?
    If there are unknown individuals crossing the border into the 
United States, how can we be sure that none of these individuals are 
members or have ties to terrorist organizations?
    Question 4b. If we cannot be sure of the identities of individuals 
entering our country illegally, then how can we be sure that these 
individuals are not bringing dangerous materials and weapons into the 
country to be used against our citizens?
    Answer. Response was not received at the time of publication.
    Question 5a. What specific threats does the Islamic State of Iraq 
and the Levant (ISIL) pose to our homeland?
    What centers of American interests overseas are threatened by ISIL?
    Question 5b. Do you believe that this threat justifies a 
declaration of war against ISIL?
    Answer. Response was not received at the time of publication.
    Question 6. I am a firm believer in the importance of human 
intelligence in our National security strategy. Do we currently have 
enough human intelligence capacity--both here in the Homeland and 
overseas--to counter the threats posed by state and non-state actors 
alike?
    Answer. Response was not received at the time of publication.
      Question From Honorable Susan W. Brooks for Matthew G. Olsen
    Question. There have been recent media reports of a laptop seized 
from a building occupied by ISIS containing files describing methods to 
grow and disseminate biological pathogens. These reports, if true, 
indicate an interest on the part of ISIS to develop and deploy 
biological weapons. ISIS may also have the opportunity to develop such 
weapons, having access to university laboratories in Iraq. Considering 
this interest and opportunity, while acknowledging that there are 
significant technical hurdles that must be overcome to develop such 
weapons, I am interested in your assessment of ISIS' capability to 
develop and deploy biological weapons.
    Answer. Response was not received at the time of publication.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
